<html>
<title> - PUBLIC LANDS AND FORESTS BILLS</title>
<body><pre>[Senate Hearing 111-744]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-744
 
                     PUBLIC LANDS AND FORESTS BILLS 

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON
                                     

                  S. 1241                   S. 3185
                  S. 1571                   H.R. 86
                  S. 2762                   H.R. 1043
                  S. 3075


                                     

                               __________

                             APRIL 28, 2010


                       Printed for the use of the
               Committee on Energy and Natural Resources
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee

















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Baucus, Hon. Max, U.S. Senator From Montana......................     2
Burke, Marcilynn A., Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................    12
Inhofe, Hon. James M., U.S. Senator From Oklahoma................     8
Krueger, Faye, Acting Associate Deputy Chief, Forest Service, 
  Department of Agriculture......................................    18
Tester, Hon. Jon, U.S. Senator From Montana......................     5
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    31

                              Appendix II

Additional material submitted for the record.....................    47


                     PUBLIC LANDS AND FORESTS BILLS

                              ----------                              


                       WEDNESDAY, APRIL 28, 2010

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. Subcommittee will come to order.
    The purpose of today's hearing is to receive testimony on 
several bills pending before the subcommittee. These include S. 
1241, a bill to amend Public Law 106-206 to direct the 
Secretaries of the Interior and Agriculture to require annual 
permits and assess annual fees for commercial filming on 
Federal land for film crews of 5 persons or fewer; S. 1571 and 
H.R. 1043; S. 2762, the San Juan Mountains Wilderness Act; S. 
3075, the North Fork Watershed Protection Act; and S. 3185; and 
H.R. 86, a bill to eliminate an unused lighthouse reservation, 
incorporate the rocks and small islands along the coast of 
Orange County, California, into the California Coastal National 
Monument, and for other purposes.
    None of my colleagues are present at this time. We have 3 
very active members of the Senate on these natural resources 
issues. Always glad to have Chairman Baucus here--Senator 
Tester, Senator Inhofe. Why don't we begin with you, Chairman 
Baucus.
    [The prepared statement of Senator Feinstein follows:]
    Prepared Statement of Hon. Dianne Feinstein, U.S. Senator From 
                         California, on S. 1571
                              introduction
    Thank you, Chairman Wyden, for holding a hearing on the ``Deafy 
Glade Land Exchange Act.'' This legislation would authorize a land 
exchange between the United States Forest Service and Solano County 
that would add wilderness-quality land to the Mendocino National 
Forest, and help ensure the continued operation of the Fouts Springs 
Youth Correctional Facility.
    Since 1987, Solano County has been working with the Forest Service 
to obtain ownership of the land beneath the correctional facility. It 
acquired wilderness-quality forest land to convey to the Forest Service 
in exchange for the land occupied by the Fouts Springs Youth 
Correctional Facility. In 1992, the Deafy Glade area was deemed by the 
Forest Service a ``priority area for acquisition.'' The County 
therefore acquired land located within Deafy Glade to exchange with the 
Forest Service for Fouts Springs. The County's Deafy Glade land is 
comprised of 4 parcels totaling 162-acres, and it borders the Snow 
Mountain Wilderness Area. This legislation would facilitate the land 
exchange between the County and the Forest Service so that the County 
could own the land beneath the youth facility it operates, and in 
exchange, the Forest Service would acquire a wilderness-quality 
inholding.
                               background
    Solano County operates a youth correctional facility under a 
Special Use Permit issued by the Forest Service on the Fouts Springs 
Ranch, which covers approximately 82 acres within the boundaries of the 
Mendocino National Forest. The County owns the infrastructure but 
leases the land from the Forest Service.
    Solano County has operated the Fouts Springs Youth Facility 
pursuant to a joint powers agreement with Yolo and Colusa counties 
since 1959. Fouts Springs takes juveniles out of environments that lack 
positivity and structure and places them into a regimented and 
supportive environment. Its programs include counseling and education, 
with the goal of giving juveniles the skills to successfully reenter 
their communities.
    More than 20 California counties have placed juvenile offenders at 
Fouts Springs for six month, nine month, and twelve month periods. The 
program is viewed as a last resort for youth before being referred to a 
state prison.
                       what the legislation does
    Specifically, the ``Deafy Glade Land Exchange Act'' would 
authorize:

  <bullet> The transfer of Fouts Springs Ranch--approximately 82 
        acres--from the Forest Service to Solano County; and
  <bullet> The transfer of 162 acres of the Deafy Glade area in 
        Mendocino National Forest from Solano County to the Forest 
        Service.

    The Fouts Spring youth correctional facility is in need of 
substantial upgrades, including the replacement of the main water line, 
electrical system improvements, and renovation of one of the 
dormitories. However, the County has postponed investing in facility 
upgrades until the land exchange is finalized and ownership of the 
Fouts Springs Ranch is transferred to the County.
                               conclusion
    This legislation would not only help ensure the continued operation 
of the Fouts Spring youth correctional facility, but it would also add 
nearly 162 acres of wilderness quality land to the Mendocino National 
Forest. Given the substantial investment already made by Solano County, 
the importance of the youth rehabilitation services provided by Fouts 
Springs, the benefit to the public of acquiring the Deafy Glade in-
holding, I thank you again for including the ``Deafy Glade Land 
Exchange Act'' in this hearing and look forward to working with you to 
enact it into law.

          STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR 
                          FROM MONTANA

    Senator Baucus. Thank you very much, Senator Wyden. I 
deeply appreciate your holding this hearing.
    We want to--Senator Tester and I talked about something 
that's very near and dear to us, something that we love most 
about Montana; that's the North Fork, the Flathead River. You 
can see the photographs, here on either side of us, depicting 
the North Fork. Anyone who experiences the Flathead Valley in 
northwestern Montana is awed by its pristine waters, awed by 
the North Fork, its larger-than-life landscapes, its raw 
wilderness.
    With its headwaters in British Columbia, the North Fork, or 
the Flathead River, forms the western boundary of the Glacier 
National Park. You might get a little sense of that with the 
photograph on your right. It is one of the last untouched 
places in our continent. North Fork, or the Flathead.
    But, for decades, the North Fork has been threatened by oil 
and gas and mining proposals at British Columbia. For the last 
3 to 5 years, I have battled these proposals, one by one, each 
time victorious, knock on wood. Now, after 35 years, we are 
beginning a new chapter of international cooperation in the 
North Fork.
    In February of this year, British Columbia announced its 
intent to prevent mining and oil and gas and coalbed methane 
development in the Watershed. Let me just explain, if I can, 
Mr. Chairman. You can't quite tell from this, but all the 
development of coalbed methane, or oil and gas, or even the 
coal mines themselves, are just across the Montana border, just 
north of the border, up into British Columbia. The economic 
benefit would primarily inure--in fact, entirely inure to 
British Columbia, to private enterprises, to the Province, et 
cetera. There are also some natural resource groups that really 
do use the North Fork Watershed up in British Columbia.
    Unfortunately, the water--because it flows south into 
Montana--and the air south of Montana, means that Montana would 
be the location that gets most of the environmental damage. So, 
if there's mining up in British Columbia, and oil and gas 
leases in British Columbia, the pollution will then flow south 
into the Watershed into the Montana portion of North Fork, 
whereas, basically, economic benefits stays--stay north. That's 
a--just a rough simplification of the issue.
    Senator Tester and I have pledged to do our part, however, 
to establish extra protections south of the border, where 90 
percent of the North Fork Watershed is already federally owned.
    The boundaries of our bill track the boundaries of the 
North Fork Watershed. Half of the area is within the boundary 
of Glacier National Park, where resource extraction is already 
precluded. You can't mine and extract resources at Glacier 
Park.
    There are some very old inactive leases, though, in the 
western half of the Watershed. On March 4, we introduced the 
North Fork Watershed Protection Act, S. 3075, which bans future 
mining, bans of all gas and coalbed methane development on 
Federal lands in the Watershed. The bill enjoys broad support 
from business and conservation interests alike, showing the 
importance of the North Fork for Montana's economy, as well as 
our State's outdoor heritage.
    Jon and I have been active--been in active discussions with 
current owners to retire these old leases, and I am pleased to 
announce a major success. Today, ConocoPhillips, the primary 
leaseholder to the North Fork Watershed, has elected to 
voluntarily relinquish its interest in 108 Federal oil and gas 
leases covering approximately 169,000 acres. That represents 71 
percent of the leased area in the North Fork Watershed. 
ConocoPhillips should be commended, commended for their 
decision and their stewardship of this very unique special 
place.
    I want to take my hat off, Mr. Chairman, to ConocoPhillips. 
I also do, by the way, to the British--British Columbia. 
British Columbia has also taken their action to prevent future 
oil and gas mining developing in this part of the Province, as 
well. They're doing their part; we in--our--as--our country are 
doing our part together, cooperating to do all we can to 
protect this Watershed. It is so, so important.
    Their action--the action by ConocoPhillips--is further 
evidence of the consensus that withdrawal of these Federal 
lands is the only path forward.
    During 1975, during my first term in the House of 
Representatives, I introduced a bill to designate the Flathead 
River as a Wild and Scenic River. I might say, Mr. Chairman, I 
cut my teeth on them in jumping into the fray environmental 
issues with that legislation. My gosh, half--well, a lot of 
people in Montana want to protect their few--you know, very 
unique souls live up in North Fork, who were vehemently opposed 
to it. But, in the end, we got that legislation passed to--the 
boundary to protect the North Fork Flathead, as well the--and 
Scenic River designation.
    That, for me, began a lifelong effort to protect the North 
Fork. I can--well, it would literally take all afternoon, 
chapter and verse, all the efforts that we've undertaken to 
protect the North Fork, beginning with the appropriations, 
multiyear environmental baseline appropriations, when I was in 
the House, and lots of other things. But, this means so much to 
these people of Montana, and so much to me personally, that I 
probably devote as much time on this issue as any other in our 
State.
    Back then, 1975, we dug--found a quote--I said, back then, 
``A hundred years from now, and perhaps much sooner, those who 
follow us will survey what we have left behind. Let us leave 
the Flathead as we found it. Let us prove that we care about 
those who will come after us.''
    Mr. Chairman, we've proved it today. Together we can ensure 
that every Montanan, every American, and every Canadian who 
follows us--and I also want to compliment, again, our Canadian 
friends; it's the partnership--will survey the North Fork and 
share our feeling of awestruck wonder that such a place still 
exists.
    Thank you very much.
    [The prepared statement of Senator Baucus follows:]
   Prepared Statement of Hon. Max Baucus, U.S. Senator From Montana, 
                               on S. 3075
    Mr. Chairman, members of the Committee, thank you for having us 
here today to talk about one of the things that I love most about 
Montana--the North Fork of the Flathead River. Everyone who experiences 
the Flathead Valley in northwestern Montana is awed by its pristine 
waters, larger than life landscapes, and raw wilderness. With its 
headwaters in British Columbia, the North Fork of the Flathead River 
forms the western boundary of Glacier National Park--it is one of the 
last untouched places on our continent.
    For decades, the North Fork has been threatened by oil and gas and 
mining proposals in British Columbia. For the last 35 years, I have 
battled these proposals, one by one. After 35 years of work, we are 
beginning a new chapter of international cooperation in our efforts to 
protect the North Fork.
    In February of this year, British Columbia and Montana announced 
their intent to prevent mining, oil and gas, and coalbed methane 
development in the North Fork on the lands they control. This was a 
huge step forward, for which Governor Schweitzer and Premier Campbell 
should be commended. Jon and I pledged to do our part to establish 
extra protections south of the border, where 90% of the North Fork 
watershed is already Federally-owned.
    So, on March 4, we introduced the North Fork Watershed Protection 
Act, S. 3075, which bans future mining, oil and gas, and coalbed 
methane development on Federal lands in the watershed. The bill enjoys 
support from business and conservation interests alike from all over 
the state, including the Kalispell Chamber, Whitefish Mountain Resort, 
the Billings Rod and Gun Club, and a long list of others. This shows 
the importance of the North Fork for Montana's economy as well as our 
state's outdoor heritage. The boundaries of our bill track the 
boundaries of the North Fork watershed. Half of the area is within the 
boundary of Glacier National Park, where resource extraction is already 
precluded. There are some current leases in the western half of the 
watershed, outside of the park. However, those have been dormant since 
the late 1980s, when a court decision found that they were improperly 
issued.
    Jon and I have been in active discussions with the current owners 
to retire these old leases. And, today, I am very pleased to announce 
success.
    Today, ConocoPhillips, the primary leaseholder in the North Fork 
watershed, has elected to voluntarily relinquish its interest in 108 
federal oil and gas leases covering approximately 169,000 acres, 
representing 71% of the leased area in the North Fork watershed.
    Conoco Phillips should be commended for this decision and their 
stewardship of this very unique, special place. Their action is further 
evidence of the consensus that exists between the U.S. and Canada and 
among businesses and conservationists, that the withdrawal of these 
Federal lands from leasing is the only path forward.
    In 1975, during my first term in the House of Representatives, I 
introduced a bill to designate the Flathead River as a Wild and Scenic 
River. It was designated in 1976. For me, that began a lifelong effort 
to protect the North Fork. At that time I said: ``A hundred years from 
now, and perhaps much sooner, those who follow us will survey what we 
have left behind.''
    Today, we are one step closer to ensuring that that every Montanan, 
every American, and every Canadian who follows us will have the 
opportunity to share our feeling of awestruck wonder that such a place 
still exists, almost untouched by the modern world.
    Thank you.

    Senator Wyden. Thank you, Chairman Baucus. As usual, you've 
tackled a natural resources issue in a very disciplined way. 
You've obviously got broad support, and it seems to me, after 
more than 3 decades of prosecuting the cause for the North 
Fork, you deserve to get a real victory on this. I'm going to 
do everything I can to win support for your bill. I commend you 
for your effort. These are treasured kinds of areas, and we're 
going to do everything we can to pass your bill quickly, and--
--
    Senator Baucus. Thank you, Mr. Chairman. I don't know if 
Senator Tester would like to say something, but this year--I 
think it's this year--marks the--or maybe it's next year, I 
forgotten which--the 100th anniversary of Glacier National Park 
at Waterton Park. It's a great year to celebrate that 
centennial. We're going to have quite a party, 100-year party 
there. Secretary Salazar will be there. I think--who else? 
Secretary--I don't know if Secretary Clinton will be there. 
But, we're doing--we're--there's going to be quite a show as we 
celebrate our 100th anniversary of Glacier National Park at 
North Fork. It's just--it's part of that same ecosystem. It's 
right on the western border of Glacier Park, and it's--so, the 
protection of North Fork is really a part of all this.
    Senator Wyden. We westerners certainly treasure our 
celebrations over our protecting our lands. So, congratulations 
on getting it to this point, and we're going to do everything 
to pass your bill----
    Senator Baucus. I thank you.
    Senator Wyden [continuing]. Quickly.
    Senator Baucus. Thank you very much.
    Senator Wyden. To Senator Tester, my neighbor here in 
Washington, good work, and appreciate all your leadership on 
this. You make whatever remarks you choose, Senator.

          STATEMENT OF HON. JON TESTER, U.S. SENATOR 
                          FROM MONTANA

    Senator Tester. I want thank you, Chairman Wyden. I 
appreciate this opportunity for holding this hearing today.
    I'm very excited to support 2 bills, which I want to 
address today, if I might: the North Fork Protection Act, that 
Senator Baucus has talked about, and the Filming on Public 
Lands Act, both of which I'm a cosponsor of. Both of these 
bills enhance America's ability to enjoy and conserve our 
public lands.
    First, I want to talk about S. 3075, the North Fork 
Protection Act. First of all, I would be remiss if I didn't 
thank Senator Baucus for his leadership over the last 35 years 
on this issue; and actually longer than that. I very, very much 
appreciate his vision and his commonsense approach to the area.
    There's just some places, Mr. Chairman, in this country 
that we shouldn't develop, and one of those is on the west edge 
of Glacier National Park, the North Fork. It is a place that is 
very, very special and should be protected from future oil, 
gas, and mineral leasing. The North Fork of the Flathead is one 
of the farthable--farthest--``farthable,'' that's a good one--
farthest navigable reaches of the Columbia River Watershed, 
which provides clean water for Flathead Lake and downstream to 
Montana and the whole Pacific Northwest. The clear, blue water 
that starts in Canada today will end up supplying the cities 
and towns of Portland and Vancouver tomorrow.
    This area is an economic engine for the entire State of 
Montana. Over 2 million people visited Glacier last year alone, 
and spent an estimated 150 million in the Flathead Valley. 
Every year, close to a billion dollars is spent in Montana for 
people to hunt, fish, raft, hike, ride, ski, and visit our 
national parks. This bill is a part of a larger effort to work 
toward long-term international protection for the North Fork of 
the Flathead, one of North America's last and best places.
    In February, the State of Montana and British Columbia 
signed an MOU signaling an end to a 30-year adversarial 
relationship on this issue. Now, British Columbia, acting as a 
good neighbor, is, as we speak, changing their land-use plan to 
prevent future resource development. I commend them on that.
    In March, Governor Schweitzer and the State of Montana Land 
Board committed to protect the 17,000 acres they own in North 
Fork, as well. Now it is our turn to solidify our commitment to 
these lands. The first step is the passing of this bill. 
Senator Baucus, as I mentioned before, has worked decades to 
protect this Watershed by stopping each new proposed mine, from 
coalbed methane to gold. Senator Baucus and I are now working 
on a proactive plan to protect this area, not just responding 
to a crisis.
    Part of this plan is working with current leaseholders to 
return their leases. As Senator Baucus said, British Columbia, 
too, is working as good stewards in this effort. The fact that 
there are just some places we shouldn't develop is confirmed by 
Senator Baucus's announcement earlier that ConocoPhillips is 
voluntarily returning 169,000 acres of their suspended oil and 
gas leases to the Department of Interior. These leases make up 
71 percent of the holdings in the North Fork. This is no small 
commitment. They recognize the area isn't the place for 
drilling. I'm glad to say that ConocoPhillips is an energy 
partner that we want in the State of Montana, one who develops 
responsibly and recognizes the needs of an area. I look forward 
to working positively with them to build our energy future.
    Along with leaseholders, we're working with the Department 
of Interior, the USDA, and State Department to assure that this 
protection will last a lifetime. Last summer, Secretary Salazar 
stood on the shores of the Flathead River with Max and I, and 
committed to help to protect this area. Secretary Salazar, 
Senator Baucus, and I are not the only people who feel it is 
critically important landscape. From the Whitefish City Council 
to the National Wildlife Federation, all want to protect the 
land that provides clean water and clean air for our 
constituents. In fact, almost 50 groups support this bill to 
protect this Watershed for generations to come.
    Montanans are people who are inextricably tied to the land. 
It defines who we are and what we do, where we work, play, and 
teach our children the values we hold dear are all in the great 
outdoors. When I was a kid, Glacier Park was a magical place in 
the mountains, where the water was cool, clear, and plentiful, 
and you could hike for miles alone. Sharla and I used to take 
the kids hiking into Iceberg Lake in August and to see the 
shores of Lake MacDonald in September, and those are memories I 
treasure and hope I can experience with my grandkids.
    Ladies and gentlemen of the committee, Chairman Wyden in 
particular, protecting the North Fork of the Flathead is about 
preserving large landscapes, providing clean water, and 
ensuring trout can spawn, but those are secondary to the 
experience that we preserve for future generations. It's all 
about assuring our kids and grandkids to be able to get to 
catch a bull trout on the confluence of the North and Middle 
Fork, or when they hike the Highline Trail, they can look as 
far as the eye can see and experience the same pristine view 
that we have enjoyed in Glacier. This bill will ensure that 
that happens. The North Fork of the Flathead, Glacier Park, and 
a Crown of the Continent landscape is an iconic place that 
advance--defines peoples images of Montana and the West, and we 
should assure that that never changes.
    One last time before I turn it over to Senator Inhofe, who 
will speak on S. 1241, and then I'll come back and follow up on 
his remarks, I want to thank Senator Max Baucus. Max has done a 
great job looking out for this region over many, many, many 
decades, and I certainly appreciate his leadership once again 
to step up the plate and do what's right.
    Senator Wyden. Thank you, Senator Tester. Right before we 
go to Senator Inhofe, let me also say I especially appreciate 
your bringing up--and I know Chairman Baucus has strong views 
on this--that we, in the West, feel that these bills are also a 
true economic engine for our region. They pump millions and 
millions of dollars into Western communities as visitors come 
and you have guides and people are selling the equipment and 
jackets and the like. With this economy, I especially 
appreciate your making that last point then.
    Senator Baucus. Mr. Chairman, if I might, that is so true. 
It is so true. In fact, this legislation and all our joint 
efforts, Jon's and mine, to help protect the character of the 
North Fork and also Glacier Park, is strongly, strongly 
endorsed by the Chamber of Commerce, by all business groups. 
It's a economic lifeblood. I've forgotten the exact number. I 
think it's close to $2 billion in the Flathead--basin has 
spent. It's Glacier and Flathead Basin which includes North 
Fork of the Flathead. It's--people want to come and experience 
it, and we enjoy the dollars that they spend.
    Senator Wyden. My thanks to both of you. An excellent case, 
and as I told Chairman Baucus, we're going to try to move this 
bill as quickly as we can.
    Senator Tester, would you like to have Senator Inhofe 
testify, and then you want to come back to make some additional 
comments?
    Senator Tester. I would. Yes, I think that would be 
entirely appropriate. Thank you, Mr. Chairman.
    Senator Wyden. Chairman Baucus, did you want to be excused 
at this time?
    Senator Baucus. If I may.
    Senator Wyden. OK. Thank you.
    Senator Baucus. Thank you----
    Senator Wyden. All right.
    Senator Baucus [continuing]. Mr. Chairman.
    Senator Wyden. We're very glad to have Senator Inhofe with 
us. Just as an aside, I was just talking about Senator Inhofe a 
few minutes ago as we try once again to eliminate, finally, 
secret holds and bring some more transparency to government. 
Senator Inhofe and I have partnered on that, and many other 
things in the past. We always welcome Senator Inhofe before 
this subcommittee.
    Senator, just proceed as you'd like.

        STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR 
                         FROM OKLAHOMA

    Senator Inhofe. Thank you, Chairman Wyden.
    I appreciate, also, the comments that were made by both of 
the previous witnesses on ConocoPhillips. They've made such 
great contributions, and I know they're in the Tallgrass 
Prairie area in Oklahoma. They're both from my area of 
Oklahoma, so I'm very proud for the contributions that they've 
made. I wasn't aware of this up there, so it's been helpful to 
me.
    Chairman Wyden, I do appreciate the opportunity to just 
present what we're--a problem that can be corrected by S. 1241, 
which I have introduced with Senator Tester and with Senator 
Crapo.
    The House companion bill is H.R. 2031. It was introduced by 
my colleague in Oklahoma, Congressman Dan Boren, and he has 
some seven other bipartisan cosponsors. So, there's nothing 
partisan about this. This is something that is just the right 
thing to do. The Congressional Sportsmen Caucus has designated 
S. 1241 as a priority for this Congress, and the legislation is 
supported by 33 sportsman and conservation organizations, 
including the National Rifle Association.
    Very simply, this bill lessens the burdens on small 
commercial filming on public lands by authorizing a special 
permit to small film crews, defined in the bill as 5 persons or 
fewer, to simply pay a reasonable annual fee and be able to 
film on public lands.
    I think what's been said already this--today, the--our 
public lands are just an incredible natural resource, and our 
professional outdoor media industry is a valuable way to bring 
the awareness to our Nation's resources through documentaries, 
sporting programs, and other productions. Small filming crews 
can be negatively affected by the current permitting in fee 
schedule, because wildlife filming is a very--very much 
affected by unpredictable factors requiring much patience and 
time.
    For example, Steve Scott--he's from Norman, Oklahoma, he 
has a--one of these small operations. He's an independent 
television producer, and he's the former chairman of the 
Professional Outdoor Media Association. He probably best 
describes the work of the small outdoor filming operation, when 
he testified before Congress last--a short while ago. I was 
there, and I'm going to quote what he said, because he says in 
it a way that more nearly reflects those who are in this 
business. He said, quote, ``By its very nature, wildlife 
photography is extremely time consuming. While large film and 
television production crews need relatively little time on 
public lands to complete their project, our Nation's 
professional outdoor media may spend weeks or months in the 
field in order to capture a few magic seconds of unstaged 
nature in its pristine state. When outdoor media members spend 
time in the field under the current fee structure, we also 
spend money and we spend a lot of it.'' That's all a quote.
    The small professional outdoor filming industry has had 
enough of the natural barriers. The Federal Government 
shouldn't impose itself as another barrier, through daily fees, 
adding to the expense.
    I've received letters from at least 15 small filming 
producers from across the country, all highlighting the need 
for--to standardize the permitting to film at reduced costs for 
these small producers. I would ask that their letters--I have 
them with me--be made a part of the record, along with the 
statement by the gentleman that I just quoted.
    Senator Wyden. Without objection, it's ordered.
    Senator Inhofe. Yes, I think that this is something that, 
once people realize that, if you are precluding these 
individuals from going out and showing the whole world what we 
have to offer, that you're really doing a disservice to those 
natural resources and cutting off a lot of people who otherwise 
would take advantage of them.
    Senator Wyden. I think it's well put, Senator, and we will 
work closely with you on it. I think it's my sense--what we'll 
do is get the majority and the minority staff to reach out to 
your folks and Senator Tester's staff and see what we can do 
to----
    Senator Inhofe. Yes, that's what we would request.
    Senator Wyden. We will get that done quickly.
    Senator Tester.
    Senator Tester. Just a few remarks, Chairman Wyden, and I 
appreciate the opportunity.
    First of all, I want to thank Senator Inhofe for his 
leadership on this commonsense piece of legislation. It simply 
makes sense to do this.
    As Senator Inhofe explained, this bill allows small film 
crews--less than 5 people--to apply for an annual filming 
permit on all Federal lands at the rate of 200 bucks a year.
    Arguably, one of the greatest resources the United States 
possesses is its public lands, where we work and play. As we 
watch public lands become more and more difficult to access, 
this bill is important for 2 reasons: First, the filming 
industry provides a gateway for Americans to experience the 
treasures of our public lands, even when they cannot drive 
across a place like Going-to-the-Sun Road or watch Old Faithful 
erupt or go to fish in the headwaters at the Missouri, 
themselves. Second, our public lands are just that, they're 
public.
    It is important to make sure that there is a level playing 
field for all filmmakers and producers to access to these lands 
where they can practice their profession. By standardizing the 
regulation across all agencies, with one permit for small 
crews, it designates a clear path for our professional outdoor 
media members to have fair and even access to our national 
lands.
    In 2000, when Congress passed the law to assess fees on 
film crews, the aim was to keep Hollywood-style production 
crews from negatively impacting our public lands. 
Unfortunately, that legislation was interrupted so broad that 
now small film crews, who have a minimal impact, are--and are 
serving the public interests, filming hunter-safety videos or 
documenting outdoor events, are put to the same level as 
multimillion-dollar productions.
    As vice chairman of the Sportsman Caucus, I'm proud to say 
that the Senate Sportsmen's Caucus leadership supports this 
bill and its effort to promote exposure and access to the great 
outdoors. Additionally, over 30 outdoor and journalism groups 
have signed on in support of this legislation.
    I look forward to working with the committee. I--looking 
forward to working with you, Mr. Chairman, and the 
administration, to assure that all journalists and 
videographers are not unduly burdened from sharing the beauty 
and wealth of our public lands.
    Once again, thank you, to Senator Inhofe, and thank you, 
Mr. Chairman.
    Senator Wyden. Thank you both, and we'll follow up quickly 
and get these staff discussions moving, and see what we can do 
to get this worked out. Thank you both.
    Senator Tester. Thank you.
    Senator Wyden. Let us bring forward, now, Marcilynn Burke, 
deputy director of Bureau of Land Management, and Faye Krueger, 
acting associate deputy chief, National Forest System of the 
Forest Service.
    Voice: While you're waiting, can you put Senator Reid and 
Senator Ensign's statement on their Nevada bill in the record?
    Senator Wyden. All right.
    While our witnesses are coming forward, I'd like to put 
in--into the record, by unanimous consent, the statement of the 
Senate Majority Leader, Harry Reid, and the statement of 
Senator John Ensign, his colleague from Nevada. Both of them 
are offering statements on S. 3185. Let us have them entered 
into the record at this point.
    [The information follows:]
   Prepared Statement of Hon. Harry Reid, U.S. Senator From Nevada, 
                               on S. 3185
    I want to thank Chairman Wyden, Senator Barrasso, and the other 
members of the committee for holding this hearing on the Elko Motocross 
and Tribal Conveyance Act, S.3185.
    My bill would direct the Bureau of Land Management to transfer two 
parcels of land. Title I would convey to Elko County approximately 300 
acres just west of the City of Elko to provide space for the 
construction of a BMX, motocross, off-highway vehicle, and stock car 
racing area. Title II would direct the Secretary of the Interior to 
take 373 acres of public land into trust to expand the Elko Indian 
Colony.
    I salute Elko County for being proactive on this issue. Through the 
development of the Motocross Park, they are making sure that the people 
of northeastern Nevada have a high-quality facility for safe motorized 
recreation. People from across northern Nevada will be able to use and 
enjoy this new facility.
    Whether their sport is stock cars, BMX, off-highway vehicles, or 
dirt bikes, motorized recreation is a big part of life in the Silver 
State. An added bonus of this new site is that it will provide an 
economic boost for the community through construction jobs in the 
short-term and thousands of visitors over the long-term. The facility 
will provide a place for people to learn responsible use and enjoyment 
of recreational vehicles and can serve as a model for other communities 
that are interested in providing diverse motorized recreation 
opportunities.
    Mr. Chairman, Elko has also been home for generations of Western 
Shoshone Indians. The Elko Band have been an important part of the Elko 
Community since it was established in the late 1800s. In spite of a 
steadily growing population, the colony has not expanded for 75 years 
and most members of the Elko Band have to make their homes outside of 
the colony.
    As you know, land is lifeblood for Native Americans. It is a place 
to make a home and earn a living, a place tied to ancestors, and key in 
the preservation of culture and language. My legislation provides space 
for appropriate residential and commercial development, as well as for 
traditional uses, such as ceremonial gatherings and plant collecting.
    Small adjustments like these two land transfers are vital to the 
healthy development of Nevada's rural communities. I would like to 
commend the City of Elko, Elko County, the Elko Band, and the rest of 
the community members whose collaboration on both of these efforts made 
this legislation possible.
    I greatly appreciate the distinguished Chairman and Ranking Member 
making time for this hearing and I look forward to working with the 
Committee to advance this bill.
                                 ______
                                 
   Prepared Statement of Hon. John Ensign, U.S. Senator From Nevada, 
                               on S. 3185
    Good afternoon Mr. Chairman, Ranking Member Barasso, and members of 
the Subcommittee. I appreciate the opportunity to appear today and 
testify in support of S. 3185, a bill relating to lands issues in Elko 
County, Nevada, which is supported by both Senator Reid and me. We 
appreciate you holding this hearing today.
    This bill will do two things for Elko County. First: it will convey 
approximately 300 acres of lands managed by the BLM to Elko County to 
be used as a dedicated motocross facility. Second: it will take about 
380 acres of BLM-managed land into trust to be used by the Te-Moak 
Tribe of Western Shoshone.
    Elko County has grown significantly over the past ten years. It is 
an area where outdoor enthusiasts are always looking for new places to 
recreate. This conveyance will provide a place for OHVs, dirt bikes, 
motor cycles, etc. to ride and play in a safe, designated area. This is 
good for the County, the public and the environment.
    The Te-Moak Tribe has grown significantly over the past several 
years as well, but their tribal lands have not been increased. The 
Tribe needs to expand their residential areas, as well as have the 
ability to look at economic development opportunities. There is a road 
in the acreage to be added to the reservation that is used by the 
citizens of Elko. This bill provides for a right-of-way conveyance of 
that road to the City of Elko.
    As you know, over 87% of the land in Nevada is managed by the 
federal government. This is the largest amount in the lower 48 states. 
Without this type of legislation, counties, cities and local 
governments cannot grow, expand economic enterprises, and address the 
needs of their citizens.
    Thank you again for holding this hearing and for giving me the 
opportunity to be here and testify on the importance of this 
legislation for both Elko County and my state. I urge the Subcommittee 
to act favorably on S. 3185.

    Senator Wyden. OK. We have 2 stalwarts, I believe, before 
this subcommittee, who've been here and--before us, before.
    So, Ms. Burke, why don't you begin. We'll make your 
prepared statements a part of the record in their entirety. If 
you could summarize, in 5 minutes or so, your views. Then we'll 
go right to you, Ms. Krueger.

  STATEMENT OF MARCILYNN A. BURKE, DEPUTY DIRECTOR, BUREAU OF 
          LAND MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Ms. Burke. Thank you, Mr. Chairman, and thank you for 
inviting the Department of the Interior to testify here today.
    We'll be testifying on 5 bills today, beginning with S. 
1241, the film permitting on Federal lands. S. 1241 amends 
public law 106-206 and directs the Secretary of the Interior 
and the Secretary of Agriculture to discuss--to issue annual 
permits and assess annual fees for commercial filming 
activities on Federal land for film crews of 5 persons or 
fewer.
    While we are sympathetic with the goals of this 
legislation, the Department cannot support S. 1241. Although 
the annual permit envisioned in S. 1241 may simplify the 
permitting process for commercial filming by small crews, it 
would limit the ability of Federal land management agencies to 
manage commercial activities to protect natural and cultural 
resources and to minimize disruption to the public's enjoyment 
of these sites.
    The National Park Service is the lead agency for the 
Department on this issue, and Phillip Selleck, who is the chief 
of regulations and special park uses from the National Park 
Service, is here with me today, and he is here to answer any 
questions you may have concerning S. 1241.
    S. 2762, the San Juan Mountains Wilderness Act, the 
Department of the Interior supports designation of the McKenna 
Peak Wilderness on 8600 acres managed by the BLM, as proposed 
in S. 2762, the San Juan Mountains Wilderness Act. We defer to 
the Department of Agriculture regarding designations on lands 
managed by the Forest Service.
    S. 2762 is the result of collaborative efforts in the local 
community, which included discussions with county 
commissioners, adjacent landowners, ranchers, conservationists, 
recreationists, and other interested parties. The results are 
wilderness designations on both BLM and Forest Service-managed 
lands in San Miguel, Ouray, and San Juan Counties.
    S. 3075. The Department of the Interior supports S. 3075, 
subject to valid existing rights, which would withdrawal 
Federal lands within the North Fork Watershed of Montana's 
Flathead River from all forms of location, entry, and patent 
under the mining laws, and from disposition under all laws 
related to mineral or geothermal leasing.
    The Federal land affected by this legislation is in the 
Flathead National Forest. The U.S. Forest Service is 
responsible for the surface management of National Forest 
System land; however, the Secretary of the Interior, through 
the BLM, is responsible for administering the Federal 
subsurface mineral estate. The Department of the Interior is 
committed to maintaining the integrity of the resources in 
Glacier National Park as one of the most noteworthy natural and 
cultural resources within our Nation.
    As one-half of the Waterton-Glacier International Peace 
Park, this land is one of the largest, most pristine and intact 
pieces of natural terrain in North America. Enactment of this 
legislation would mark an important milestone in preserving the 
remarkable resources of not only the International Peace Park, 
but the entire Crown of the Continent ecosystem.
    S. 3185 would convey approximately 300 acres of BLM-managed 
lands to the county of Elko, Nevada, for a public motocross 
park. The bill also directs that approximately 373 additional 
acres of BLM-managed lands be taken into trust for the Te-Moak 
Tribe of Western Shoshone Indians of Nevada.
    The BLM supports these conveyances and would like to work 
with the sponsor and the committee on minor technical 
amendments to the bill.
    The BLM supports H.R. 86, which would eliminate old 
withdrawals on public lands off the coast of Orange County, 
California, and allow inclusion of these rocks, islands, and 
exposed reefs within the California Coastal National Monument. 
We look forward to passage of this legislation, which would 
ensure the long-term protection and preservation of these 
important coastal features and pave the way for an important 
local community stewardship initiative.
    Again, thank you for inviting the Department of the 
Interior to testify today, and we would be happy to answer any 
questions.
    [The prepared statements of Ms. Burke follow:]
 Prepared Statements of Marcilynn A. Burke, Deputy Director, Bureau of 
              Land Management, Department of the Interior
                                h.r. 86
    Thank you for inviting the Department of the Interior to testify on 
H.R. 86, which would add certain rocks and small islands along the 
coast of Orange County, California, to the California Coastal National 
Monument managed by the Bureau of Land Management (BLM). The BLM 
supports H.R. 86.
Background
    The California Coastal National Monument, part of the BLM's 
National Landscape Conservation System, was established by a 
Presidential Proclamation by President Clinton on January 11, 2000, to 
protect:

          all unappropriated or unreserved lands and interest in lands 
        owned or controlled by the United States in the form of 
        islands, rocks, exposed reefs, and pinnacles . . . within 12 
        nautical miles of the shoreline of the State of California.'' 
        Covering more than 20,000 rocks and small islands spread along 
        1,100 miles of the California coastline, the Presidential 
        Proclamation protects the Monument's overwhelming scenic 
        quality and natural beauty. The Proclamation specifically calls 
        for the protection of the geologic formations and the habitat 
        that these rocks and small islands provide for seabirds, marine 
        mammals, and other plant and animal life, both terrestrial and 
        marine.

    Some particularly significant public rocks and islands off the 
coast of Orange County in the Laguna Beach area provide important 
habitat for a wide variety of upper rocky intertidal species, as well 
as various shorebird species. Additionally, four rock locations--Bird 
Rock and Two Rocks off the City of Laguna Beach, San Juan Rocks off the 
City of Dana Point, and San Marcos Rocks off the southern portion of 
the City of San Clemente--provide important roosting habitat for 
seabirds (including cormorants and the Federally-listed brown pelican) 
and haul-out areas for seals and sea lions.
    In the process of working with local communities on planning for 
the California Coastal National Monument, the BLM discovered that the 
rock features off the coastline of Orange County were under 
Congressional withdrawals dating from the 1930s and, therefore, were 
not included within the Monument. These withdrawals include more than 
40 offshore rocks, small islands, exposed reefs, and pinnacles located 
within one mile of the coast of Orange County, California, totaling 
approximately two acres above mean high tide. More than 70 years old, 
the withdrawals were originally intended to temporarily reserve the 
Orange County offshore rocks and small islands for ``park, scenic, or 
other public purposes'' (1931 Act), and reserve three specific offshore 
rock clusters for the possibility of future lighthouses (1935 Act), 
which were never built. These withdrawals were ultimately never 
utilized and are no longer needed.
    The Laguna Ocean Foundation has led a community-wide effort to 
include these significant areas within the California Coastal National 
Monument. The Foundation has worked with the City of Laguna Beach and 
other local groups, including the Audubon Society and the Surfrider 
Foundation, on a variety of city and area-wide coastal protection and 
monitoring projects, which resulted in H.R. 86.
H.R. 86
    H.R. 86 would eliminate the existing withdrawals on these public 
lands off the coast of Orange County and place these features within 
the existing California Coastal National Monument. The BLM supports the 
revocation of the old withdrawals and the inclusion of these rocks, 
islands, and exposed reefs within the Monument.
    The BLM has been working with partners along the 1,100 mile 
California coast to create a series of California Coastal National 
Monument Gateway community initiatives. These Gateway initiatives are a 
means to support organized local stewardship of various California 
coastal areas through the development of a consortium of the area's 
resource managers and advocates. The Laguna Beach community has 
expressed strong interest in developing a California Coastal National 
Monument Gateway initiative for the Orange County coastal area. 
Inclusion of these rocks and islands within the Monument will allow the 
BLM to work with the community to provide responsible, long-term 
stewardship of these valuable areas.
Conclusion
    Thank you for the opportunity to testify in support of H.R. 86. We 
look forward to passage of this legislation which would place these 
significant features off the coast of Orange County within the 
California Coastal National Monument, thus ensuring their long-term 
protection and preservation, and paving the way for an important local 
community stewardship initiative.
                                s. 1241
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 1241, a bill to amend Public Law 106-206 to 
direct the Secretary of the Interior and the Secretary of Agriculture 
to require annual permits and assess annual fees for commercial filming 
activities in areas designated for public use on federal lands and 
waterways for film crews of five persons or fewer.
    While we are sympathetic with the goals of this legislation, the 
Department cannot support S. 1241. Although the annual permit 
envisioned in S. 1241 may simplify the permitting process for 
commercial filming by small crews, it would limit the ability of 
federal land management agencies to manage commercial filming 
activities to protect natural and cultural resources and minimize 
disruption to the public's enjoyment these sites.
    S. 1241 would amend Public Law 106-206 by requiring the Secretaries 
of the Interior and Agriculture to create a permit program for 
commercial film crews of five persons or less for filming during public 
hours on federal lands and waterways. The bill proposes an annual 
permit with a fee of $200 to allow up to a five-person film crew to 
conduct commercial filming activities on public lands. A permittee 
could not be assessed any additional fees for commercial filming on 
public lands or waterways. The Secretaries would not be allowed to 
restrict the use of cameras or related equipment or other mechanized 
apparatus.
    Public Law 106-206 requires the Secretaries of the Interior and 
Agriculture to establish a fee system and a permit process for 
commercial filming activities on federal lands. The Secretaries also 
are directed to recover all costs associated with processing permit 
requests, to monitor the permitted activities, and to charge a fee that 
provides a fair return to the United States for the use of public 
lands.
    Commercial film makers and videographers visit our national parks, 
refuges, forests, public lands and monuments to produce programs that 
educate, enlighten, and entertain. They create films, documentaries, 
television programs, and other products that introduce the public to 
natural and cultural resources and recreational opportunities of our 
parks, monuments, forests, public lands, and refuges. It is important 
that these commercial filming activities be managed to avoid disruption 
to visitor activities while protecting our nation's natural and 
cultural resources and landscapes.
    Currently, film permits for individual projects allow each of the 
federal land management agencies to be aware of where filming is 
occurring. The Department is concerned that an annual permit, as 
proposed in S. 1241, could result in the agencies losing their ability 
to regulate where filming could take place, the duration of filming, 
and other conditions under which filming could take place. In addition, 
it appears that such a permit, as proposed, could be issued by a 
manager from one agency within the Department and be valid for one year 
on lands administered by other Departmental agencies.
    This is particularly important for areas such as National Wildlife 
Refuges that have sensitive or closed wildlife areas and no, or 
limited, staff present on site to monitor the activity authorized by 
the permit. Issuing commercial filming permits on a case-by-case basis 
allows federal land management agencies to include location-specific 
conditions to protect natural and cultural resources, to minimize 
disruption to visitors, and to ensure public health and safety. 
Individual permits also allow commercial filming activities to be 
scheduled so that an area is not over used and provides commercial film 
crews use of an area without competition from other permitted 
activities where appropriate.
    There are also locations in some federal units where commercial 
filming during public hours may be inappropriate, even for a small 
crew, such as inside historic buildings, or areas where wildlife 
nesting or breeding activities may require that access to an area be 
restricted. Further, the Wilderness Act restricts commercial activities 
in wilderness areas, so while the area is open to the public, 
commercial filming in wilderness, even by small commercial crews, may 
be inappropriate.
    Even small commercial filming activities may require cameras and 
tripods, reflectors, generators, lights, cables, actors, props, sets, 
and other equipment. It is important that federal agencies have the 
ability to monitor filming activities and the type and amount of 
equipment associated with commercial filming activities, which could 
vary from one filming opportunity to another, if this equipment could 
cause resource damage, impact wildlife management and wildlife-
dependant recreational activities such as hunting and wildlife viewing, 
or create safety hazards for visitors.
    The Department is also concerned that S. 1241 could allow large-
scale commercial filming organizations to avoid paying for use of 
public lands. For example, the producers of television commercials 
frequently use Bureau of Land Management lands with props and models. 
Under S. 1241, an advertisement for beer, cars, or clothing could be 
filmed with only a small crew actually entering public lands and taking 
unintended advantage of the authority. Crews could also be divided into 
small groups of five and likewise circumvent the intent of this 
legislation.
    Finally, one of the purposes of P.L. 106-206 is to require that a 
fair fee be paid for the use of public lands used for commercial 
filming activities. The Department is concerned that the payment of an 
annual $200 permit fee may not adequately reimburse the federal 
government for the administrative and staff costs associated with use 
of federal lands for a full year. For example, if filming in the geyser 
basin at Yellowstone, the permittee must have a NPS monitor for visitor 
safety reasons. The annual fee may not cover the cost of issuing the 
permit as well as staff time to monitor the activity.
    The Department of the Interior looks forward to working with the 
Committee to address the concerns we have raised in our testimony. We 
are sympathetic to the small nature videographers, but at the same time 
we want to insure our ability to protect important natural, historic, 
and cultural resources.
    Thank you, Mr. Chairman, for providing the Department with the 
opportunity to present this statement.
                                s. 2762
    Thank you for the invitation to testify on S. 2762, the San Juan 
Mountains Wilderness Act. The Department of the Interior supports the 
designation of the McKenna Peak Wilderness on lands managed by the 
Bureau of Land Management (BLM). We defer to the Department of 
Agriculture regarding designations on lands managed by the U.S. Forest 
Service (FS).
Background
    The McKenna Peak Wilderness Study Area (WSA) covers nearly 20,000 
acres of BLM-managed lands in San Miguel and Dolores Counties in 
southwestern Colorado. This WSA is currently managed by the BLM to 
protect its wilderness characteristics while awaiting Congressional 
action.
    This area is rich in wildlife, including mule deer, elk, mountain 
lions, black bear, and a variety of raptors. McKenna Peak is also home 
to the Spring Creek wild horse herd. Geologically, the area is quite 
diverse. It includes 100 million year-old remnants of inland seas (now 
black Mancos shale rich in invertebrate marine fossils), as well as the 
8,000-foot McKenna Peak with ponderosa pine, Douglas fir, and mountain 
mahogany. This area offers a wide variety of recreational 
opportunities, including hunting, hiking, horseback riding, 
snowshoeing, and cross-country skiing, all of which are compatible with 
this wilderness designation.
S. 2762
    We understand that S. 2762 is the result of a collaborative 
process, which included discussions between the Colorado Congressional 
delegation, county commissioners, adjacent landowners, ranchers, 
conservationists, recreationists, and other interested parties. The 
results are the proposed extensive wilderness designations on both BLM-
and FS-managed lands in San Miguel, Ouray, and San Juan Counties. As I 
noted, the Department of the Interior defers to the Department of 
Agriculture regarding designations on lands managed by the FS.
    Section 3(a)(4) of the bill designates 8,614 acres of the existing 
BLM-managed McKenna Peak WSA as wilderness. The BLM supports this 
designation. The legislation covers only those areas of the WSA in San 
Miguel County. The remaining almost 11,000 acres of the WSA are south 
of the proposed wilderness in Dolores County and are not addressed in 
the legislation. These acres will remain in WSA status, pending 
Congressional action. The BLM and the Department would support future 
designation of this area in order to improve the manageability of the 
area.
    We would request the opportunity to work with the Sponsor and the 
Committee on some technical provisions, including corrections to the 
map reference. The BLM is currently completing a careful review of the 
boundaries of the proposed wilderness area to ensure manageability and 
would welcome the opportunity to work with the sponsor on possible 
minor modifications.
                               conclusion
    Thank you for the opportunity to testify in support of S. 2762. We 
look forward to its inclusion in the National Wilderness Preservation 
System.
                                s. 3075
    Thank you for the invitation to testify on S. 3075, the North Fork 
Watershed Protection Act of 2010. The Department of the Interior 
supports S. 3075, which would withdraw Federal lands within the North 
Fork watershed of Montana's Flathead River from all forms of location, 
entry, and patent under the mining laws and from disposition under all 
laws related to mineral or geothermal leasing. Enactment of S. 3075 
would mark an important milestone in the work occurring across multiple 
jurisdictions to help preserve the remarkable resources in the Crown of 
the Continent ecosystem.
Background
    The Flathead River Basin, a key portion of an area known as the 
Crown of the Continent ecosystem, spans the boundaries of the United 
States and Canada. It includes part of the United States' Glacier 
National Park and borders Canada's Waterton Lakes National Park. These 
two parks comprise the world's first International Peace Park as well 
as a World Heritage Site. The U.S. Forest Service's Flathead National 
Forest is also located within the Flathead River watershed. The Bureau 
of Land Management manages the Federal mineral estate underlying the 
Flathead National Forest.
    Running along the west side of the Continental Divide, the North 
Fork of the Flathead River enters the United States at the Canadian 
border and forms the western border of Glacier National Park until its 
confluence with the Middle Fork of the Flathead River near the southern 
end of Glacier National Park. The North Fork watershed, a sub-basin of 
the Flathead River watershed, includes areas currently managed by the 
National Park Service, the State of Montana, the U.S. Forest Service, 
and some private landowners.
    The Flathead River Basin is recognized for its natural resource 
values, including wildlife corridors for large and medium-sized 
carnivores, aquatic habitat, and plant species diversity. The area is 
rich in cultural heritage resources, with archeological evidence of 
human habitation starting 10,000 years ago. Several Indian tribes, 
including the Blackfeet, the Salish, and the Kootenai, have a well-
established presence in the area. The area also has celebrated 
recreational opportunities, including hunting, fishing, and backcountry 
hiking and camping.
    There has been interest in protecting the Crown of the Continent 
resources for some time. On February 18, 2010, the State of Montana and 
the Province of British Columbia executed a Memorandum of Understanding 
which addresses a myriad of issues related to the Flathead River Basin 
on both sides of the U.S.--Canada border. The intention of Part I.A. of 
that memorandum is to ``[r]emove mining, oil and gas, and coal 
development as permissible land uses in the Flathead River Basin.''
    The Flathead River Basin contains Federally-owned subsurface 
mineral estate under National Forest System lands that the Federal 
government has leased for oil and gas development, including 115 oil 
and gas leases in the North Fork watershed that the BLM issued between 
1982 and 1985. The leases, which cover over 225,000 acres, are inactive 
and under suspension as part of the 1985 court case Conner v. Burford. 
The BLM has not offered any other leases in the Flathead National 
Forest since the Conner v. Burford litigation suspended the existing 
leases in 1985.
    The U.S. Forest Service is responsible for the surface management 
of National Forest System land; however, as noted earlier, the 
Secretary of the Interior and the BLM are responsible for administering 
the Federal subsurface mineral estate under the Mining Law of 1872, the 
Mineral Leasing Act of 1920, and various mineral leasing acts. With 
respect to locatable minerals and oil and gas resources, the Forest 
Service has authority to regulate the effects of mineral operations 
upon National Forest System resources. The BLM only issues mineral 
leases for locatable minerals and oil and gas resources upon 
concurrence of the surface management agency and always works 
cooperatively with the agency to ensure that management goals and 
objectives for mineral exploration and development activities are 
achieved, that operations are conducted to minimize effects on natural 
resources, and that the land affected by operations is reclaimed.
S. 3075
    S. 3075 withdraws all Federal lands or interest in lands, comprised 
of approximately 291,000 acres of the Flathead National Forest, within 
the North Fork watershed of the Flathead River from all forms of 
location, entry, and patent under the mining laws and from disposition 
under all laws related to mineral or geothermal leasing. We note that 
National Park acreage within the watershed is already unavailable for 
mineral entry. S. 3075 does not affect valid, existing rights, 
including the 115 leases in the North Fork watershed that are suspended 
under the Conner v. Burford litigation. The Department fully supports 
S. 3075 as it furthers the goal of preserving the important resources 
of this region.
    The Waterton-Glacier International Peace Park, which extends from 
Canada into the United States, is one of the great protected ecosystems 
on the North American continent. A 2010 World Heritage Center/
International Union for the Conservation of Nature Report noted that 
the International Peace Park is ``one of the largest, most pristine, 
intact, and best protected expanses of natural terrain in North 
America. It provides the wide range of non-fragmented habitats and key 
ecological connections that are vital for the survival and security of 
wildlife and plants in the Waterton-Glacier property and the Flathead 
watershed.'' Retaining this expanse of natural landscape in the Crown 
of the Continent ecosystem is of vital importance for providing 
ecosystem connectivity, which is essential for the growth and survival 
of plants and animals in the region. S. 3075 will help accomplish this 
goal.
    The Department of the Interior is also committed to maintaining the 
ecological integrity of Glacier National Park, one of the most 
noteworthy natural and cultural treasures of our Nation. Preserving the 
region's and the park's water resources is also critical. The rich 
aquatic ecosystems provide breeding and feeding habitats for a variety 
of important species, and the Department recognizes the importance of 
maintaining critical habitat corridors when planning for resources 
uses. S. 3075 will help protect and preserve the important resources of 
the greater Crown of the Continent ecosystem, including those within 
Glacier National Park.
Conclusion
    The Department supports S. 3075 and commends the many parties 
involved in protecting the North Fork of the Flathead River and the 
important resources shared by the United States and Canada. We hope 
that this legislation and the efforts of the federal and state/
provincial governments add to the important legacy of conservation in 
the Glacier/Waterton Lakes area and Flathead River basin.
                                s. 3185
    Thank you for the opportunity to testify on S. 3185, the Elko 
Motocross and Tribal Conveyance Act. S. 3185 would convey, without 
consideration, approximately 300 acres of land managed by the Bureau of 
Land Management (BLM) to the County of Elko, Nevada. The legislation 
also directs that approximately 373 additional acres of BLM-managed 
lands be taken into trust for the Te-Moak Tribe of Western Shoshone 
Indians of Nevada. The BLM supports the conveyances. We would like to 
work with the sponsor and the Committee on minor technical amendments 
to the bill.
Background
    The Elko Motocross and Tribal Conveyance Act represents years of 
cooperative efforts between the Te-Moak Tribe of Western Shoshone 
Indians of Nevada (Tribe), the City of Elko (city), the County of Elko 
(county), and the BLM. Both the county and the Tribe have had on-going 
discussions with the BLM about various lands near the city.
    The Recreation and Public Purposes Act (R&PP) Act authorizes the 
Secretary of the Interior to lease or convey public lands for 
recreational and public purposes, including campgrounds, municipal 
buildings, hospitals, and other facilities benefitting the public, and 
this administrative authority could be utilized for the Elko 
conveyance. The county submitted an R&PP application to the BLM in 2005 
for approximately 266 acres. The county intended to use the land for a 
motocross/off-highway vehicle training and recreation area for the 
public. This parcel is largely vacant, but contains a number of rights-
of-way, including a road and a gas pipeline. The BLM Elko Resource 
Management Plan (RMP) identified this parcel as available for disposal 
in support of community expansion.
    The land for which the Tribe seeks trust status is adjacent to an 
existing parcel of the Elko Colony. The Elko Colony, approximately 190 
non-contiguous acres adjacent to the city, is one of four separate 
colonies inhabited by the Te-Moak Tribe of Western Shoshone Indians. 
The population of the Elko Band of the Te-Moak Tribe has grown 
steadily, but because their land base has remained unchanged for many 
years additional land is needed for housing and community development. 
This parcel is also largely vacant, but contains two rights-of-way held 
by the city for water pipelines and storage, and one pending right-of-
way application for a future city road. The BLM Elko RMP also 
identifies this parcel as available for disposal in support of 
community expansion.
S. 3185
    S. 3185 proposes to convey approximately 300 acres of BLM-managed 
lands to the county at no cost for a public motocross park. The 
conveyance would be subject to valid existing rights. The bill requires 
that the land be used only for purposes consistent with the R&PP Act 
and includes a reversionary clause to enforce that requirement. 
Finally, the bill requires the county to pay all administrative costs 
associated with the transfer.
    The bill also directs that approximately 373 acres of land 
currently administered by the BLM be taken into trust for the Tribe. 
The bill requires the BLM, prior to the taking of land into trust, to 
complete the environmental review process for the conveyance of a 
pending right-of-way application for a city road. S. 3185 also 
addresses valid existing rights and gaming.
    As a matter of policy, the BLM supports working with local 
governments to resolve land tenure issues that advance worthwhile 
public policy objectives. In general, the BLM supports conveyances if 
the lands are to be used for purposes consistent with the R&PP Act and 
include a reversionary clause at the discretion of the Secretary to 
enforce that requirement. The BLM strongly believes that open 
communication between the BLM and tribes is essential in maintaining 
effective government-to-government relationships. In this spirit, the 
BLM has had a cooperative working relationship with the Te-Moak Tribe 
of Western Shoshone Indians of Nevada on this requested conveyance. As 
such, the BLM supports S. 3185 with minor technical amendments.
Conclusion
    Thank you for the opportunity to testify. We look forward to 
continuing to work with the bill's sponsor and Committee on this 
important legislation.

    Senator Wyden. Ms. Burke, thank you very much.
    Ms. Krueger, welcome.

   STATEMENT OF FAYE KRUEGER, ACTING ASSOCIATE DEPUTY CHIEF, 
           FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Ms. Krueger. Mr. Chairman, thank you for the opportunity to 
provide the views of the Department of Agriculture on several 
bills being considered here today.
    The first bill, S. 1241, directs the Secretaries of 
Interior and Agriculture, as mentioned earlier, to permit for a 
12-month period and assess annual fees of $200 for commercial 
filming on Federal lands. It would apply to crews of 5 persons 
or fewer.
    Currently, we do not support the bill, as written, because 
we would not be able to issue separate permits based on 
important conditions that we may need.
    We're also concerned that the bill would be interpreted to 
require authorization in wilderness areas without the 
opportunity to validate that it would consistent with the 
purpose of the wilderness, as it's been enacted. We're 
sympathetic to the needs of small businesses, and the values 
they bring to public land, and we find that our existing laws 
and regulations adequately address commercial filming on 
Federal lands. Sometimes, but not always, 5-person crews can 
have serious impacts when they come on National Forest System 
lands. They can bring large vehicles, trailers, generators, or 
other equipment; and if we can tailor a permit to each location 
and individual request, it gives us the best opportunity for 
oversight of operators, and it also provides us to consider the 
potential resource impacts and impacts to our visitors on 
National Forest System lands.
    The second bill, S. 2767--excuse me--2762, San Juan 
Wilderness Act of 2009, designates nine parcels of the Grand 
Mesa, Uncompahgre, and Gunnison National Forest lands as 
wilderness. A little under 25,000 acres of Colorado's most 
majestic and remote landscapes are included in this bill. It 
would add this acreage to 2 existing wilderness areas, Lizard 
Head and Mount Sneffels.
    The second part of the bill would designate Sheep Mountain 
area as a special management area. It would instruct us to 
manage and maintain wilderness characteristics in the area.
    The third part of the bill would provide for a withdrawal 
within a portion of the Naturita Canyon.
    The Department supports S. 2762, and would like to offer a 
few minor modifications that we think would enhance wilderness 
values.
    The third bill, S. 1571 and H.R. 1043, provide for a land 
exchange in the Mendocino National Forest. The lands are 
currently occupied by a youth facility that is owned and 
operated by Solano County. Approximately 82 acres of National 
Forest System lands would be exchanged for about a quarter 
section of land that the county owns in that same drainage.
    We support this legislation and would like to work with the 
subcommittee in 3 areas: one is to retain water rights and 
instream flows for Stony Creek; the second is to provide access 
to National Forest System lands; and the third is to provide 
for survey needs on the 82-acre parcel that we will convey to 
the county.
    The final bill is S. 3075, the North Fork Watershed 
Protection Act of 2010. This bill would withdraw approximately 
291,000 acres of the Flathead National Forest from locatable 
and leasable mineral laws. This area is affectionately referred 
to as the Crown of the Continent Ecosystem and includes Canada 
and Glacier National Park.
    This withdrawal would be subject to valid existing rights, 
and this bill would not affect current existing oil and gas 
leases, because an existing lease would constitute a valid 
existing right.
    The Department also supports this bill.
    This concludes my oral statement. I'd be happy to answer 
any questions you may have.
    [The prepared statements of Ms. Krueger follow:]
  Prepared Statements of Faye Krueger, Acting Associate Deputy Chief, 
               Forest Service, Department of Agriculture
                                s. 1241
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to be here today and provide the Department of 
Agriculture's views on S. 1241.
    S. 1241 would direct the Secretaries of the Interior and 
Agriculture to require annual permits and assess annual land use fees 
for commercial filming on federal lands involving a crew of 5 persons 
or fewer. Specifically, the bill would require permits for commercial 
filming involving a crew of 5 persons or fewer that would cover filming 
in areas designated for public use on federal lands during a 12-month 
period. In addition, the bill would require a fee of $200 for those 
permits. USDA defers to the Department of the Interior for activities 
occurring on DOI lands.
    USDA has significant concerns with S. 1241 and cannot support this 
bill. Upon enactment, the bill would supplant the authority of the 
Department of the Interior (DOI) and USDA to issue separate permits and 
charge separate permit fees for each commercial filming activity. In 
addition, the bill would supplant USDA's land use fee schedule for 
commercial filming involving a crew of 5 persons or fewer.
    Although we are sympathetic to the needs of small businesses, we 
believe existing laws, regulations, and directives adequately address 
all commercial filming on federal lands. Even a five-person crew can 
have serious impacts on the land and interfere with normal visitor use.
    Issuing permits tailored to each use and each location is one of 
the best tools we have for oversight of operators. Often film crews, 
even small crews, need large vehicles, trailers, generators, and other 
equipment to conduct their business. Each project needs to be evaluated 
separately to address potential impacts. In addition, each project 
should be assessed a land use fee based on market value. We are also 
concerned that the bill could be interpreted to require authorization 
of commercial filming involving a crew of 5 persons or fewer in 
wilderness areas, regardless of requirements and considerations in the 
Wilderness Act.
Background
    The Forest Service currently issues special use permits for 
commercial filming and still photography and collects land use fees for 
these activities. The current authority for these permits is Public Law 
106-206, which was signed into law on May 26, 2000, and is codified at 
16 U.S.C. 460l-6d. Prior to enactment of P. L. 106-206, the Forest 
Service had authority to issue special use permits and collect land use 
fees for these activities under the Organic Act of 1897, 16 U.S.C. 551.
Current Policy
    In 2003, the Forest Service amended its directives to make them 
consistent with P. L. 106-206 and to implement the new authority to 
retain and spend land use fees for commercial filming and still 
photography. These directives contain a definition for ``commercial 
filming'' that establishes the types of filming activities for which a 
permit is required. The definition excludes filming of breaking news 
because the need to cover breaking news arises suddenly, may evolve 
quickly, and may cease to be newsworthy by the time a permit is issued.
Land Use Fees
    The Forest Service collects land use fees for commercial filming 
and still photography based on regional and forest fee schedules. In 
accordance with P. L. 106-206, the Forest Service collects, retains, 
and spends these fees without further appropriation. Ninety percent of 
the fee revenues are retained and spent at the local units where they 
are collected to improve customer service and program management for 
commercial filming and still photography.
    Land use fees for commercial filming and still photography are 
established using either regional or forest fee schedules, as required 
by P.L. 106-206. The $200 fee proposed by S. 1241 does not represent 
market value for the use of federal lands. While in certain low-impact 
scenarios this fee might represent the market rate, in many instances, 
$200 will not reflect the value of the use of federal land for 
commercial filming. In addition, the lower the land use fee, the lower 
the amount available to DOI and USDA under the fee retention provisions 
of P.L. 106-206 to improve customer service and program management for 
commercial filming.
Commercial Filming in Wilderness
    The Forest Service currently issues permits for commercial filming 
in a wilderness area if the proposed use would contribute to the 
purposes for which the area was established. Section 4(d)(5) of the 
Wilderness Act, states that commercial services may be performed in 
wilderness areas only to the extent necessary for activities that are 
proper for realizing the recreational or other wilderness purposes of 
the areas. In cooperation with DOI, we plan to publish for public 
notice and comment definitions and criteria for commercial filming in 
wilderness areas based on the purposes of the Wilderness Act and the 
limitation on commercial services in Section 4(d)(5) of the Wilderness 
Act.
    We are concerned that S. 1241 could pre-empt these efforts, as it 
could be interpreted to require authorization of commercial filming 
involving a crew of 5 persons or fewer in wilderness areas, regardless 
of other considerations and requirements in the Wilderness Act. Some of 
our most pristine lands would be open to commercial filming, regardless 
of these wilderness factors.
Conclusion
    The proposed legislation has a significant potential to adversely 
affect federal lands, including wilderness areas. Current laws, 
regulations, and agency directives and the proposed interagency fee 
schedule and Forest Service directives on commercial filming in 
wilderness areas provide or would provide better resource protection 
and better management of commercial filming, as well as conform to 
existing statutory and regulatory requirements to obtain market value 
for the use of federal land. We would like to work with the Committee 
to address the concerns presented by S. 1241 and any concerns of the 
Committee with regard to accommodating small film crews under current 
law and policy.
    Thank you, Mr. Chairman, and members of the Committee for the 
opportunity to comment on this bill today. We look forward to working 
with the Committee on this issue.
                                s. 1571
    Mr. Chairman, Ranking Member Barrasso, Members of the Subcommittee, 
I appreciate the opportunity to appear before you today to provide the 
Department of Agriculture's views on S. 1571, regarding the exchange of 
certain lands in the Mendocino National Forest (MNF).
    The Department supports S. 1571 because it would consolidate four 
parcels (approximately 162 acres) of private lands, that posses 
national forest character, partially within, and immediately adjacent 
to, the Snow Mountain Wilderness area of the Grindstone Ranger 
District, Mendocino National Forest for approximately 82 acres of 
National Forest System lands that have been developed by Solano County 
for their youth facility at Fouts Springs. The National Forest System 
lands, where the Fouts Springs Youth Facility is located have lost 
their national forest character because of the development of 
classrooms, culinary facilities, dormitories, maintenance and 
administrative facilities associated with the youth facility.
    We respectfully suggest that S. 1571 be amended to ensure any 
necessary protection of the interests of the United States relating to 
the water rights associated with the National Forest parcel to be 
conveyed, to provide for survey of, and public access across, the land 
to be conveyed to the County, and to address other technical issues 
related to the exchange.
    The National Forest System (NFS) lands to be conveyed are located 
within the Grindstone Ranger District. Those lands were acquired as 
part of a land exchange with the Setzer Box Company in 1944 and are 
currently occupied by the Fouts Springs Youth Facility (FSYF) under a 
special use authorization. A 30-year special use authorization allows 
Solano County to operate a 162 bed youth correctional facility. The 
current permit area is approximately 74 acres. The NFS land adjacent to 
the Fouts Springs Youth Facility is a heavily developed off-highway 
vehicle area managed by the Forest Service.
    The non-federal lands to be conveyed are also located within the 
Grindstone Ranger District of the MNF. They are known as the Deafy 
Glade parcels totaling approximately 161.7 acres. The four parcels are 
adjacent to the southerly boundary of the Snow Mountain Wilderness 
Area.
Amendments
    We would appreciate the opportunity to work with the Committee to 
address any concerns regarding the transfer of water rights to the 
County as part of the exchange. At present, with the water right held 
by the United States, there is adequate in-stream flow in Stony Creek. 
If the Fouts Spring Youth Facility were to convey to Solano County, we 
want to ensure that an adequate in-stream flow is maintained in Stony 
Creek.
    The NFS parcel to be conveyed has to be delineated and described by 
a Cadastral survey approved by the Bureau of Land Management.
    Providing for a right-of-way across the parcel conveyed to the 
county would ensure access to the surrounding national forest for 
Forest Service administration and for wildfire suppression.
    We also would appreciate the opportunity to work with the Committee 
on several technical aspects of the bill to require that the County 
provides acceptable title for the land its conveys, to refer 
specifically to the cash equalization provision in the reference to 
section 206 of Federal Land Policy Management Act, to require the 
County to pay appraisal costs, and to provide more specificity 
regarding the conditions on the use of the land after it is conveyed to 
the County.
    Mr. Chairman, Ranking Member Barrasso, This concludes our prepared 
testimony. Thank you for the opportunity to present the 
Administration's views on S. 1571. I would welcome any questions you 
might have.
                                s. 2762
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to provide the views of the Department of Agriculture on 
S2762, the ``San Juan Mountains Wilderness Act of 2009.''
    The Department supports S2762. We would like to offer minor 
modifications to S 2762 that would enhance wilderness values, clarify 
the special management area designation, and improve our ability to 
manage resources in the area. We thank Congressman Salazar for his 
collaborative approach and local involvement that have contributed to 
this bill.
    The Department defers to the Department of the Interior in regard 
to the proposal to designate approximately 8,600 acres of Bureau of 
Land Management (BLM) lands as the McKenna Peak Wilderness.
    S2762 would designate nine parcels of the Grand Mesa, Uncompahgre 
and Gunnison National Forests as wilderness under the National 
Wilderness Preservation System. These areas, totaling approximately 
24,800 acres, encompass some of Colorado's most majestic, remote 
landscapes with many abundant wildlife species including elk, deer, 
bighorn sheep, bears and a variety of birds. Several world-class trout 
streams are also found in the areas. These areas also provide 
opportunities to experience solitude and primitive recreation use for 
members of the public seeking areas to connect with nature.
    These parcels would be additions to two existing wildernesses: 
Lizard Head and Mount Sneffels. In addition, S2762 would designate the 
Sheep Mountain area as a Special Management Area to be managed to 
maintain the area's existing wilderness character and potential for 
inclusion in the National Wilderness Preservation System. Also, S2762 
would provide for a mineral withdrawal within a portion of Naturita 
Canyon.
Lizard Head Wilderness Additions
    The Lizard Head Wilderness lies astride the spectacular San Miguel 
Mountains, 10 miles southwest of Telluride on the Uncompahgre and San 
Juan National Forests. Elevations in the area range from 9,500 to over 
14,000 feet. The wilderness is evenly split between the two national 
forests and is 41,200 acres in size.
    The proposed wilderness additions include five parcels, 
encompassing approximately 3,200 acres of National Forest System lands 
adjacent to the existing wilderness. Neither Forest Plans, completed in 
1983, recommended any of the areas for wilderness designation. However, 
wilderness designation would be aligned with the current management of 
the area. No summer motorized recreation is currently allowed and 
effects to winter motorized recreation will be minimal as there is very 
little snowmobile use of the area.
Mount Sneffels Wilderness Additions
    The Mount Sneffels Wilderness comprises more than 16,500 acres on 
the Uncompahgre National Forest between the communities of Telluride 
and Ouray. Elevations range from 9,600 to 14,150 feet at the top of 
Mount Sneffels.
    The proposed wilderness additions include four parcels that 
encompass approximately 21,600 acres of NFS lands adjacent to the 
existing wilderness. As with the Lizard Head Additions, even though 
this area was not recommended as wilderness in the forest plan, 
designation is generally aligned with forest plan direction and will 
have minimal effects on summer and winter recreation.
    We would like to work with the subcommittee to address some 
technical aspects of the bill. We recommend changing the wilderness 
boundary near Telluride to allow for potential construction work to 
address periodic floods with debris flows and provide for a more 
definitive boundary by following a cliff formation. Additionally, we 
remain concerned that the legislation would provide for continuation of 
a competitive footrace event in designated wilderness. Current Forest 
Service policy does not permit competitive events and this reflects the 
Wilderness Act prohibition against commercial enterprise.
Sheep Mountain Special Management Area
    S2762 would also designate an area of about 21,700 acres of NFS 
land that lies south of the town of Ophir as a special management area. 
About 9,900 acres are within the Uncompahgre National Forest and about 
11,800 acres are within the San Juan National Forest. This area 
contains some lands purchased recently with funds provided by Congress 
as part of the Ophir Valley Land and Water Conservation Fund project.
    Elevations in the area range from 10,200 to almost 13,900 feet at 
the top of Vermillion Peak. The area is dense with spruce and fir trees 
at the lower elevations. Above timberline are high alpine valleys with 
numerous lakes, tarns and waterfalls beneath dramatic 13,000-foot peaks 
and serrated ridges. The Forest Plans identify half of the area to be 
managed for semi-primitive non-motorized recreation and the other half 
for other recreation purposes.
    As with the Mount Sneffels Wilderness additions, we have concerns 
that if this area becomes wilderness, the legislation allows for the 
continuation of a competitive footrace event.
Naturita Canyon Withdrawal
    S2762 would also provide for a withdrawal on approximately 6,600 
acres of National Forest System lands within Naturita Canyon on the 
Uncompahgre National Forest, about five miles south of the community of 
Norwood. Naturita Canyon is relatively low-elevation river drainage 
(7,000 feet) with steep canyon walls that tower 1,000 feet. There are 
no current leases within the area proposed for withdrawal. Impacts on 
available oil and gas resources for this withdrawal are unknown. 
Further exploration information would be needed for a conclusive 
assessment.
    This concludes my prepared statement. I would be happy to answer 
any questions you may have.
                                s. 3075
    Mr. Chairman, Ranking Member Barrasso and members of the 
Subcommittee, thank you for the opportunity to provide the views of the 
Department of Agriculture on S. 3075, the ``North Fork Watershed 
Protection Act of 2010.''
    S. 3075 would, subject to valid existing rights, withdraw National 
Forest System (NFS) lands located in the North Fork of Flathead River 
watershed in Montana which are managed as part of the Flathead National 
Forest from location, entry, and patent under the mining laws and from 
disposition under the mineral and geothermal leasing laws. The 
Department supports S. 3075, however, I would like to clarify that 
although the Department has surface management authority concerning 
mineral operations, the management of the federal mineral estate falls 
within the jurisdiction of the Secretary of the Interior,. We defer to 
the Department of the Interior on all issues related to the status of 
the existing claims and leases.
Background
    The Forest Service administers surface resources on nearly193 
million acres of NFS lands located in forty-two states and the 
Commonwealth of Puerto Rico. The Forest Plan for the Flathead National 
Forest blends areas of multiple uses in the North Fork with areas of 
specific or limited uses elsewhere on the Forest. Under current law, 
NFS lands reserved from the public domain pursuant to the Creative Act 
of 1891, including those in S. 3075, are open to location, entry and 
patent under the United States Mining Laws unless those lands have 
subsequently been withdrawn from the application of the mining laws. 
This bill would withdraw approximately 291,000 acres of the Flathead NF 
from the operation of the locatable and leasable mineral laws subject 
to valid existing rights.
    The North Fork of the Flathead has low to moderate potential for 
the occurrence of locatable and leasable minerals. Much of the North 
Fork was leased for oil and gas in the early 1980s. Subsequently, the 
Bureau of Land Management (BLM) and Forest Service were sued and BLM 
suspended the leases in 1985 to comply with a District Court ruling 
(Conner v. Burford, 605 F. Supp. 107 (D.Mont.1985)). Presently, there 
are no active locatable or leasable operations, including oil and gas, 
in the North Fork. There are 115 leases that have been suspended by the 
Secretary of the Interior since 1985.
Comments on S. 3075
    We recognize the bill would not affect the existing oil and gas 
leases because they would constitute valid existing rights. We also 
recognize the bill would not change the court's order in Conner v. 
Burford requiring the BLM and Forest Service to prepare an 
environmental impact statement (EIS) under the National Environmental 
Policy Act before authorizing any surface disturbing activities on the 
affected leases.
    We are pleased that this bill would not preclude the removal and 
use of mineral materials found on the NFS lands that would be subject 
to the bill. The Flathead National Forest and Flathead County rely on 
the close proximity of local sources of aggregate to maintain roads 
economically and as a source of building materials. Commensurate with 
the goal of S. 3075 to protect the North Fork watershed, the ability to 
continue using those mineral materials would allow us to adequately 
maintain local roads and reduce erosion related impacts to streams and 
lakes in the North Fork.
    We appreciate Senators Baucus and Tester's strong commitment to 
protecting Montana's natural resources.
    I would be happy to answer any questions from the committee. Thank 
you.

    Senator Wyden. Ms. Krueger, Ms. Burke, here's what we're 
going to do. Both of you have given succinct statements. We're 
joined by Senator Udall. I have a few questions on just 2 of 
the bills that have come up, and it's my intent to do these 
briefly, and then we'll turn it over to Senator Udall, who I 
know is going to be interested in pursuing his bill, which I 
think is very constructive, and I want to see advance, as well.
    First question, for you, Ms. Krueger. The Department 
testified in opposition to an earlier House version of the 
Deafy Glade Land Exchange bill in 2008. The Department is now 
supporting the new version of the bill. What's the Department's 
change of mind all about?
    Ms. Krueger. We looked at a couple factors.
    One factor, when we did a feasibility study, a couple years 
ago, it said that it wasn't in the public's best interest to do 
the land exchange, but didn't prohibit us from doing that. In 
this legislation, there's some statement that requires the 
county to maintain that facility, so we support that, as well 
as--we did ask the county to go out and purchase this land that 
we wanted to exchange, and they did that in good faith. So, 
when we combine those 2 factors, that's the reason we support 
this land exchange now.
    Senator Wyden. Question for both of you on the commercial 
film fee legislation, I think would be fair to characterize it. 
The current law on commercial filming fees directs your 
agencies, your 2 agencies, to establish reasonable filming 
fees, taking into account the number of filming days on Federal 
lands, the size of the film crew, and amount of filming 
equipment used. Do you all have a national fee schedule for the 
Department of Interior and the Forest Service that lays out 
what a ``reasonable fee'' is, or does each area establish fees 
on a case-by-case basis?
    Ms. Burke.
    Ms. Burke. Thank you, Mr. Chairman. We do not have a 
national fee. We--even within the BLM, the fees vary, depending 
on location. However, we are working on a unified fee schedule 
at this time.
    Senator Wyden. Ms. Krueger.
    Ms. Krueger. We're in the same situation. We do it on a 
case-by-case basis, as well.
    Senator Wyden. You're also working on a uniform fee 
schedule?
    Ms. Krueger. We are working with Department of Interior on 
that, yes.
    Senator Wyden. OK.
    The subcommittee has been told, by some organizations, that 
it's their view that the agencies charge fees that are geared 
to larger commercial filming operations, but, in their view, 
are unreasonable for the small production operations. What 
would be your response to that, Ms. Burke?
    Ms. Burke. I think that our proposed fee schedule that 
we're working on jointly within DOI and Agriculture would 
address those concerns about needing to treat different-sized 
operations differently.
    Senator Wyden. Ms. Krueger.
    Ms. Krueger. I would like to add that we also look at the 
location of where they're going to do the filming. I've had 
experience where there's been some filming that's been done, 
but we've had to do crowd control or coordinate days when we go 
out to do the filming, versus on how active the public is going 
to be on a certain day.
    I've also had experience where we've looked at wildlife 
concerns, nesting of birds at a certain period of time.
    So, each situation, we like to look at, to make sure we are 
managing for our resources and our visitors.
    Senator Wyden. So, when would you expect to have these new 
rules out? I mean, in effect, what you told me--I guess you're 
making a little bit a news here this afternoon--is that you're 
interested in moving from a sort of case-by-case approach, with 
respect to filming fees, to your 2 agencies coming up with a 
coordinated approach that would be embodied in a rule, or 
something that would be made public. When do you expect that to 
be out publicly?
    Ms. Burke. Our hope is that it'll be soon. We are still 
undergoing departmental review, but we do have a working draft 
that is very close to being completed.
    Senator Wyden. So, you'd say 60 days?
    Ms. Burke. I would say ``soon.''
    Senator Wyden. Ninety days?
    Ms. Burke. I would say ``soon.''
    [Laughter.]
    Senator Wyden. Ms. Krueger, can we----
    Ms. Krueger. We're working on it.
    Senator Wyden [continuing]. Give a little bit more flesh to 
the concept of ``soon''?
    Ms. Krueger. I'm sorry, I can't give you more flesh to your 
answer--or, your question. We are working with Department of 
Interior. They are taking the lead on this. As they go through 
and create the regulations, we are going to adopt those.
    Senator Wyden. OK.
    Ms. Krueger. So, we are working in tandem----
    Senator Wyden. I'd like, within a week, a response to the 
question.
    Ms. Krueger. All right.
    Ms. Burke. Absolutely.
    Senator Wyden. All right.
    How would the $200 annual filming fee proposed in S. 1241 
compare to your current fee structure?
    Ms. Burke.
    Ms. Burke. Our current fee structure varies by State and by 
the type of activity, so it's difficult to say how the $200 fee 
would impact us. One of our primary concerns is not--is that 
the annual permit would allow film crews to go into areas 
without us being able to adequately manage those activities.
    Senator Wyden. OK.
    Ms. Krueger.
    Ms. Krueger. As I mentioned, we're a case-by-case, as well. 
But, on the average, we charge about $100 a day for a small 
filming crew. That's just a ballpark number. It would limit us 
in cost recovery, as well.
    Senator Wyden. OK.
    I'm going to turn this over to Senator Udall.
    The reason this information about your proposals is 
important is, we've got colleagues, on a bipartisan basis, that 
want to move forward with legislation. So, we will await that 
information within the week.
    Look forward to working closely with you. It has always 
been easy to work with both of your agencies, as chair of this 
subcommittee.
    I'll turn this over to Senator Udall, who's got a good 
bill, and I know he's going to want to ask a number of 
questions.
    Senator Udall, the gavel is yours.
    Senator Udall [presiding]. Thank you, Senator Wyden. Thank 
you, before you have to depart, for holding this important 
hearing.
    I couldn't help but note when you asked for a definition of 
``soon,'' that we're, right now on the floor of the Senate, 
working on a series of definitions on what--how you describe 
``hedges, derivative, swaps, credit default swaps, 
counterparties, and futures.'' ``Soon'' is the answer. So, 
we'll----
    Thank you, Mr. Chairman.
    I have a full statement I'd like to put in the record in 
regards to S. 2762, the San Juan Wilderness Act. It's a 
companion bill to the one that my colleague and friend in the 
House of Representatives, Congressman John Salazar, introduced 
late last year. I want to acknowledge the hard work that 
Congressman Salazar's put forth, along with many stakeholders 
in this wonderful and beautiful area of Colorado.
    [The prepared statement of Senator Mark Udall follows:]
   Prepared Statement of Hon. Mark Udall, U.S. Senator From Colorado
    Thank you, Mr. Chairman.
    I appreciate your agreeing to hold a hearing on S. 2762, the San 
Juan Wilderness Act.
    This bill is a companion to H.R. 3914, the companion bill 
introduced by my House colleague, Representative John Salazar.
    I want to express my appreciation for the extensive work of 
Representative Salazar and his staff in putting this bill together and 
working with all stakeholders on this bill.
    This bill would designate over 22,000 acres of National Forest and 
Bureau of Land Management land in southwestern Colorado as wilderness. 
These would be additions to some existing wilderness areas in this 
region. These are important lands that possess critical wildlife 
habitat, clean water, and other scenic values. They are very worthy 
additions.
    It would also establish over 21,000 acres of National Forest as the 
Sheep Mountain Special Management Area. This is an area that is equally 
striking and contains equally critical resource and scenic value. It is 
being designated as a special management area so as to continue to 
allow heli-skiing opportunities.
    Finally, the bill would withdraw from mineral entry over 6,500 
acres in the Naturita Canyon area, a striking canyon west of Telluride, 
Colorado.
    In addition to these designations, the bill protects existing water 
rights, allows continued grazing, does not affect the continued 
operation of a hydroelectric plant, and does not interfere with an 
important and popular footrace, called the Hard Rock 100.
    I am pleased to join with Representative Salazar in preserving and 
protecting these scenic and important landscapes into our cherished 
wilderness and special management systems.
    Mr. Chairman, thank you again for holding this hearing and I look 
forward to hearing from today's witnesses.

    Senator Udall. I wanted to, in particular, mention that the 
bill protects existing water rights, it allows continued 
grazing, it doesn't affect the continued operation of a 
hydroelectric plant, and it does not interfere with a important 
and popular footrace called the Hardrock One Hundred, which, 
incidentally, is because it involves a 100-mile footrace, which 
is no small accomplishment.
    Congressman Salazar has, again, worked hard in order to 
protect these scenic, historic, and important landscapes that 
deserve in-perpetuity protection.
    Ms. Krueger, maybe I could turn to you first. You've 
indicated that you'd like to work on some boundary adjustments 
regarding the Mount Sneffels Wilderness additions near 
Telluride. Could you be more specific about where you would 
like to see the boundary moved?
    Ms. Krueger. Yes. We'd like to see the boundary move along 
a cliff area that gives a real succinct line, or demarcation, 
of where that boundary would be. We have been working with 
Telluride City, and they're OK with the boundary, as proposed. 
We believe the boundary going up to the cliff would help with 
the Hardrock One Hundred Race and keep that out of the 
Wilderness Area for a 5-mile segment. So, that's one area.
    Senator Udall. Is that the primary boundary adjustment 
you'd like to make?
    Ms. Krueger. Yes.
    Senator Udall. Yes. Have you raised those concerns with 
Congressman Salazar, following the hearings of his version of 
the bill in the House? If so, what's the status of your 
discussions with him and his staff on these concerns?
    Ms. Krueger. My understanding is our forest supervisor has 
been working with his office, but I'll have to get back with 
you on the status.
    Senator Udall. Will you do so?
    Ms. Krueger. Yes, I will.
    Senator Udall. Just for the record, I'd be happy to work 
with you and his office on that issue and any others that might 
come up----
    Ms. Krueger. All right, thank you.
    Senator Udall [continuing]. As we move forward.
    Ms. Burke, thank you again for being here. You've 
indicated, in your testimony, that you'd like to work on some 
boundary issues, as well, in regards to this bill. Could you be 
more specific as to the nature of your concerns with those 
boundaries? Have you also raised this--your concerns, with 
Congressman Salazar? If so, what's the status of those 
discussions?
    I fit 3 questions in there. My apology.
    Ms. Burke. Right. Yes, you're correct that we raised a 
boundary issue, and we would support expanding this bill to 
include the rest of the Wilderness Study Area--the southern 
portion of the Wilderness Study Area--which would help us with 
manageability. So, whether it's a natural barrier, as the 
Forest Service indicated, it would just be easier for us to 
manage that land for its wilderness characteristics.
    Senator Udall. Could I interrupt you there--and leaving the 
other 2 questions outstanding--is this the McKenna Peak 
designation?
    Ms. Burke. Yes.
    Senator Udall. So, you would--let me leave that there, and 
I'm going to come back to that, and I'll let you answer the 
other 2 parts of my initial question.
    Ms. Burke. The other 2 parts were, Are we working with 
Representative----
    Senator Udall. Congressman----
    Ms. Burke. Salazar.
    Senator Udall. Yes, and what's the status of those?
    Ms. Burke. What's the status of that work?
    Senator Udall. Yes.
    Ms. Burke. We've had discussions, but I'm not aware of the 
current status of those discussions.
    Senator Udall. OK. As I offered to Ms. Krueger, I'm 
certainly willing and, I think, able to be engaged, as well, in 
moving those discussions along.
    Ms. Burke. Thank you.
    Senator Udall. Let me follow up, as I suggested I would, on 
McKenna Peak. Do you have any sense as to what concerns, if 
any, constituencies may have with expanding the bill's 
wilderness designation to include the entire Wilderness Study 
Area, or as we know--as we call it, a WAS, including the 
portions in Delores County?
    Ms. Burke. Yes.
    Senator Udall. Thank you.
    Ms. Burke. We are not aware of any specific concerns as the 
Wilderness Study Area moves into a different county.
    Senator Udall. You are not.
    Ms. Burke. No.
    Senator Udall. Let's keep the conversation alive in that 
regard, if we might.
    I think, at this point, I don't have any other additional 
questions.
    Do either of you have any additional comments before I 
bring the hearing to a close?
    Ms. Burke. No, thank you.
    Senator Udall. Thanks again for making the trip to the 
Hill.
    We will keep the hearing record open for 2 weeks. If any 
members of the committee have additional questions, we will 
submit them to you in writing.
    Thanks again, to everybody.
    The subcommittee's adjourned.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

   Responses of Marcilynn A. Burke to Questions From Senator Barrasso
    The Administration's testimony indicates that the land management 
agencies should be allowed to continue permitting and charging land use 
fees for any commercial film crew of any size. That policy includes 
individuals filming recreational trips to public land and amateur 
filmmakers entering contests. It also includes educational videos and 
those made by non-profit organizations. These individual filmmakers are 
impacting the public lands no more than any other hiker, biker or 
skier. Yet, the agencies are charging exorbitant fees and requiring a 
lengthy permit process. Other individual public lands users do not face 
the same kind of permitting and fee structure.
    Question 1a. It seems to me that this policy is difficult to apply 
fairly. Does the Bureau of Land Management intend to apply this same 
standard to other individual users?
    For example, would an amateur photographer have to pay for 
permitting and land use?
    Answer. The Bureau of Land Management (BLM) does not charge for 
filming in cases of casual use. Casual use is defined in regulations as 
``any short term noncommercial activity which does not cause 
appreciable damage or disturbance to the public lands, their resources 
or improvements, and which is not prohibited by closure of the lands to 
such activities.'' (43 CFR 2920.0-5(k)). Amateur photography is 
considered casual use. The amateur photographer would not be charged 
fees on public lands, unless the photographer was taking still 
photographs that use models, sets or props, entered an area not 
generally open to the public, or conducted a photography session that 
requires agency oversight. (Public Law 106-206). Oversight would 
generally be required for larger still photography activities or in 
areas of fragile natural or cultural resources or higher visitation.
    Question 1b. Would a non-profit organization leading educational 
hikes for a fee be charged per student?
    Answer. The nonprofit organizational status of an entity is not a 
factor in determining if an activity is commercial in nature. The BLM 
issues many commercial recreation use permits to nonprofit 
organizations including Outward Bound, National Outdoor Leadership 
School, and many other recreational or outdoor activity based 
organizations that operate repeated trips, advertise, provide paid 
guide staff and charge fees for participants. However, organizations 
such as schools, clubs or groups who conduct occasional multi-day group 
outings, do not have paid guide staff and share costs among 
participants fall under organized group permits. The standard fee for 
organized group permit is set by regulation and is currently $5.00 per 
person per day. Typically, short-term use of public lands by 
educational organizations or groups such as a one-day school field 
trip, day hikes, or use of day use facilities are not charged fees.
    Question 1c. Does the Administration intend to charge the authors 
of trail guide books for land use?
    Answer. No, the BLM does not charge authors of trail use books for 
land use.
    Question 2. The Rainbow Gathering that took place near Pinedale, 
Wyoming in 2008 created significant impacts to Federal lands. Please 
explain the land use fee charged to that organization. Please also 
provide the fees charged to the group for 2009 and the permitting 
process and fee planned for 2010.
    Answer. The Forest Service was the lead agency for the 2008 
National Rainbow Family Gathering. We defer to the Forest Service as 
the 2008 ``Rainbow Gathering'' took place on Forest Service lands 
(Bridger-Teton NF).
    Question 3. Over the past five years, what is the average land use 
fee charged for film crews of five persons or less permitted on Federal 
lands?
    Answer. The Department of the Interior (Department) does not keep a 
centralized database of the permits issued or fees charged to film 
crews of five persons or less.
    Question 4. Over the past five years, what is the average time 
required for the processing of each permit for film crews of five 
persons or less on Federal lands?
    Answer. The Department also does not keep a centralized database of 
the average time required for processing of each commercial filming 
permit.
    However, as a general matter, the National Park Service (NPS) 
estimates that a permit request for an activity involving a small crew 
may take from one to five days or more to process, depending on factors 
including the crew's size, preferred location, and their knowledge of 
NPS policy and regulations. For permits on public lands covered by a 
Programmatic Environmental Assessment (including popular filming 
locations in California, Nevada and Utah), the BLM estimates that a 
permit request may take one to five days to process. And the Fish and 
Wildlife Service (FWS) estimates that the special use permits for 
filming on refuge lands are generally processed within 2-3 weeks.
                                 ______
                                 
  Responses of Marcilynn A. Burke to Questions From Senator Murkowski
                                 s.1241
    You have testified that the Forest Service and DOI agencies should 
be allowed to continue permitting and charging land use fees for 
commercial film crews of any size.
    Question 1a. Does the Forest Service intend to apply this same 
standard to other individual users?
    For example, would an amateur photographer have to pay for 
permitting and land use, if they enter a photo a contest or get paid 
for a copy of a photo?
    Answer. We defer to the Forest Service for its response to this 
question.
    Question 1b. Would a non-profit organization leading educational 
hikes be charged per student?
    Answer. We defer to the Forest Service for its response to this 
question.
    Question 1c. Does the Forest Service intend to charge the authors 
of trail guides for land use?
    Answer. We defer to the Forest Service for its response to this 
question.
    Question 2. The Rainbow Gatherings all take place on federal lands 
and there are venders who attend those gatherings who sell products at 
the gatherings. Using the logic provided in your testimony on small 
film crews; when will the Departments begin to charge the rainbow 
people or the vendors who attend those events a user fee?
    Answer. Vending on public lands is considered a commercial 
recreational use. In accordance with 43 C.F.R. 2932.11(a), the venders 
on public lands would be issued permits and charged fees by BLM for 
their activities. On parklands, the NPS would require each vendor to 
obtain a commercial use authorization and would charge a fee in 
accordance with Public Law 105-391.
    Question 3. Other organizations advertise in environmental 
magazines to bring people to federal lands without permits and sell 
these tours to individuals, thus these activities are very likely 
commercial ventures. For example, you can find a good number of 
advertisements in the Sierra Club Magazine each issue. Some are even 
Sierra Club organized events.
    Using the logic of your testimony on small film crews, when are 
your departments going to begin charging groups organized through such 
advertisements a fee to attend these hikes on Federal lands?
    Answer. Under BLM regulations, organizations that advertise in 
national magazines to sell and conduct tours on public land would be 
considered commercial users, and the tours would be administered under 
the Special Recreation Permit regulations, 43 C.F.R. 2932.11 (a)(1). 
The NPS issues commercial use authorizations to commercial ventures and 
charges fees in accordance with Public Law 105-391. Nonprofit 
organizations are not issued commercial use authorizations pursuant to 
Public Law 105-391 unless they derive taxable income from the activity, 
however, they may be subject to entrance fees.
    Question 4. You indicated the agencies need to be able to recoup 
their costs; please provide the Committee with a detailed lists of the 
costs by forest (for the Forest Service) or state (for the BLM), or 
park (for the Park Service) for each of the last 5 years for 
administering these film crew permits?
    Answer. The NPS's cost recovery costs filming and photography 
permits for fiscal years 2006-2009 are provided below. Based upon the 
reporting system that is used, it is not possible to provide a detailed 
park listing.

  
FY 2006                                    $289,398.16 (only represents
                                            a partial year)
FY 2007                                    $822,771.57
FY 2008                                    $697,565.10
FY 2009                                    $727,216.10

    The BLM's cost recovery costs are associated with both processing 
film permits and monitoring the filming. They are as follows by state 
over the last 5 years:
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                     FY2005                   FY2006                   FY2007                   FY2008                   FY2009                   Totals
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Arizona                                                      $4,205                   $4,539                     $200                     $486                  $23,484                  $32,914
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
California                                                  $66,323                  $44,553                 $116,963                  $93,247                  $53,390                 $373,476
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Colorado                                                       $744                   $1,200                   $2,203                   $2,517                   $1,149                   $7,813
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Idaho                                                          $175                     $454                        0                        0                        0                     $629
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Montana                                                      $1,288                     $300                     $104                     $700                   $2,230                   $4,622
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
New Mexico                                                   $1,669                   $6,312                   $4,923                   $8,065                   $3,510                  $24,479
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Nevada                                                       $5,194                   $6,075                  $11,233                  $10,507                   $9,247                  $42,256
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Oregon                                                         $350                        0                   $3,385                   $2,603                   $2,370                   $8,708
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Utah                                                        $11,986                  $12,380                   $9,661                  $11,494                   $6,753                  $52,274
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Wyoming                                                      $1,029                   $1,416                        0                        0                     $709                   $3,154
================================================================================================================================================================================================
  Totals                                                    $92,963                  $77,229                 $148,672                 $129,619                 $102,842                 $551,325
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
 May 10, 2010
 Information from BLM LR2000 (case recordation)

    Question 5. Please also provide an estimate of the total FTE's 
utilized to administer these permits by forest, BLM district, or 
national park for each of the last five years?
    Answer. The BLM has only three states with substantial filming 
activity-California, Utah and Nevada. Nevada estimates 2 to 3 work 
months per year or , of a FTE. Utah estimates 6 to7 work months per 
year or 1/2 of a FTE total. California estimates between 8 and 10 FTEs 
annually.
    In most park units processing requests for special park use 
permits, which includes activities such as special events, first 
amendment activities, commercial filming, and still photography is a 
collateral duty. Less than 20 parks have staff dedicated to managing 
the special park uses program and processing permit requests. Levels of 
monitoring vary from project to project. For example, a crew of five 
filming in an historic building would generally be assigned a curator 
and an electrician to monitor the filming activity. In parks without 
staff dedicated to special park uses, monitoring this activity takes 
employees away from their other duties.
    Question 6. For the BLM, the Forest Service, and US Fish & Wildlife 
Service where hunting or fishing is allowed:
    The states have the responsibility for hunting and fishing 
licensing and management of those recreationists. If a hunter and one 
other person film a hunting or fishing trip would they fall under the 
commercial filming permit program?
    Answer. The BLM would consider activities such as described in this 
question as ``casual use'' and would not require a permit. 43 CFR 
2920.0-5(k) defines ``casual use'' as any short-term non-commercial 
activity which does not cause appreciable damage or disturbance to the 
public lands, their resources or improvements, and which is not 
prohibited by closure of the lands to such activities.
    Under the National Wildlife Refuge System Administration Act, the 
determination of whether a filming activity is a commercial use of a 
national wildlife refuge, or whether the activity requires a Special 
Use Permit, is left to the refuge manager's professional judgment based 
on the individual circumstances. In this particular case, it is highly 
unlikely that the activity would require a permit unless the people 
filming required special treatment due to access, amount of equipment, 
interference with other visitors' use of the refuge, etc. If a permit 
was required for some reason, a fee would potentially be charged in 
accordance with the requirements of Public Law 106-206.
    Question 7. If a family is on a lake on federal lands and the 
father video's one of his children fishing: would that fall under the 
commercial filming permit program?
    Answer. For the BLM, this activity would also be considered casual 
use and would not require a permit. On a national wildlife refuge, it 
is highly unlikely that this activity would require a Special Use 
Permit.
    Question 8. In either event described above: if either the hunter 
or the family happened to capture a trophy animal or fish on film or 
video and then sold the footage to one of the many outdoor shows, would 
that fall within the commercial filming permit program?
    Answer. For the BLM, because the original intent as described in 
this question was casual use and not commercial, this activity would 
not require a permit under BLM regulations. On a national wildlife 
refuge, as described above, the determination of whether a Special Use 
Permit is required for filming on a national wildlife refuge, and 
whether a fee will be charged, is made before an activity takes place. 
In this case, if no permit was required beforehand, FWS would not seek 
to charge a fee if the footage was later sold for profit.
    Question 9. How does your agency deal with video taken by private 
individuals of events on public lands that then get shown on TV?
    Answer. For the BLM, a permit would not be required if the original 
intent was casual use or if the filming was associated with 
broadcasting news. A permit would be required for a planned sporting or 
other event that is filmed for the purpose of broadcasting on a 
regularly scheduled television show. On a national wildlife refuge, as 
described above, the determination of whether a Special Use Permit is 
required for filming on a national wildlife refuge, and whether a fee 
will be charged, is made before an activity takes place.
    Question 10. Does either Department charge its employees a permit 
fee for taking video that then gets viewed on a public TV station or on 
the Internet--say for instance video from rainbow gatherings, or 
wildfires? Why not?
    Answer. If filming is undertaken by federal employees on government 
time, any material or product created (video for example) is owned by 
the federal government. If the employee was acting beyond their scope 
of work, or on their own time, the employee would have to comply with 
the provisions of federal law regarding filming.
    Question 11. Since the states have responsibility for the 
regulation of hunting and fishing why should Congress allow the federal 
land management agencies to regulate filming on federal lands done in 
conjunction with hunting or fishing?
    Answer. Although States have responsibility for regulation of 
certain hunting and fishing, the federal land agencies are responsible 
for the natural resources and habitats that support wildlife 
populations. The federal land agencies must assess, evaluate and 
authorize (permit) the use activity when public land resources are 
being used, regardless of the type of use activity including filming, 
energy or mineral development, right of ways, range or grazing uses, 
commercial or competitive recreation activities and other land uses.
    Question 12. If Congress does develop a small film crew permit 
program, are both Departments willing to share the receipts from the 
program with State Fish and Game Departments for those permit fees 
collected related to hunting or fishing activities?
    Answer. Because the filming takes place on federal lands, the 
federal land management agencies, including BLM, NPS and FWS, with 
responsibility for protecting those land resources appropriately should 
retain any fees collected. This will cover costs for managing filming 
on federal lands and will provide a fair return to the American 
taxpayer for the use of those resources, allowing these fees to be 
reinvested in conservation of those resources for future generations.
                                 ______
                                 
      Responses of Faye Krueger to Questions From Senator Barrasso
                                s. 1241
    The Administration's testimony indicates that the land management 
agencies should be allowed to continue permitting and charging land use 
fees for any commercial film crew of any size. That policy includes 
individuals filming recreational trips to public land and amateur 
filmmakers entering contests. It also includes educational videos and 
those made by non-profit organizations. These individual filmmakers are 
impacting the public lands no more than any other hiker, biker or 
skier. Yet, the agencies are charging exorbitant fees and requiring a 
lengthy permit process. Other individual public lands users do not face 
the same kind of permitting and fee structure.
    Question 1a. It seems to me that this policy is difficult to apply 
fairly. Does the Forest Service intend to apply this same standard to 
other individual users? For example, would an amateur photographer have 
to pay for permitting and land use?
    Answer. The statues governing commercial filming (16 U.S.C. 460l-
6d) and 36 CFR 251.50(c)(2) require a permit and permit fee for still 
photography that involves the use of models, sets, or props that are 
not a part of the site's natural or cultural resources or 
administrative facilities; takes place at a location where members of 
the public generally are not allowed; or takes place at a location 
where the Forest Service is likely to incur additional administrative 
costs as a direct result of the still photography. Amateur 
photographers do not need to obtain a permit or pay a permit fee to 
take still photographs as long as none of these criteria applies.
    Question 1b. Would a non-profit organization leading educational 
hikes for a fee be charged per student?
    Answer. Per 36 CFR 251.51, leading hikes for a fee would be 
classified as outfitting and guiding, not commercial filming. Per 36 
CFR 251.50(a) and 251.57(a) and Forest Service Handbook (FSH) 2709.11, 
chapters 30 and 40, outfitting and guiding requires a permit and a 
permit fee. If the activity involves 75 or more people, a free 
noncommercial group use permit would be required, per 36 CFR 
251.50(c)(1).
    Question 1c. Does the Administration intend to charge the authors 
of trail guide books for land use?
    Answer. Authors of trail guide books about National Forest System 
lands do not have to obtain a permit or pay a permit fee. Photographers 
who take pictures on National Forest System lands for trail guide books 
do not need to obtain a permit or pay a permit fee as long as none of 
the criteria listed in the response to question 1a applies.
    Question 2. The Rainbow Gathering that took place near Pinedale, 
Wyoming in 2008 created significant impacts to U.S. Forest Service 
land. Please explain the land use fee charged to that organization. 
Please also provide the fees charged to the group for 2009 and the 
permitting process and fee planned for 2010.
    Answer. A permit is required for noncommercial group uses (36 CFR 
251.50(c)(1)). Noncommercial group uses are gatherings on National 
Forest System lands that involve 75 or more people where no entry or 
participation fee is charged and where the primary purpose is not the 
sale of a good or service (36 CFR 251.51). Per 36 CFR 251.57(d), no fee 
may be charged for a noncommercial group use permit (NCGUP). National 
Rainbow Family gatherings like the 2008 Pinedale, Wyoming, event and 
the 2009 Santa Fe, New Mexico, event are noncommercial group uses. With 
respect to the permit requirement, in 2007 and 2008 the Forest Service 
managed the national Rainbow Family gathering with an operating plan in 
lieu of a permit to test the feasibility of an alternative method to 
obtain voluntary compliance with resource requirements from the Rainbow 
Family. In 2009, the responsible official issued an NCGUP for the 
Rainbow Family gathering held in the Santa Fe National Forest. The 
establishment of cooperative relationships between the Forest Service 
and Rainbow Family gatherers led to both execution of the permit and 
development of an operating plan.
    For the 2010 national Rainbow Family gathering held in the 
Allegheny National Forest, the responsible federal official worked with 
gathering participants on how to meet the mutual objectives of having a 
safe, healthy, gathering with mitigation of resource impacts. 
Discussions included execution of an NCGUP as well as the use of a 
mutually agreed upon operating plan. Following several days of 
discussions, the responsible official, pursuant to their delegated 
authority, approved a mutually agreed upon operating plan containing 
sufficient standards to ensure that the foregoing objectives were met. 
The establishment of a positive relationship for the 2010 national 
Rainbow Family gathering resulted in all the objectives being met by 
participants. These objectives continue to be met during cleanup and 
rehabilitation of the gathering site.
    Question 3. Over the past five years, what is the average land use 
fee charged for film crews of five persons or less permitted on the 
National Forest System?
    Answer. For still photography, depending on the location, the land 
use fee for a crew of five persons or less ranges from $50 to $132 per 
day, and from $150 to $193 per day for commercial filming, depending on 
the location. Most Forest Service regions developed their fee schedules 
in the early 1990s and have not updated the fees for inflation.
    Question 4. Over the past five years, what is the average time 
required for the processing of each permit for film crews of five 
persons or less on the National Forest System?
    Answer. Regardless of the size of the crew, a still photography or 
commercial filming permit generally can be issued in five days if the 
proposed activity is consistent with applicable Forest Service 
directives and the Forest Service has all the required information from 
the applicant. We recommend that an applicant contact the affected 
administrative unit at least ten days prior to the proposed activity to 
facilitate processing of a proposal.
     Responses of Faye Krueger to Questions From Senator Murkowski
                                s. 1241
    Question 5a. You have testified that the Forest Service and DOI 
agencies should be allowed to continue permitting and charging land use 
fees for commercial film crews of any size. Does the Forest Service 
intend to apply this same standard to other individual users? For 
example, would an amateur photographer have to pay for permitting and 
land use, if they enter a photo a contest or get paid for a copy of a 
photo?
    Answer. The statues governing commercial filming (16 U.S.C. 460l-
6d) and 36 CFR 251.50(c)(2) require a permit and permit fee for still 
photography that involves the use of models, sets, or props that are 
not a part of the site's natural or cultural resources or 
administrative facilities; takes place at a location where members of 
the public generally are not allowed; or takes place at a location 
where the Forest Service is likely to incur additional administrative 
costs as a direct result of the still photography. Amateur 
photographers do not need to obtain a permit or pay a permit fee to 
take still photographs as long as none of these criteria applies.
    Question 5b. Would a non-profit organization leading educational 
hikes be charged per student?
    Answer. Per 36 CFR 251.51, leading hikes for a fee would be 
classified as outfitting and guiding, not commercial filming. Per 36 
CFR 251.50(a) and 251.57(a) and Forest Service Handbook (FSH) 2709.11, 
chapters 30 and 40, outfitting and guiding requires a permit and a 
permit fee. If the activity involves 75 or more people, a free 
noncommercial group use permit would be required, per 36 CFR 
251.50(c)(1).
    Question 5c. Does the Forest Service intend to charge the authors 
of trail guides for land use?
    Answer. Authors of trail guide books about National Forest System 
lands do not have to obtain a permit or pay a permit fee. Photographers 
who take pictures on National Forest System lands for trail guide books 
do not need to obtain a permit or pay a permit fee as long as none of 
the criteria listed in the response to question 1a applies.
    Question 6. The Rainbow Gatherings all take place on federal lands 
and there are vendors who attend those gatherings who sell products at 
the gatherings. Using the logic provided in your testimony on small 
film crews, when will the Departments begin to charge the rainbow 
people or the vendors who attend those events a user fee?
    Answer. A permit is required for noncommercial group uses (36 CFR 
251.50(c)(1)). Noncommercial group uses are gatherings on National 
Forest System lands that involve 75 or more people where no entry or 
participation fee is charged and where the primary purpose is not the 
sale of a good or service (36 CFR 251.51). Per 36 CFR 251.57(d), no fee 
may be charged for a noncommercial group use permit (NCGUP). National 
Rainbow Family gatherings like the 2008 Pinedale, Wyoming, event and 
the 2009 Santa Fe, New Mexico, event are noncommercial group uses. With 
respect to the permit requirement, in 2007 and 2008 the Forest Service 
managed the national Rainbow Family gathering with an operating plan in 
lieu of a permit to test the feasibility of an alternative method to 
obtain voluntary compliance with resource requirements from the Rainbow 
Family. In 2009, the responsible official issued an NCGUP for the 
Rainbow Family gathering held in the Santa Fe National Forest. The 
establishment of cooperative relationships between the Forest Service 
and Rainbow Family gatherers led to both execution of the permit and 
development of an operating plan.
    For the 2010 national Rainbow Family gathering held in the 
Allegheny National Forest, the responsible federal official worked with 
gathering participants on how to meet the mutual objectives of having a 
safe, healthy, gathering with mitigation of resource impacts. 
Discussions included execution of an NCGUP as well as the use of a 
mutually agreed upon operating plan. Following several days of 
discussions, the responsible official, pursuant to their delegated 
authority, approved a mutually agreed upon operating plan containing 
sufficient standards to ensure that the foregoing objectives were met. 
The establishment of a positive relationship for the 2010 national 
Rainbow Family gathering resulted in all the objectives being met by 
participants. These objectives continue to be met during cleanup and 
rehabilitation of the gathering site.
    Question 7. Other organizations advertise in environmental 
magazines to bring people to federal lands without permits and sell 
these tours to individuals, thus these activities are very likely 
commercial ventures. For example, you can find a good number of 
advertisements in the Sierra Club Magazine each issue. Some are even 
Sierra Club organized events.
    Using the logic of your testimony on small film crews, when are 
your departments going to begin charging groups organized through such 
advertisements a fee to attend these hikes on Federal lands?
    Answer. Per 36 CFR 251.51, leading hikes for a fee would be 
classified as outfitting and guiding, not commercial filming. Per 36 
CFR 251.50(a) and 251.57(a) and Forest Service Handbook 2709.11, 
chapters 30 and 40, outfitting and guiding requires a permit and a 
permit fee. The activity would not require a permit unless the activity 
involved 75 or more people, in which case a free noncommercial group 
use permit would be required, per 36 CFR 251.50(c)(1).
    Question 8. You indicated the agencies need to be able to recoup 
their costs; please provide the Committee with a detailed lists of the 
costs by forest (for the Forest Service) or state (for the BLM), or 
park (for the Park Service) for each of the last 5 years for 
administering these film crew permits?
    Answer. The table below lists the detailed costs by forest. Please 
note that the numbers in parenthesis represent negative values. Our 
budgeting structure displays costs charged against other accounts 
instead of incurred, as negative values. For example if a large permit 
was administered across two forests for one project, one forest would 
maintain the account. Also note that some of the expenses listed under 
travel and vehicles, while small value are accurate. During 
multipurpose trips, proportions of the expenses are charged against 
each activity which results in which results in small amounts of funds 
being charged for this activity. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Question 9. Please also provide an estimate of the total FTE's 
utilized to administer these permits by forest, BLM district, or 
national park for each of the last five years?
    Answer. The amounts of time spent administering permits by Forest 
Service Staff are very small and are usually performed as a collateral 
duty. As such we have rolled up the data to display total full time 
equivalents (FTEs) per year. The table provided for the previous 
question (#8) displays salary expenditures for each of the National 
Forests that have processed commercial film permits.

                   FOREST SERVICE FTEs FOR COMMERCIAL FILMING AND STILL PHOTOGRAPHY PERMITS\1\
----------------------------------------------------------------------------------------------------------------
                   Fiscal Year                       Administrative Expenditure in $              FTEs
----------------------------------------------------------------------------------------------------------------
2009                                                                          318,550                       3.0
----------------------------------------------------------------------------------------------------------------
2008                                                                          306,763                       3.0
----------------------------------------------------------------------------------------------------------------
2007                                                                          292,454                       2.5
----------------------------------------------------------------------------------------------------------------
2006                                                                          139,756                       1.0
----------------------------------------------------------------------------------------------------------------
2005                                                                          182,574                       1.5
----------------------------------------------------------------------------------------------------------------
\1\ From Foundation Financial Information System (FFIS) Performance and Accountability System (PAS) actual
  transaction register data for the listed fiscal years.

    Question 10. For the BLM, the Forest Service, and US Fish & 
Wildlife Service where hunting or fishing is allowed:
    The states have the responsibility for hunting and fishing 
licensing and management of those recreationists. If a hunter and one 
other person film a hunting or fishing trip would they fall under the 
commercial filming permit program?
    Answer. If the person accompanying the hunter is providing 
outfitting or guiding services, that person would have to have an 
outfitting and guiding permit and pay a fee for that permit (36 CFR 
251.51 and FSH 2709.11, ch. 30 and 40). If the film of the trip is part 
of the services authorized by the outfitting and guiding permit (e.g., 
if the outfitter and guide is filming the trip to provide a memento to 
the client), no commercial filming permit would be required. However, 
if the film of the trip is not part of the authorized outfitting and 
guiding services and the filming involves the advertisement of a 
product or service, the creation of a product for sale, or the use of 
actors, models, sets, or props, unless the filming is associated with 
broadcasting breaking news, authorization of the filming would be 
required (16 U.S.C. 460l-6d; 36 CFR 251.51), either in the outfitting 
and guiding permit or a separate commercial filming permit. For 
example, authorization of the filming would be required if the 
outfitter and guide has agreed to allow an independent film company to 
create a film of the trip for sale.
    If the person accompanying the hunter is not providing outfitting 
and guiding services, no outfitting and guiding permit would be 
required. However, a commercial filming permit would be required if the 
filming involves the advertisement of a product or service, the 
creation of a product for sale, or the use of actors, models, sets, or 
props, unless the filming is associated with broadcasting breaking news 
(36 CFR 251.51).
    Question 11. If a family is on a lake on federal lands and the 
father videos one of his children fishing: would that fall under the 
commercial filming permit program?
    Answer. No. A commercial filming permit would not be required for a 
videotape made by a father of his child fishing because the filming 
does not involve the advertisement of a product or service, the 
creation of a product for sale, or the use of actors, models, sets, or 
props.
    Question 12. In either event described above: if either the hunter 
or the family happened to capture a trophy animal or fish on film or 
video and then sold the footage to one of the many outdoor shows, would 
that fall within the commercial filming permit program?
    Answer. A commercial filming permit is required if the filming 
involves creation of a product for sale. If a film is sold, there is a 
presumption that it was created for that purpose.
    Question 13. How does your agency deal with video taken by private 
individuals of events on public lands that then get shown on TV?
    Answer. A commercial filming permit is required if the filming 
involves the advertisement of a product or service, the creation of a 
product for sale, or the use of actors, models, sets, or props, unless 
the filming is associated with broadcasting breaking news.
    Question 14. Does either Department charge its employees a permit 
fee for taking video that then gets viewed on a public TV station or on 
the Internet--say for instance video from rainbow gatherings, or 
wildfires? Why not?
    Answer. Forest Service employees filming on National Forest System 
lands outside the scope of their official duties have to obtain a 
commercial filming permit and pay a permit fee if the filming involves 
the advertisement of a product or service, the creation of a product 
for sale, or the use of actors, models, sets, or props, unless the 
filming is associated with broadcasting breaking news. Forest Service 
employees filming on National Forest System lands within the scope of 
their official duties do not have to obtain a commercial filming permit 
and pay a permit fee because the filming does not involve the 
advertisement of a product or service, the creation of a product for 
sale, or the use of actors, models, sets, or props.
    Question 15. Since the states have responsibility for the 
regulation of hunting and fishing why should Congress allow the federal 
land management agencies to regulate filming on federal lands done in 
conjunction with hunting or fishing?
    Answer. Federal land management agencies like the Forest Service 
are responsible for addressing resource protection and public safety on 
the lands they manage. This responsibility is reflected in 16 U.S.C. 
460l-6d, which authorizes the Forest Service to regulate commercial 
filming on National Forest System lands, including commercial filming 
of hunting and fishing. The Forest Service must ensure that proposed 
commercial filming meets the evaluation criteria for special use 
proposals in 36 CFR 251.54(e), including consistency with applicable 
law and the applicable land management plan. As stated in the response 
to question 9, if a film of an outfitted and guided hunting or fishing 
trip is part of the services authorized by the outfitting and guiding 
permit (e.g., if the outfitter and guide is filming the trip to provide 
a memento to clients), no commercial filming permit is required.
    Question 16. If Congress does develop a small film crew permit 
program, are both Departments willing to share the receipts from the 
program with State Fish and Game Departments for those permit fees 
collected related to hunting or fishing activities?
    Answer. As stated in the response to question 14, the federal land 
management agencies have authorities and responsibilities under federal 
law that are independent of the authorities and responsibilities of 
states to regulate hunting and fishing. Congress has directed that land 
use fee revenues for all commercial filming and still photography 
permits, regardless of the size of the crew involved, be retained and 
spent by the federal land management agencies that collect them for use 
and protection of federal lands.
                         s. 1571 and h.r. 1043
    Question 1. In previous Congresses the Forest Service and the 
Department have testified against this proposal pointing to a finding 
that it was not in the public interest. Today, you have reversed course 
and are now saying that you can support the proposal.
    Some on your staff have indicated the reversal has to do with a 
Forest Supervisor, who unbeknownst to the Washington D.C. office, 
suggested support for the proposal if Solano County would acquire some 
lands and trade them to the Forest Service.
    Is it now the position of the Administration that the previous 2006 
analysis was flawed? If so, what were the specific flaws?
    Answer. No, the Department's position is that the Feasibility 
Analysis for the Proposed Fouts Springs Land Exchange between Solano 
County and the Mendocino National Forest, prepared in 2006, is not 
flawed.
    Question 2. Will you provide the Committee with a copy of that 
analysis from 2006 which indicated the exchange was not in the public 
interest, along with any subsequent white papers or analysis describing 
the reversal in attitude related to the proposed exchange?
    Answer. Attached is a copy of the 2006 Feasibility analysis, as 
requested. There are no subsequent white papers or analysis describing 
the change of Administration Position. The change occurred as a result 
of discussion between the Regional Office, Forest and Washington 
Office.
                                s. 2762
    Question 1. This bill has two interesting provisions that I would 
like to better understand and a significant amount of private lands 
that are the result of old mining claims.
    In the proposed Sheep Mountain Special Management area--the agency 
is directed to manage its wilderness values and to allow heli-skiing 
and other motorized activities to continue at current levels--but then 
it directs the area gain a big wilderness designation when those ``non-
conforming'' activities have ended.
    Am I correct that commercial helicopter skiing is not compatible 
with a Wilderness designation?
    Answer. Yes. Landing of helicopters, including dropping off 
supplies or persons is prohibited in National Forest Wilderness by CFR 
(36 CFR 261.18).
    Question 2. Given the direction to convert the area to wilderness 
when the Secretary of Agriculture certifies these non-conforming 
activities have ended; when will the Secretary be outlawing these 
activities in the Sheep Mountain Special Management area?
    Answer. There are no current plans to terminate the non-conforming 
uses specified in the Act. We anticipate the heliskiing permit would 
terminate when demand for the use diminished to the point that the 
permit was no longer economically viable and the holder did not want to 
continue and there was not another qualified operator. Official 
``termination'' for the purposes of this Act designating the area as 
wilderness would include a published notice in the Federal Register.
    Question 3. Wouldn't it be better to manage the area for back 
country recreation and to allow the motorized activity to continue?
    Answer. Under our current Forest Plans for the San Juan and Grand 
Mesa-Uncompahgre and Gunnison National Forests (GMUG) and preliminary 
revised Forest Plans, we would manage the area for backcountry 
recreation and allow the heliskiing permit to continue. As detailed in 
our written testimony, we recommend that this area be managed as a 
special management area and not be designated wilderness until the non-
conforming use of permitted helicopter landings for recreation ceases.
    Question 4. Both in the Whitehouse East Addition and in the Sheep 
Mountain Special Management Area there are a large number of parcels of 
private property.
    If these areas are made into wilderness, how will the Forest 
Service assure reasonable access to those private parcels?
    Answer. Law (16 USC 3210) and regulation (36 CFR 251 Subpart D) 
require the agency to provide such access to nonfederally owned land as 
the Secretary deems adequate to secure to the owner the reasonable use 
and enjoyment of the non-Federal land. Authorized access will vary by 
parcel reflecting the customary means of access used for similarly-
situated non-Federal land, and the combination of routes and modes of 
travel which will cause the least lasting impact on the wilderness but 
which will permit the reasonable use of the non-Federal land.
    Question 5. Will you allow the land owners to continue to access 
their lands with jeeps or ATV's, if that is how they access them now?
    Answer. If a landowner is now accessing their land with an ATV, 
Jeep or other motorized vehicle on an open Forest Service system road 
or trail, and the road or trail was closed to public motorized use by 
Wilderness legislation, the landowner would need to apply for a special 
use permit to continue using that method of access. The Forest Service 
could grant the special use permit to the landowner for ATV, jeep or 
other motorized vehicle use to travel to their property if the motor 
vehicle use was determined to permit reasonable use of the non-Federal 
land. Some private property owners have obtained easements under the 
Federal Land Policy Management Act (FLPMA), which allows for motorized 
use on roads constructed in the FLPMA easement. The Forest Service 
would work with the holders of the easements to protect Wilderness 
character and at the same time assure that the reasonable enjoyment and 
use of the private property would continue.
    Question 6. Will you allow them to access them by helicopter if 
that is the mode of transportation they have used in the past?
    Answer. A helicopter could be one of the transportation modes for 
travelling to their private lands. Landing of helicopters is prohibited 
in Wilderness, but if the landowner is landing on their own private 
land, a permit from the Forest Service would not be required. Where 
Wilderness is designated, the Federal Aviation Administration (FAA) has 
issued an aviation advisory for pilots to maintain a 2,000 foot above-
ground-level (AGL) flight plan. The Forest Service would make the 
landowners aware of that advisory, but it does not have regulatory 
authority over airspace or on private land.
    Question 7. Considering that the ``hand of man'' impacted these 
lands during previous mining booms, do these proposed areas fit the 
Forest Service's typical description of Wilderness?
    Answer. While historic mining activities have affected the 
landscape, often many of the wilderness characteristics are still 
present. The Forest Service inventory criteria for potential wilderness 
may include evidence of historic mining. Typically the activity would 
have occurred over 50+ years ago, and would not include significant 
mineral activity such as prospecting with mechanical or motorized 
earthmoving equipment.
    Question 8. Were these areas recommended for wilderness in current 
and previous forest plans?
    Answer. The GMUG's Forest Plan, completed in 1983, did not 
recommend any areas for wilderness. The GMUG developed a preliminary 
proposed action in 2008 under the 2005 Planning Rule. That preliminary 
proposed action included lands proposed for wilderness. Some of the 
lands proposed as wilderness in HR 3914 were proposed for wilderness in 
the 2008 Forest Plan revision efforts.
    The Forest Plan for the San Juan National Forest, completed in 
1983, did not recommend the San Miguel Roadless Area (which included 
the Sheep Mountain area) for wilderness; it did recognize the 
wilderness character of the high alpine areas in the Sheep Mountain 
area. The management emphasis is semi-primitive non-motorized 
recreation.
    The Draft Forest Plan for the San Juan NF (DEIS, 2007, being 
completed under the 1982 Planning Rule) does not recommend San Juan NF 
portion of the Sheep Mountain area as wilderness, but proposes to 
allocate it to semi-primitive non-motorized.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                                               U.S. Senate,
                                    Washington, DC, April 28, 2010.
Hon. Ron Wyden,
Chairman, Committee on Energy and Natural Resources, Subcommittee on 
        Public Lands and Forests, 304 Dirksen Senate Building, 
        Washington, DC.
Hon. John Barrasso,
Ranking Member, Committee on Energy and Natural Resources, Subcommittee 
        on Public Lands and Forests, 304 Dirksen Senate Building, 
        Washington, DC.
    Dear Chairman Wyden, Ranking Member Barrasso, and Subcommittee 
Members: As the Senate leaders of the Congressional Sportsmen's Caucus, 
we want to thank you for having a hearing on S. 1241 and express our 
support for this legislation that directs the Secretary of the Interior 
and the Secretary of Agriculture to require a permit and assess an 
annual fee of S200 for commercial filming activities or similar 
projects on federal lands and waterways administered by the Secretary 
for any film crew of five persons or fewer. In addition, for those 
individuals and others that would hold such a permit, it would prohibit 
assessing any additional fee for commercial filming activities and 
similar projects that occur in those areas.
    While we certainly understand the need to implement controls to 
limit the potential damage that can be caused by large film crews, the 
majority of filming and still photography that lakes place on federal 
lands and waterways has no deleterious impacts on the landscape, the 
people who visit them, or the fish and wildlife that reside on them. S. 
1241 addresses the inequities, enforcement and process confusion as 
well as the severe burden placed on individual journalists or small 
film crews that result from the current regulations.
    Bearing in mind that the leading reason that active sportsmen 
become former sportsmen is that they can no longer find places to hunt 
and fish, television has become an important, even primary, means for 
educating them about the remaining opportunities to access hunting and 
fishing spots. These individuals often gel this information from 
programs produced by individual journalists or small film crews. These 
programs are tailored to an audience who actively use public lands and 
waterways for pursuits like hunting and fishing that are of supreme 
importance to the future conservation of these lands.
    We thank you for taking the time to hold a hearing on this 
legislation and understand our concerns. We invite you to contact us 
for any additional information or assistance in moving this legislation 
forward.
            Sincerely,
                                                Ben Nelson,
                           Chair, Congressional Sportsmen's Caucus.
                                                Mike Crapo,
                           Chair, Congressional Sportsmen's Caucus.
                                                Jon Tester,
                                                   Vice-Chair, CSC.
                                                John Thune,
                                                   Vice-Chair, CSC.
                                 ______
                                 
   Statement of N. Guy Eastman, Publisher, Eastmans' Publishing, Inc.
    This law has caused and cost our company to scale down our 
workforce and cut back our over-all expenditures which has had a direct 
impact on both our local economy as well as our National economy.
    If this law could be changed it would free our small business up to 
explore and promote wild places and public spaces out West for the 
dedicated DIY public outdoorsman/taxpayer/voter. This will have a 
direct impact on the local economies and businesses in the hard to 
reach and much forgotten small towns in the Western United States.
    Countries like Canada and New Zealand actually reimburse and 
incentivize film crews to come and promote the hunting and fishing in 
their regions in order to boost their local tourism economies in the 
hard to reach and otherwise much forgotten regions of their countries.
    It has always been a mystery to me why in the world our Government, 
who is supposed to be so small business friendly and based in the First 
Amendment would make it so difficult, sometimes even impossible to 
promote tourism in our own country, own communities, on our OWN public 
lands and be charged all along the way of doing so.
    My grandfather, an outdoor filming pioneer and world class 
adventurer in this business/industry is surely rolling over in his 
grave at what this seemingly free country has become. For the good of 
our small businesses, our economy, our small communities and our First 
Amendment right, see to it that this bill is passed.
    I'm confident the future revenues from this bill will far exceed 
what is currently in place under the very misleading and confusing fee 
structure that our Government currently has in place. Thank you for the 
time.
                                 ______
                                 
              Statement of the American Fisheries Society*
---------------------------------------------------------------------------
    * Other undersigned groups: American Sportfishing Association, 
Archery Trade Association, Bass Pro Shops, Berkley Conservation 
Institute, Boone and Crockett Club, Bowhunting Preservation Alliance, 
Campfire Club of America, Catch--A--Dream Foundation, Congressional 
Sportsmen's Foundation, Conservation Force, Dallas Safari Club, Mule 
Deer Foundation, National Assembly of Sportsmen's Caucuses, National 
Rifle Association, National Shooting Sports Foundation, National Wild 
Turkey Federation, North American Bear Foundation, North American 
Grouse Partnership, Pheasants Forever, Pure Fishing, Quality Deer 
Management Association, Quail Forever, Rocky Mountain Elk Foundation, 
Ruffed Grouse Society, Safari Club International, Shimano American 
Corp., Texas Wildlife Association, Theodore Roosevelt Conservation 
Partnership, U.S. Sportsmen's Alliance, Whitetails Unlimited, Wild 
Sheep Foundation, and Wildlife Forever.
---------------------------------------------------------------------------
    On behalf of the millions of hunters and anglers, fish and wildlife 
professionals, and fish and wildlife businesses, we want to thank you 
for having a hearing on S. 1241. The undersigned groups express our 
support for this legislation that will direct the Secretaries of the 
Interior and Agriculture to require annual permits and assess annual 
fees for commercial filming activities on Federal lands and waterways 
for film crews of 5 persons or fewer.
    The need for this legislation arose from concerns about the 
recently proposed rules for filming and photographing on federal lands 
and waterways. While we certainly understand the need to implement 
controls to limit the potential damage that can be caused by large film 
crews, the majority of filming and still photography that takes place 
on federal lands and waterways has no deleterious impacts on the 
landscape, the people who visit them, or the fish and wildlife that 
reside on them. In fact, many of our most treasured public lands, such 
as Yellowstone and Yosemite National Parks, would never have been set 
aside for the enjoyment of millions of citizens had their unique 
resources not been photographed and disseminated to the American 
public.
    Several of the undersigned organizations sponsor or are major 
contributors to televised hunting and fishing programs that air on a 
variety of popular and widely disseminated networks. These programs, 
which would be seriously affected by the newly proposed rules, reach 
millions of American people each week with messages that celebrate 
America's outdoor heritage, its public lands, and our shared fish and 
wildlife resources.
    These programs are tailored to an audience who actively use public 
lands and waterways for pursuits like hunting and fishing that are of 
supreme importance to the future conservation of these lands. Our 
viewers fuel state fish and wildlife budgets through license sales and 
they boost the local economies that depend on seasonal influxes of 
hunters and anglers. Bearing in mind that the leading reason that 
active sportsmen become former sportsmen is that they can no longer 
find places to hunt and fish, television has become an important, even 
primary, means for educating them about the remaining opportunities to 
access hunting and fishing spots.
    Production schedules and budgets for producing these programs are 
both characteristically tight. Even under the current rules, a 
substantial amount of time and money is spent procuring necessary 
permits and permissions. We fear that these newly proposed standards 
will cause significant increases in both time and money to bring these 
programs to air. In some cases, these increases may cause producers to 
focus less time and attention on public lands. In others, the newly 
proposed standards may cause producers to avoid public lands entirely.
    We thank you for taking the time to hold a hearing on this 
legislation and understand our concerns. We invite you to contact us 
for any additional information or assistance in moving this legislation 
forward.
                                 ______
                                 
             National Rifle Association of America,
                          Institute for Legislative Action,
                                    Washington, DC, April 23, 2010.
Hon. James R. Inhofe,
453 Russell Office Building, Washington, DC.
    Dear Senator Inhofe: The National Rifle Association supports S. 
1241, which would amend PL 106206 by creating a separate permit and fee 
structure for small film crews using federal lands under the 
jurisdiction of the Departments of Agriculture and Interior.
    The NRA supports the concept of payment for the commercial use of a 
public benefit, such as federal lands, in order to off set management 
costs to provide such use. However, an Administration proposal would 
set fee and permit rates at such a level to be unaffordable to 
sportsmen's organizations that require film crews to provide 
information to their members about hunting and fishing opportunities on 
federal lands. Your legislation, S. 1241, will ease that financial 
burden by requiring a fee and permit structure that is commensurate 
with the level of impact that small film crews actually have on the 
landscape.
    This legislation is vitally important to the NRA, as our film crews 
provide photographs and video for a host of NRA education outlets 
including the American Hunter and American Rifleman magazines; the 
American Hunter, American Rifleman, and American Guardian television 
shows; our websites; and our webehannel news program. To pay permits 
and fees at the same rates that will be applied to commercial filming 
on federal lands is onerous financially to non-profit organizations 
such as the NRA. Combined with the costs in time and staff to obtain 
the required permits, the expense will undermine our ability to reach 
our members with high quality educational information in a timely 
manner.
    The NRA, along with other national hunting and wildlife 
conservation organizations and all fifty state fish and wildlife 
agencies, are developing and implementing programs to recruit and 
retain new hunters and keep our older hunters in the field. The reasons 
most often given by hunters for not continuing to hunt is the loss of 
access and the lack of information about where to hunt. Our television 
shows, magazines, and news programs are designed to create interesting 
and informative stories that will ignite interest in hunting, rekindle 
former interest, and sustain and build on the excitement that present 
day hunters have for going afield. It is the visuals that attract 
today's viewers and readers to hunting stories and outdoor programs. 
Thus, filming has become an essential component of delivering 
information to current and future generations of American hunters.
    The NRA very much appreciates the importance that S. 1241 places on 
communicating with America's hunters and anglers by requiring a 
separate fee structure for small film crews.
            Sincerely,
                                              Chris W. Cox,
                                                Executive Director.
                                 ______
                                 
  Statement of the Professional Outdoor Media Association,* on S. 1241
---------------------------------------------------------------------------
    * Other undersigned groups: American Society of Media 
Photographers, National Shooting Sports Foundation, U.S. Sportment's 
Alliance, North American Media Group, Inc., Orion multimedia, new York 
State Outdoor Writers Association, and Eastmans' Publishing, Inc.
---------------------------------------------------------------------------
    The undersigned stand in support of S. 1241, to amend Public Law 
106-206 to direct the Secretary of the Interior and the Secretary of 
Agriculture to require annual permits and assess annual fees for 
commercial filming activities on Federal land for film crews of five 
persons or fewer.
    The Professional Outdoor Media Association (POMA) represents more 
than 350 individual traditional outdoor sports journalists and 140 
companies, conservation associations and media outlets that produce 
news, editorial and educational content on/about public-lands issues, 
recreation, and land use. POMA members reach tens of millions of 
Americans daily through broadcast, print, and digital content.
    Joining POMA in support of S. 1241 and in providing testimony 
before this committee are several national and state media 
organizations, publishing/broadcasting entities, conservation and 
traditional outdoor sports trade organizations, small media businesses 
and individual journalists. Included in those supporting S. 1241 are 
the American Society of Media Photographers, National Shooting Sports 
Foundation and U.S. Sportsmen's Alliance.
    Collectively, the undersigned and those providing additional 
testimony, represent thousands of journalists, the outdoor industry and 
the tens of millions of Americans who depend upon these organizations, 
businesses and individual journalists for information, news, and 
educational content on/about our public lands and the culturally 
important activities occurring there.
    Although we do not believe, based on First Amendment provisions, 
any fees should be charged to journalists reporting on public-lands 
issues, land use, or recreational activities thereon, S. 1241 addresses 
the inequities, enforcement and process confusion as well as the severe 
burden placed on individual journalists/small film crews that result 
from the current regulations.
    Current regulations do not support the mission of the Department of 
the Interior (DOI), severely penalize working journalists, and are 
contrary to the freedoms outlined in the First Amendment.

  <bullet>  DOI's mission is to sustain, conserve, and provide access 
        to our natural resources. Traditional outdoor media, individual 
        still photographers and videographers, and small film crews 
        play a critical role in disseminating the message of 
        conservation and provide vicarious access to public lands to 
        our citizens.
  <bullet> Excessive land-use fees are regressive in nature, discourage 
        or impede the media's access to public lands and are contrary 
        to DOI's mission.
  <bullet> The definitions of news coverage and commercial filming in 
        the current rules are vague and restrictive. The rules allow 
        DOI agencies to classify as ``commercial filming'' activities 
        which are clearly news coverage, such as news documentaries, 
        coverage of resource management issues and public land 
        activities.
  <bullet> A distinction should be drawn between large Hollywood-style 
        location shoots and traditional journalists--photographers and 
        videographers--with an exemption for small crews and 
        photographers. Currently, some agencies charge the same land-
        use fee for one videographer as is charged for a crew of up to 
        29.
  <bullet> Interpretation of the current regulations is left to 
        individual public-land employees, resulting in vast 
        irregularity in enforcement, permitting procedures, and fee 
        amounts charged photographers.
  <bullet> Journalists are suffering harm and the media's ability to 
        cover public lands and public-lands issues effected. Evidence 
        of harm is provided in Exhibit A to this letter.
  <bullet> Americans are being denied access to information about 
        public lands as a result of media refusal to cover public land 
        issues and activities because of restrictive fees.

    While we urge continuing discussion and action, based on 
constitutional issues, regarding the elimination of fees charged to 
journalists reporting on/about public lands, we support S. 1241 as a 
positive step forward.
    S. 1241 resolves or lessens the severity of the issues outlined 
herein. It does so simply, while ensuring the integrity of public 
lands, access for use by the public and individual journalists, and 
small film crews' more affordable access. Additionally, the bill 
maintains the ability of land units to regulate large, non-journalistic 
productions.
    We urge the committee to bring this legislation forward--to allow 
journalists to freely report on/about our public lands and the 
culturally important activities occurring there.
    Thank you for this opportunity to testify.
                                 ______
                                 
  Statement of David P. Trust, Chief Executive Officer, Professional 
    Photographers of America, Alliance of Visual Artists, on S. 1241
    Our purpose for writing is to offer comments and air concerns with 
regard to the Subcommittee's consideration of S. 1241, an amendment to 
Public Law 106-206 which directs the Secretary of the Interior and 
Secretary of Agriculture to require annual permits and assess annual 
fees for commercial filming activities on Federal land for film crews 
of 5 persons or fewer.
    Professional Photographers of America (PPA) is joined in these 
comments by the Alliance of Visual Artists (AVA), which, in addition to 
PPA, includes the Society of Sport and Event Photographers, Commercial 
Photographers International, Evidence Photographers International 
Council the Student Photographic Society, and the Stock Artists 
Alliance. Together with our state and local affiliates, AVA represents 
some 42,000 photographers and their families. PPA is the oldest and 
largest trade association for professional photographers with members 
engaged in all facets of photography and imaging.
    On behalf of our members, we appreciate this opportunity to offer 
the Subcommittee written comments on this bill and the existing permit 
structure on the assumption that once it becomes law its application 
may extend beyond ``commercial filming activities''.
    Our customer service center regularly receives telephone calls and 
e-mails from photographers regarding the permit requirements imposed by 
Federal land management entities. We believe there is a need to both 
streamline and clarify the requirements for photography permits. If 
worded correct, this bill, or some version of it, may reduce the 
confusion within the photographic community and help ensure 
photographers are better able to abide by Federal permit regulations.
    We recognize that assigning permits and requesting payment of 
applicable fees may be necessary for Federal lands to uphold their 
mission; reduce the abuse of natural resources; and ensure fair and 
equitable access to highly desirable locations for those with competing 
interests. We must however, express our concern with regard to the 
existing permit process as a potentially cost-prohibitive practice to 
professional photographers.
    As it stands, the requirements for acquiring a permit (both fees 
and wait times), in addition to accounting for cost recovery fees, has 
the potential to greatly impact a photographer's bottom line. The 
creation of an annual permit as proposed by S. 1241 could prove to be 
an effective way for professional photographers to ensure they are able 
to legally create images on Federal land.
    It is important for the Subcommittee to note that professional 
photographers are among the smallest of small business owners. The 
average photographer works 50 hours a week while earning just $35,000 a 
year. Most are ``mom and pop shops'' with 1-3 employees. To ensure they 
are able to earn even this modest salary, they must expertly manage 
their costs of doing business which means turning away assignments that 
represent additional, and possibly unpredictable, expenses.
    For example, a single professional photographer creating a family 
portrait is likely to work with a minimal amount of equipment while 
shooting in areas already open to the general public. In our opinion, 
this type of work simply cannot be equated with a commercial film crew 
creating a motion picture, or other intensive production, requiring 
extensive set building, and a significant number of crew members. To 
this end, the option of applying for an annual permit which includes a 
reasonable fee would protect the public's interests while ensuring 
photographers can better satisfy their clients' needs.
    If the committee feels a permit must be required, we strongly urge 
the consideration of an annual permit which would reduce time 
requirements and reduce costs for both photographers and the consuming 
public.
    The above said, we presume it is not the intent of S. 1241 to alter 
the overall definition of ``commercial'' as it applies to still 
photography under PL 106-206. The law currently states the mere fact 
that still photography is ``commercial'' in some sense, shall not be 
sufficient to allow the land-management agency to prohibit it or 
require fees or permits for it to take place. It instead defines the 
need for a permit based on the use of models, sets, or props.
    Changing the definition of ``commercial'' could prove to be a 
source of confusion to the individual professional photographer 
entering Federal lands to create images for selfassignment or capture 
landscapes for a client. These photographers are likely to behave no 
differently than the average visitor, the sole distinguishing factor 
being their professional quality camera (a distinction that is blurred 
by the ever increasing availability of high quality photography 
equipment by the public). In fact, those photographers creating works 
for their portfolio may not know they have created an image they can 
use ``commercially'' until they return to their studio to upload the 
memory card or develop their film.
    Of course, photographers determining their need for a permit based 
on their use of models, sets, or props are often left bewildered and 
potentially open to significant fines if they err. A photographer may 
not reasonably assume that capturing a family portrait for personal use 
is engaging in a shoot featuring ``models'' or a Boy Scout troop 
holding a banner would constitute the use of ``props''.
    The same has the potential to occur as a result of the addition of 
the word ``crew'' in determining the need for a permit. S. 1241 states 
the term ```film crew' includes all persons present on Federal land 
under the Secretary's jurisdiction who are associated with the 
production of a certain film.'' Applying this model to a photographic 
shoot, a photographer with clients may easily exceed the 5 person or 
fewer limit on any given session. This could lead to photographers 
incorrectly applying for annual permits or failing to apply for 
additional permits as required. To this end, it is important for the 
Subcommittee to consider further defining or otherwise qualifying such 
ambiguities in both the bill and the existing law.
    We appreciate the Subcommittee's consideration of this bill as a 
means of making the permit guidelines and fee schedules consistent on 
Federal lands. We hope that you will take our comments and concerns 
into consideration as you move S.1241 through the Energy and Natural 
Resources Committee. We are happy to supply the committee or 
subcommittee with any information or assistance it may need in moving 
forward.
                                 ______
                                 
   Statement of Christy George, President, Society of Environmental 
                        Journalists, on S. 1241
    The Society of Environmental Journalists welcomes this opportunity 
to submit comments to you on S. 1241 and the regulation by the 
Departments of Interior and Agriculture of commercial filming on public 
lands.
    It's an issue that affects journalists--as well as ordinary 
citizens--in all parts of the country. With more than 1,500 members, 
SEJ is the world's largest and oldest organization of individual 
working journalists, educators and students covering environmental 
issues.
    The manner in which the Departments of Interior and Agriculture 
regulate commercial filming and photography today is arbitrary and 
contrary to the public's interest. As a result, the public is deprived 
of vital insights into the natural splendor of its lands and how they 
are being managed. SEJ believes this problem needs to be fixed.
    We believe in accordance with the First Amendment, journalists 
should generally be exempt from having to get permits or pay fees, 
regardless of the medium in which they're reporting. Many journalists 
today work in multi-media, meaning they may be reporting in some 
combination of print, audio and visual formats, wielding pen or pencil, 
tape recorder and camcorder or digital camera.
    Thus, we believe that the departments should use the broadest 
possible definition of who is a journalist and of what constitutes news 
coverage in deciding what filming activities would be exempt from fees 
and permits.
    We wish S. 1241 was the vehicle to create a workable solution, but 
sadly it is not. While it attempts to standardize federal regulation of 
commercial filming, it will leave the national parks and other federal 
lands largely inaccessible to many free-lance or independent 
journalists who work in visual media. Their livelihood will be 
impaired, and the public will ultimately be the poorer as a result.
    Congress passed a law in 2000 directing the Departments of Interior 
and Agriculture to assess fees for commercial filming on public lands. 
It spelled out a few factors to be considered in determining the amount 
of fees to be charged, and it carved out a broad exemption for still 
photography, unless it involves the use of models or unnatural props. 
In both cases, the law appeared intended to regulate large Hollywood-
style motion picture productions and advertising photo shoots.
    Yet today, many kinds of commercial filming and still photography 
are governed by a crazy-quilt of guidelines, policies and practices 
that vary among federal agencies--and even among individual land units 
managed by the National Park Service. Journalists, both free-lance and 
news staff employees, have repeatedly been caught in this regulatory 
web. In some cases, they have been directed to apply for permits and 
pay fees of $250 a day to film or take still photographs on national 
park land because the stories they were covering were not deemed to be 
``breaking news''. Yet many of our most significant environmental 
stories are slow-moving, such as the decline or recovery of forests or 
endangered species.
    For instance, in November 2008, a Baltimore newspaper reporter, 
photographer and affiliated television film crew were told to apply for 
a permit and pay $250 to accompany scientists checking on a bat 
population inside a tunnel on park service property. In 2007, a free-
lance journalist reporting for public radio was directed to apply for a 
permit and pay a fee before she could record an audio interview with a 
federal biologist about the management of wolves in another national 
park.
    In both cases, the park service dropped its demands when the 
journalists objected. But the service's own guidelines and policies 
appear to allow such fees.
    In 2007, the Departments of Interior and Agriculture proposed a 
regulation intended to standardize their approach to implementing 
PL106-206. It proposed to exempt news coverage, but the definition was 
unworkably vague and restrictive. It allowed agencies to classify as 
``commercial filming'' activities that are clearly news coverage, such 
as news documentaries or ``non-breaking'' coverage of resource 
management issues. It also proposed to expand regulation of still 
photography beyond what the law called for, and it even proposed to 
require permits and fees of audio recording, an activity which wasn't 
even mentioned in PL 106-206.
    Some media groups--particularly those that focus on portraying 
hunting, fishing and other outdoors activities--have decided to back 
S.1241, viewing it as an improvement over the current mish-mash of 
policies and practices. We share their quest for a more uniform 
approach, and have joined with them in the past to argue for that. 
However, we cannot go along with the $200 annual fee called for in 
S.1241. That would pose a hardship for many of our members, especially 
for free-lance and independent photographers, film-makers and 
videographers. In many cases, the filming fee may equal or even exceed 
whatever the journalist or photographer might be paid for his or her 
work.
    Exceptions to the general exemption for news coverage may arise 
when photographers or film crews plan to go where the public is not 
allowed. Beyond that, PL 106-206 already directs the departments not to 
allow filming or photography that would damage resources or disrupt the 
public's enjoyment of them. What more is needed?
    There must be a better way. We stand ready to work with you to find 
it. Whether by legislation or regulation, we believe any oversight of 
commercial filming must respect the First Amendment rights of 
journalists and the public while ensuring a free flow of visual 
information about the status and management of the public's lands. The 
public has a right to expect no less.
                                 ______
                                 
             Prepared Statement of Steve Scott, on S. 1241
    I am Steve Scott, an independent television producer from Norman, 
Oklahoma. I am past Chairman of the Board of the Professional Outdoor 
Media Association, and a designated representative to this Committee 
for the Wild Sheep Foundation, Dallas Safari Club, and USA Shooting. I 
appreciate the opportunity to submit testimony before this Committee.
    The current system of issuing permits and collecting fees for 
filming on public lands has evolved into a system in which federal law 
is interpreted and administered by DOI and DOA field offices that apply 
their own standards and criteria before issuing a permit, if they will 
issue a permit at all. Financial issues notwithstanding, the most 
important aspect of SB 1241, is that it will standardize the permitting 
system and its criteria throughout the U.S., and eliminate the harmful 
arbitrary and capricious enforcement of the current standards by local 
DOI and DOA field personnel.
    The Department of Interior's mission states, in part, they are to 
``protect and provide access to our Nation's natural and cultural 
heritage.'' The professional outdoor media of this country are one of 
the Department's most valuable allies, as we disseminate the message of 
conservation, and create public awareness to stimulate critical 
thinking about current issues concerning our public lands. However, the 
present system of inconsistent standards for access and regressive 
land-use fees has had a chilling effect on the reporting and promotion 
of public land issues, and , in fact, has prompted outdoor producers, 
photographers, and videographers to seek alternative venues to our 
public lands, including private property, and foreign soil.
    The public land of this nation is just that: public land. It should 
be available to be freely used and enjoyed by its citizens and 
visitors. But as changing demographics have created a society that is 
ninety percent urban, the majority of Americans will never have the 
opportunity to visit a national park or designated wilderness area. 
However, with the proliferation and specialization of information in 
this country, the outdoor media provides our citizens nearly zero 
impact access to our rich natural heritage, while at the same time, 
making them aware of issues that affect public lands. Outdoor media is 
the conduit between the pristine and isolated wilderness, and an 
informed electorate, the majority of which will never set foot on 
public lands. Unfortunately, this vicarious access to our shared 
natural heritage is now being greatly restricted, to the detriment of 
all of our citizens.
    Throughout the public lands systems, well meaning, but misinformed 
federal employees have taken it upon themselves to ``protect'' federal 
lands by severely restricting, and in many cases, banning, commercial 
filming and photography in their jurisdictions. The de-facto authority 
of field personnel to decide access, use, and fees for commercial 
activities on public land has resulted in little or no access for 
filming/photography on public lands, inconsistent fee structures, and a 
climate of confusion regarding the land-use system and the role of 
outdoor media. This labyrinth of standards of the current system has 
created a tremendous hardship for scores of freelance writers, 
photographers, videographers and producers, myself included.
    When we produce an episode for one of our television series on 
public lands, it takes a great deal of time, planning, and money. 
Usually, a big game tag must be applied for months in advance, with no 
assurance that tag will be procured. Often, there are many more 
applicants than there are tags, so they are allocated by a draw, or 
lottery, basis. If the tag is obtained, a non-resident hunting license 
must be purchased, the services of a guide/outfitter must be secured, 
as well as scheduling travel and personnel for the shoot, all of which 
requires a significant amount of monies paid in advance. The shoot is 
then scheduled on the production calendar as one of the thirteen 
episodes for the upcoming production season. The filming permit is 
usually applied for within sixty days of the shoot. If at that time, 
the film permit is denied, we are without recourse to appeal, and all 
that has been invested in the pre-production process is for naught. In 
addition, the episode that would have resulted from the shoot that has 
been denied must be replaced on the production schedule; nearly always 
with a program of lesser interest.
    The previous scenario is not an anticipation of a possible problem 
in the future. The situation is happening now to myself, and other 
outdoor media members, with damaging consequences.
    We have scheduled two hunts in the Washakie Wilderness of the 
Shoshone National Forest near Cody Wyoming in the fall of 2010. Tags 
have been applied for and obtained. Travel, labor, and guide/outfitter 
services have been contracted for. However, based on a recent 
pronouncement by Wyoming Forest Service personnel, we may now be 
prohibited from filming these hunts.
    On April 21, 2010, at a meeting of the Cody Country Guide and 
Outfitters Association, Mr. Bill Oliver, Permit Administrator and Mr. 
Loren Poppert, Recreational Staff Officer, both from the US Forest 
Service, informed the audience that no film permits would be issued in 
the Washakie Wilderness, and the question would be reviewed in May.
    We have filmed in the Washakie for the past several years, and 
garnering a film permit has never been an issue. Now, for reasons 
unknown, local Forest Service employees have decided they need to 
``review'' the situation before making a decision. The same thing is 
happening in the Bridger-Teton in Wyoming, in Utah, and on countless 
other public lands throughout the federal system, creating a 
circumstance that is damaging and untenable for a small business like 
mine.
    A familiar admonition for users of our public lands is ``Leave 
nothing but footprints. Take nothing but pictures.'' Considering the 
outdoor media provides virtually zero-impact access to our Nation's 
natural resources for millions of Americans, how can we reasonably be 
denied access to our public lands, when in reality, we are providing 
the Department a vitally important service? SB 1241 will remedy the 
problems I/we have encountered, by providing a uniform standard for 
access which is both fair and appropriate.
    In addition to the critical issues regarding access, there are also 
concerns regarding the current fee structure.
    Members of the outdoor media periodically ply their craft on public 
lands, with the intent of earning a living. Thus, by the current 
standard, the activity is deemed commercial, and land-use fees are 
assessed. Often, however, the activity is anything but profitable, as 
numerous outdoor media projects are undertaken on a speculative basis. 
The freelance writer's article and photo package detailing the 
dependency of Alaskan bears on the annual salmon run; the wildlife 
photographer building an inventory of photos for potential inclusion in 
a stock photo agency's catalog; the independent television producer, 
filming a documentary on wolf depredation on ungulates in the 
Yellowstone ecosystem; all commercial activities under the present 
standard, but in the reality of the marketplace, unlikely to generate 
commercial gain.
    An exception to the permit requirement does exist. Media crews 
covering what is considered ``breaking news'' do not have to apply, 
wait for approval, and pay for land-use permits. This applies to public 
lands in both Washington state and Washington D.C.. But a follow-up 
story on the aftermath of the Yellowstone fire, or the reintroduction 
of wolves into the ecosystem, would require a media land-use permit, 
while interviewing Government officials on the same topics on the 
public land of the National Mall would not.
    Be it print, radio, or television, traditional news media is 
clearly a ``for profit'' venture. However, an exception from obtaining 
land-use permits for news media is intuitive and appropriate, as the 
news media was not the target of the enabling legislation.
    An exception for outdoor media should also exist. Drawing attention 
to a field that receives few headlines, the outdoor media provides the 
public valuable information that they otherwise would not receive. The 
outdoor media that facilitates the mission of our public lands by 
providing vicarious access to our Nation's natural beauty, were not the 
intended targets of the original regulations either. The legislation 
was promulgated to address large-scale commercial productions that 
generate significant profits filming on public land.
    The intent of the original legislation is clear. A sponsor of the 
bill, the late Sen. Craig Thomas of Wyoming, told the Rocky Mountain 
News ``the provision was meant for larger-scale Hollywood movie 
productions, not small-scale nature films.'' But what was originally 
created as a net to capture fees from Hollywood production crews, has 
become more like a seine, netting and extracting a toll from the 
solitary nature photographer and documentary producer to such an extent 
they no longer see the forest for the fees.
    Capturing nature on film or in photographs is very different from 
scripted and storyboarded commercial productions. When the director of 
a Rocky Mountain-based Coors commercial says ``action,'' a trained 
animal receives a cue, performs its trick, and the scene is done. For 
the professional outdoor photographer or videographer, the wolf, bear, 
or wild sheep which is the subject at hand is often, less cooperative. 
By its very nature, wildlife photography is extremely time consuming, 
often done in the harshest conditions; an important distinction that 
points out one of the inherent inequities in the proposed rules. While 
large film and television production crews need relatively little time 
on public lands to complete their project, our nation's professional 
outdoor media may spend weeks or months in the field in order to 
capture a few magic seconds of unstaged Nature in its pristine state. 
And when outdoor media members spend time in the field, under the 
current fee structure, we also spend money, and lots of it.
    The current fee system is implemented if an activity has potential 
for commercial gain. If the activity is deemed for commercial purposes, 
then time and numbers of participants on the public land location are 
utilized to calculate the total land-use fee. As the rules exist today, 
acclaimed nature photographer Ansel Adams, the creator of those 
magnificent and historically significant black-and-white photographs 
which inspire an appreciation for natural beauty and the conservation 
ethic, and author of the classic book Ansel Adams: The National Parks 
Service Photographs, would have been charged $250 for each and every 
day he spent in Yosemite Park with camera in tow. If public land-use 
fees had been in effect in Adams' day, I wonder if we would have had 
the opportunity to enjoy his remarkable photographs today.
    Nature photography, documentary, and television projects, 
traditionally low-budget productions to begin with, must spend a 
significantly greater amount of time in the field to capture wildlife 
drama than the Hollywood crews staging and blocking trained bears, 
canines, and other cooperative beasts. As fee payments are required as 
a multiple of the time spent on public land, outdoor media members are 
required to pay significantly greater amounts than those in the 
entertainment industry.
    However, the most significant inequity of the current system is the 
disproportionate application of fees as they pertain to the number of 
individuals actually on public land. This inherent imbalance in the 
current system transforms the land-use fee into a de facto regressive 
tax as it applies to outdoor media.
    As an example of the inherent bias in the system, consider the 
Bureau of Land Management's ``Filming on Public Lands'' guidelines. The 
land-use fee in California is the same for a crew of one as it is for a 
crew of up to thirty people. A single wildlife documentary maker pays 
the same daily land-use fee as would a feature-film's entire location 
crew, including talent, camera operators, directors, producers, grips, 
electricians, sound technicians, and probably even a ``best boy.'' 
Perhaps more telling; if a remake of The Ten Commandments was shot 
today on BLM land in California, the daily land-use fee for the Exodus 
scene, where Moses leads a cast of thousands of out Egypt, would be 
slightly more than the $250 daily fee paid by the lone wildlife 
documentary maker. BLM's daily-use charge for sixty or more people, 
which includes the cast and crew of the remade Exodus, would be $600.
    As mentioned previously, we have filmed a number of hunts in the 
Shoshone National Forest in northwest Wyoming. My guide, Monte Horst of 
Ishaowooa Outfitters, is a licensed outfitter and guide who pays a 
substantial annual fee to bring clients into his guide territory. Mr. 
Horst is a competent videographer, and instead of brining along an 
additional camera operator, Mr. Horst assumes the duties of camera 
operator, so as not to incur the additional expense of pack mules and 
horses for another crew member. Mr. Horst and I complete our shoot in 
four days. The only difference between my experience, and that of the 
usual, other six clients in camp, is that as working outdoor media, I 
pack in an additional twenty pounds of camera gear. Four days on 
location to make a television program, with no additional personnel or 
pack animals on National Forest land, and my use fee is, like the 
remake of The Ten Commandments, $600.
    This illustrates the inequity of the current system: charging a 
crew of one the same fee as is charged a crew of thirty, is inequitable 
and inherently unfair. In addition, while the expense of land-use fees 
are an inconsequential part of a feature film or network commercial's 
budget, the cumulative, daily fees that accrue against an independent 
producer or freelance photographer are not only significant budgetary 
expenses, they are, proportionately, such a large percentage of the 
project's budget, the fees could reasonably be viewed as a regressive 
tax, and will often, be the catalyst for moving a project from public 
land to another location.
    I am also submitting testimony as a representative of the Wild 
Sheep Foundation, (WSF) a service-based conservation organization that 
focuses on the betterment of wild sheep in North America and elsewhere. 
In addition to being a life member of this organization, I have also 
the executive producer of their television series, Hittin' the 
Outdoors. The series promotes the conservation of wild sheep and other 
big game species of the western United States. Sustained-use sport 
hunting is an integral part of modern wildlife species management, and 
as a tool of conservation, is an important part of the television 
series.
    WSF is an organization that raises and spends millions of dollars 
each year for the sole purpose of ``putting sheep on the mountain.'' 
Their conservation projects are numerous, and include sheep capture and 
relocation, wildlife research, habitat improvement, and acquisition of 
buffer lands to prevent transmission of disease from domestic stock to 
wild sheep. Since 1984, WSF has raised and spent over $30,000,000 for 
habitat and wildlife conservation projects, many of which were DOI/DOA 
initiated, and funded by WSF at the Department's request.
    Many of these DOI/DOA projects benefit wild sheep, as three of the 
four wild sheep species of North America are indigenous to the United 
States. Wild sheep live in wild places, and obtaining footage of these 
magnificent creatures can be a long and arduous task. The average 
television shoot for wild sheep is fifteen days, and virtually all of 
the filming would take place on Federal land. Based on the current 
regulations, our production budget to produce on US public land would 
need to be increased by $20,000 to $25,000 dollars to pay the land-use 
fees, which generate no return on investment.
    As we created the WSF television series, many of the storylines we 
developed should have focused on one or more of the DOI or DOA 
conservation projects that has benefited from the millions of dollars 
donated by the Foundation. As you may already surmise, the paradoxical 
result for WSF, a benefactor of Federally-initiated conservation 
projects, would be the assessment of daily land-use fees to promote the 
very projects they have funded on behalf of the Government. The sad 
reality is, due to financial considerations in the competitive arena of 
the television industry, numerous otherwise US-located shoots, have 
been, and continue to be, scheduled in Canada and Mexico, where wild 
sheep also live, and where the Governments are more receptive to the 
positive publicity that is generated by a television feature. The same 
is true for the Dallas Safari Club and USA Shooting, the governing body 
for the US's Olympic Shooting Sports. Both are involved in the 
production of television programs based on public lands, and both, to 
varying degrees, have encountered the same difficulties and financial 
hardships as the Wild Sheep Foundation.
    It is a difficult crafting rules to apply to broad and diverse 
circumstances. Most would agree that public access to public land at 
little or no cost is desirable. A majority also understand it is 
reasonable to assess appropriate fees for feature-film production that 
takes place on public land. This was the intent of the original 
legislation. The problem occurs in finding a fair and equitable 
solution for the thousands of individuals and small businesses that 
occasionally utilize public land in their craft, but have little or no 
impact on the land, and often, provide important benefits to the 
Government and the citizens of this country.
    The Government has chosen to use three criteria to determine 
liability for fees: commercial venture, time on federal land, and 
number of people involved. Determination of when or whether a venture 
is commercial is often subjective and difficult to codify. Time spent 
``on the ground'' is a reasonable factor to evaluate when considering 
any given venture, but it is hardly indicative of the impact of that 
venture on Federal land. In my opinion, and in the consensus opinion of 
the professional outdoor media of this country, the most telling and 
appropriate variable to consider in assessing fair and equitable land-
use charges is to consider the number of individuals that are actually 
present on public land. At present, this criterion is the most unjust 
aspect of the current rules, yet the modifications in the proposed bill 
will go far to remedy the inequity of the present circumstance.
    Basing fees on the actual number of persons engaged in the project 
on federal land is a reasonable standard of measure. However, the 
Government's factor for consideration that one person on public land is 
the same as thirty is inaccurate and renders an unfair result. The 
outdoor media should not be categorized in the same manner as a 
Hollywood production crew, but when the prevailing math considers one 
and thirty to be equal, unforeseen and unintended results have 
occurred. However, the proposed exception provided in SB 1241 for 
production crews of five or less to pay an annual fee of $200 corrects 
the current inequities. The bill standardizes the fee structure, as 
well as the process by unifying and standardizing the rules throughout 
all Government agencies. By standardizing the criteria for access to 
public lands, and creating an exception for crews of five or less for 
outdoor media and other low-impact groups, the unforeseen and 
unintended outcome of the current regulations will be remedied. 
Appropriate payments will continue to be made by those for which the 
fees were intended, and the independent outdoor media will once again, 
be free to report on and feature conservation issues of our public 
lands without overly-burdensome access and/or financial consequences. 
We strongly support SB 1241, and look forward to its swift passage and 
implementation.
    Thank you for the opportunity, and for your consideration.
                                 ______
                                 
 Statement of Mark J. Bonini, Chief Probation Officer, Amador County, 
                        Jackson, CA, on S. 1571
    I am writing to express Amador County's support of S 1571, the 
Deafy Glade Land Exchange Act. This legislation would direct the 
Secretary of Agriculture to transfer title to Fouts Springs Ranch in 
the Mendocino National Forest to the County of Solano in exchange for 
the County transferring property known as Deafy Glade in the Mendocino 
Forest to the Secretary.
    Fouts Springs Youth Facility is a youth correctional camp available 
for our County's use, as an alternative placement for wards that are 
approaching the level of committing serious delinquent acts that may 
warrant a commitment to the State Division of Juvenile Justice. Solano 
County operates the camp under a joint powers authority with Colusa 
County on approximately 82 acres of Forest Service land in the 
Mendocino National Forest, which is leased from the National Forest 
Service. At the camp, youth participate in a structured cognitive 
behavioral program that includes counseling, behavior modification and 
education; with the goal of giving them skills in preparation for 
reentry into their local community. The Facility has six month, nine 
month, and one year program components, depending on the needs of the 
local judiciary.
    We are seeking your continued support and assistance in our efforts 
to assure that this valuable resource remains available, not only to 
our County, but to all the potential user Counties throughout the State 
of California.
    The facility provides an invaluable service by removing youth from 
their current environment where it is all too easy to return to 
criminal behavior and gives them the skills to change their lives. 
Fouts Springs, which has been in operation since 1959, is in need of 
major repairs. Solano County is reluctant to continue to make capital 
improvements to the Facility since it does not own the land on which it 
is located. Solano County, therefore, purchased another parcel of land 
in the Mendocino Forest that is of equal or greater value which it has 
proposed to swap with the Secretary for the Fouts Springs land. We urge 
you to continue to support this important legislation which would 
consummate the transfer and allow Solano County to continue to invest 
in Fouts Springs and provide alternative treatment to delinquent youth 
of the juvenile courts. Your ongoing support is especially important 
during these difficult times when other youth correctional camps in the 
state are closing their doors.
    We appreciate your consideration and continued support.
                                 ______
                                 
Statement of Don Amador, Western Representative, BlueRibbon Coalition, 
                      Inc., Oakley, CA, on S. 1571
    Just as last year, the BlueRibbon Coalition, a national trail-based 
recreation group, is strongly opposed to the Deafy Glade Land Exchange 
Act. S. 1571 would permanently site a youth correctional facility in 
the center of a prime Forest Service recreation area that provides for 
both the motorized and non-motorized activities. A recent FS analysis 
showed this site should remain in federal ownership to help meet future 
recreation needs such as camping and parking.
    With the passage of the North Coast Wilderness Bill in 2006, the 
recreation public has been directed to use destination recreation areas 
such as exists at Fouts Springs. As you know, there are 6 camping areas 
where families gather within 1/4 miles of the correctional facility. 
These campsites provide access to both the Stonyford OHV Area and the 
Snow Mountain Wilderness Area.
    BRC believes both the recreation public and the correctional 
facility's long-term interests would be best served if an alternate 
site was found in the nearby Indian Valley Area possibly on other 
federal lands (FS, BOR, BLM). As before, BRC stands ready to assist 
Congress, the agency, and local authorities find a more suitable site 
that is not directly adjacent to highly-valued family-oriented 
recreational opportunities.
    Should the subcommittee vote in favor of S. 1571, BRC suggests that 
reversion language be added to the final bill should the county decide 
at a future date to dispose of the property. Please distribute this 
letter to all members of the subcommittee.
                                 ______
                                 
Statement of Steven K. Bordin, Chief Probation Officer, Colusa County, 
                         Colusa, CA, on S. 1571
    I am writing to express Colusa County's support of S 1571, the 
Deafy Glade Land Exchange Act. This legislation would direct the 
Secretary of Agriculture to transfer title to Fouts Springs Ranch in 
the Mendocino National Forest to the County of Solano in exchange for 
the County transferring property known as Deafy Glade in the Mendocino 
Forest to the Secretary.
    Fouts Springs Youth Facility is a youth correctional camp available 
for our County's use, as an alternative placement for wards that are 
approaching the level of committing serious delinquent acts that may 
warrant a commitment to the State Division of Juvenile Justice. Solano 
County operates the camp under a joint powers authority with Colusa 
County on approximately 82 acres of Forest Service land in the 
Mendocino National Forest, which is leased from the National Forest 
Service. At the camp, youth participate in a structured cognitive 
behavioral program that includes counseling, behavior modification and 
education; with the goal of giving them skills in preparation for 
reentry into their local community. The Facility has six month, nine 
month, and one year program components, depending on the needs of the 
local judiciary.
    We are seeking your continued support and assistance in our efforts 
to assure that this valuable resource remains available, not only to 
our County, but to all the potential user Counties throughout the State 
of California.
    The facility provides an invaluable service by removing youth from 
their current environment where it is all too easy to return to 
criminal behavior and gives them the skills to change their lives. 
Fouts Springs, which has been in operation since 1959, is in need of 
major repairs. Solano County is reluctant to continue to make capital 
improvements to the Facility since it does not own the land on which it 
is located. Solano County, therefore, purchased another parcel of land 
in the Mendocino Forest that is of equal or greater value which it has 
proposed to swap with the Secretary for the Fouts Springs land. We urge 
you to continue to support this important legislation which would 
consumate the transfer and allow Solano County to continue to invest in 
Fouts Springs and provide alternative treatment to delinquent youth of 
the juvenile courts. Your ongoing support is especially important 
during these difficult times when other youth correctional camps in the 
state are closing their doors.
    We appreciate your consideration and continued support.
                                 ______
                                 
 Statement of Lionel D. Chatman, Chief Probation Officer, Contra Costa 
                    County, Martinez, CA, on S. 1571
    I am writing to express Contra Costa County Probation Department's 
support of S 1571, the Deafy Glade Land Exchange Act. This legislation 
would direct the Secretary of Agriculture to transfer title to Fouts 
Springs Ranch in the Mendocino National Forest to the County of Solano 
in exchange for the County transferring property known as Deafy Glade 
in the Mendocino Forest to the Secretary.
    Fouts Springs Youth Facility is a youth correctional camp available 
for our County's use, as an alternative placement for wards that are 
approaching the level of committing serious delinquent acts that may 
warrant a commitment to the State Division of Juvenile Justice. Solano 
County operates the camp under a joint powers authority with Colusa 
County on approximately 82 acres of Forest Service land in the 
Mendocino National Forest, which is leased from the National Forest 
Service. At the camp, youth participate in a structured cognitive 
behavioral program that includes counseling, behavior modification and 
education; with the goal of giving them skills in preparation for 
reentry into their local community. The Facility has six month, nine 
month, and one year program components, depending on the needs of the 
local judiciary.
    We are seeking your continued support and assistance in our efforts 
to assure that this valuable resource remains available, not only to 
our County, but to all the potential user Counties throughout the State 
of California.
    The facility provides an invaluable service by removing youth from 
their current environment where it is all too easy to return to 
criminal behavior and gives them the skills to change their lives. 
Fouts Springs, which has been in operation since 1959, is in need of 
major repairs. Solano County is reluctant to continue to make capital 
improvements to the Facility since it does not own the land on which it 
is located. Solano County, therefore, purchased another parcel of land 
in the Mendocino Forest that is of equal or greater value which it has 
proposed to swap with the Secretary for the Fouts Springs land. We urge 
you to continue to support this important legislation which would 
consumate the transfer and allow Solano County to continue to invest in 
Fouts Springs and provide alternative treatment to delinquent youth of 
the juvenile courts. Your ongoing support is especially important 
during these difficult times when other youth correctional camps in the 
state are closing their doors.
    We appreciate your consideration and continued support.
                                 ______
                                 
Statement of Richard A. Muench, Chief Probation Officer, Tehama County, 
                       Red Bluff, CA, on S. 1571
    I am writing to express Tehama County's support of S 1571, the 
Deafy Glade Land Exchange Act. This legislation would direct the 
Secretary of Agriculture to transfer title to Fouts Springs Ranch in 
the Mendocino National Forest to the County of Solano in exchange for 
the County transferring property known as Deafy Glade in the Mendocino 
Forest to the Secretary.
    Fouts Springs Youth Facility is a youth correctional camp available 
for our County's use, as an alternative placement for wards that are 
approaching the level of committing serious delinquent acts that may 
warrant a commitment to the State Division of Juvenile Justice. Solano 
County operates the camp under a joint powers authority with Colusa 
County on approximately 82 acres of Forest Service land in the 
Mendocino National Forest, which is leased from the National Forest 
Service. At the camp, youth participate in a structured cognitive 
behavioral program that includes counseling, behavior modification and 
education; with the goal of giving them skills in preparation for 
reentry into their local community. The Facility has six month, nine 
month, and one year program components, depending on the needs of the 
local judiciary.
    We are seeking your continued support and assistance in our efforts 
to assure that this valuable resource remains available. not only to 
our County, but to all the potential user Counties throughout the State 
of California.
    The facility provides an invaluable service by removing youth from 
their current environment where it is all too easy to return to 
criminal behavior and gives them the skills to change their lives. 
Fouts Springs, which has been in operation since 1959, is in need of 
major repairs. Solano County is reluctant to continue to make capital 
improvements to the Facility since it does not own the land on which it 
is located. Solano County, therefore, purchased another parcel of land 
in the Mendocino Forest that is of equal or greater value which it has 
proposed to swap with the Secretary for the Fouts Springs land. We urge 
you to continue to support this important legislation which would 
consummate the transfer and allow Solano County to continue to invest 
in Fouts Springs and provide alternative treatment to delinquent youth 
of the juvenile courts. Your ongoing support is especially important 
during these difficult times when other youth correctional camps in the 
state are closing their doors. We appreciate your consideration and 
continued support.
                                 ______
                                 
    Statement of Helen M. Thomson, Chairwoman, Yolo County Board of 
                 Supervisors, Woodland, CA, on S. 1571
    The Yolo County Board of Supervisors would like to express its 
support of S 1571, the Deafy Glade Land Exchange Act. This legislation 
would direct the Secretary of Agriculture to transfer title to Fouts 
Springs Ranch in the Mendocino National Forest to the County of Solano 
in exchange for the County transferring property known as Deafy Glade 
in the Mendocino Forest to the Secretary.
    Fouts Springs Youth Facility is a youth correctional camp available 
for our County's use, as an alternative placement for wards that are 
approaching the level of committing serious delinquent acts that may 
warrant a commitment to the State Division of Juvenile Justice. Solano 
County operates the camp under a joint powers authority with Colusa 
County on approximately 82 acres of Forest Service land in the 
Mendocino National Forest, which is leased from the National Forest 
Service. At the camp, youth participate in a structured cognitive 
behavioral program that includes counseling, behavior modification and 
education; with the goal of giving them skills in preparation for 
reentry into their local community. The Facility has six month, nine 
month, and one year program components, depending on the needs of the 
local judiciary.
    We are seeking your continued support and assistance in our efforts 
to assure that this valuable resource remains available, not only to 
our County, but to all the potential user Counties throughout the State 
of California.
    The facility provides an invaluable service by removing youth from 
their current environment where it is all too easy to return to 
criminal behavior and gives them the skills to change their lives. 
Fouts Springs, which has been in operation since 1959, is in need of 
major repairs. Solano County is reluctant to continue to make capital 
improvements to the Facility since it does not own the land on which it 
is located. Solano County, therefore, purchased another parcel of land 
in the Mendocino Forest that is of equal or greater value which it has 
proposed to swap with the Secretary for the Fouts Springs land. We urge 
your continued support for this important legislation which would 
consummate the transfer and allow Solano County to continue to invest 
in Fouts Springs and provide alternative treatment to delinquent youth 
of the juvenile courts. Your ongoing support is especially important 
during these difficult times when other youth correctional camps in the 
state are closing their doors. We appreciate your consideration and 
continued support.
                                 ______
                                 
Statement of Kevin R. Colburn, National Stewardship Director, American 
                         Whitewater, on S. 3075
    My name is Kevin Colburn and I am the National Stewardship Director 
of American Whitewater. I live and work in Missoula, Montana. American 
Whitewater is a national non-profit organization with a mission of 
conserving and restoring our nation's whitewater resources while 
enhancing opportunities to enjoy them safely. Since 1954 our 
organization has represented conservation-oriented non-commercial 
whitewater canoeists, kayakers, and rafters in a wide range of river 
stewardship issues. American Whitewater has over 5,000 members and 100 
affiliate clubs distributed across the United States. We have one 
affiliate club and a stewardship office in Montana. We strongly believe 
that healthy rivers are a vital component of healthy communities.
    Our members and staff have been deeply concerned with the threats 
to the North Fork of the Flathead River for the past several years. The 
North Fork of the Flathead River offers paddlers one of the most 
spectacular river trips in the Northern Rockies. This Class II+ 
(beginner/intermediate) river can be paddled in a wide diversity of 
craft by people of almost any ability level. Paddlers are awestruck by 
the massive peaks of Glacier National Park which tower over the east 
side of the river. Wildlife abounds, the water is clean and radiant 
green, and the fishing is great. While one-day trips are possible, many 
groups choose to spend two or more days on the river. Beaches and 
cobble bars provide superb campsites. Easy access, no permitting 
requirements, and a long season further contribute to the river's 
appeal. I have personally rowed a raft down the North Fork with my 
wife, and assure you it is a very special place deserving careful 
protection.
    Mineral extraction and energy development in the North Fork 
Watershed could impact recreational experiences by impacting water 
quality and related fisheries, wildlife viewing opportunities, scenery, 
road safety, and the natural soundscape. These impacts would diminish 
the values previously recognized and protected by Congress when they 
designated the river under the Wild and Scenic Rivers Act. The North 
Fork Watershed Protection Act of 2010, S. 3075, offers timely 
protection from very real threats to this spectacular Wild and Scenic 
river and its enjoyment. American Whitewater is fully supportive of S. 
3075, and we encourage its prompt passage.
    We respectfully ask that you consider expanding the scope of the 
bill to include the South Fork and Middle Fork of the Flathead River as 
well as the North Fork. The three forks of the Flathead are Wild and 
Scenic, each offer important wildlife and fisheries habitat, and each 
are cherished recreational paddling destinations. Expanding the 
geographical scope of the S. 3075 would ensure the protection of these 
important values, and would further protect the ecology and water 
quality of Flathead Lake.
    Thank you for considering this testimony.
                                 ______
                                 
      Statement of Ducks Unlimited, Great Plains Regional Office, 
                              Bismarck, ND
                              news release
    HELENA, Mont., March 11, 2010--Ducks Unlimited supports legislation 
sponsored by Montana's senators to protect the Upper Flathead Valley. 
Sens. Max Bacus and Jon Tester introduced The North Fork Watershed 
Protection Act that protects the North Fork of the Flathead Drainage. 
The legislation is in conjunction with a similar measure in British 
Columbia.
    ``The legislation will protect the water quality of downstream 
flows to key wetlands in this drainage area. This is a critical staging 
area for migrating waterfowl and supports more than 50,000 waterfowl 
each year,'' said Robert Sanders, DU manager of conservation programs 
for Montana. ``For example, the region's large number of small wetlands 
has been known to support one of the highest densities of nesting 
redheads in the U.S.''
    Most of the land in the Flathead Valley is federally owned, with 
miles of grassland dotted with hundreds of small wetlands. The 
Intermountain West Joint Venture Coordinated Bird Conservation Plan and 
numerous federal and state level bird conservation plans list this 
valley as a priority landscape for waterfowl and other birds.
    ``It's imperative water quality in this key area be maintained,'' 
Sanders said, ``and DU supports the North Fork legislation as a way to 
ensure water quality is maintained for these important habitats.''
    Ducks Unlimited is the world's largest non-profit organization 
dedicated to conserving North America's continually disappearing 
waterfowl habitats. Established in 1937, Ducks Unlimited has conserved 
more than 12 million acres thanks to contributions from more than a 
million supporters across the continent. Guided by science and 
dedicated to program efficiency, DU works toward the vision of wetlands 
sufficient to fill the skies with waterfowl today, tomorrow and 
forever.
                                 ______
                                 
Statement of Robin Steinkraus, Executive Director, and Greg McCormick, 
Treasurer, for Larry Ashcraft, President, Flathead Lakers, Poison, MT, 
                               on S. 3075
    On behalf of the Flathead Lakers, we extend our sincere thanks for 
your leadership in protecting the Flathead Watershed from upstream coal 
mines. Your work on this threat to clean water in the North Fork 
Flathead River on downstream to Flathead Lake was instrumental in 
leading to the landmark agreement between Governor Schweitzer and 
Premier Campbell that will greatly benefit the Flathead's priceless 
waters, wildlife and scenic beauty on both sides of the international 
boundary for many generations to come.
    We see this agreement as the culmination of decades of hopes, 
dreams and hard work of many leaders and groups, and the beginning of a 
new era of transboundary cooperation to sustain the qualities that make 
the Flathead a unique and special place.
    The Flathead Lakers endorse your bill, S.3075--the North Fork 
Watershed Protection Act of 2010, to withdraw public lands from leasing 
for mining and energy extraction in the North Fork Watershed. In 
addition, we support adding to the bill the area adjacent to Glacier 
National Park along the Middle Fork Flathead River corridor, and areas 
in the Whitefish River headwaters near Big Mountain and at Haskill 
Basin, which drains into the mainstem Flathead River.
    Passage of this bill will not only protect Flathead waters and 
natural heritage for the future, but will also be a big step toward 
implementing the Montana-British Columbia agreement and demonstrating 
to B.C. officials the sincerity of Montana and the United States in 
ensuring that we uphold our commitments on the U.S. side of the border.
                                 ______
                                 
 Statement of Joe Unterreiner, President and CEO, Kalispell Chamber of 
                          Commerce, on S. 3075
    We are very encouraged by the recent breakthrough between Montana 
and British Columbia on the Transboundary Flathead issue. We write you 
today to thank you for your work to secure this victory and to 
encourage you to press on to finalize the needed conservation goals for 
both sides of the international boundary.
    In particular, we are aware of the project to permanently retire 
the dormant oil and gas leases that cover 200,000 acres of the 
Whitefish Range west of Glacier Park on the Flathead National Forest. 
The Flathead Basin Commission supports this withdrawal. We write you 
today in support of the retirement of the leases within the North Fork 
drainage.
    We also believe that the only way to prevent the B.C. government 
from repealing their ``Order in Council'' that established the mining 
and energy ban in the Flathead is to establish a bi-national watershed 
agreement of some kind between both federal governments.
    The Kalispell Chamber of Commerce exists to promote responsible and 
sensible economic development. The Flathead Valley is blessed with many 
natural, renewable resources that have provided the foundation for a 
healthy and diversified local economy.
    Glacier National Park and the North Fork River Valley play a very 
important part in our economic vitality. Flathead Lake also serves as a 
critical economic engine for the region.
    The Chamber wishes to ensure that Glacier Park, the North Fork 
River, and Flathead Lake remain as economically productive as they are 
today. We think that oil and gas development in the Whitefish Range 
would be inconsistent with our interest to see the entire watershed 
protected from upstream (Canadian) pollution. How can we ask the 
Canadians to forego development of their coal and gas resources within 
the North Fork watershed if we are not willing to make the same 
decision?
    It is for these reasons that we support the retirement of the oil 
and gas leases in the Whitefish Range. We ask that you make this issue 
a priority in 2010. We think the model established for the Rocky 
Mountain Front (a willing seller/willing buyer system with legislated 
oil and gas withdrawal) could be the appropriate retirement method.
    We also urge you to find a way to bring both federal governments to 
the table to negotiate some form of a watershed agreement for the 
Transboundary Flathead.
    After 36-years of conflict with B.C. over appropriate resource 
development in the North Fork we are delighted that the B.C. government 
recognizes the river's special character. We once again urge you to 
seize this historic moment to make this victory permanent.
                                 ______
                                 
  Statement of Jeremy Morgret, President, Polson Chamber of Commerce, 
                               on S. 3075
    Thank you for introducing Senate Bill 3075, the North Fork 
Watershed Protection Act of 2010. The Polson Chamber of Commerce 
supports this legislation which withdraws future mining, oil and gas 
drilling, and geothermal development on U.S. Forest Service land in 
Montana's North Fork Flathead River watershed.
    We also support slightly expanding the boundary of S. 3075 to 
incorporate the remainder of the Middle Fork of the Flathead River 
corridor to complete the protection of Glacier Park, the south flank of 
the Whitefish Range and Haskill Basin to protect recreation assets and 
Whitefish City's water supply, and the Coram Canyon area to protect the 
Flathead River and recreation. The attached map shows the proposed 
boundary.
    Flathead Lake is an important asset to Polson, its economy and our 
businesses. S. 3075 will help protect Flathead Lake water quality and 
the economic health of our city from upstream threats of industrial 
energy development. S. 3075 is a critical step towards implementing the 
Montana--British Columbia agreement signed by Governor Schweitzer and 
Premier Campbell that bans mining and oil and gas extraction in the 
transboundary North Fork Flathead Valley.
    The United States and Canada have a historic opportunity to protect 
the North Fork of the Flathead River, Glacier National Park, and 
Flathead Lake for future generations. S. 3075 represents a crucial 
component of this legacy. Thank you for your efforts to protect 
Flathead waters.
           Statement of Anaconda Sportsmen Club,* on S. 3075
---------------------------------------------------------------------------
    * Other undersigned groups: Backcountry Hunters and Anglers, Big 
Blackfoot Chapter Trout Unlimited, Billings Rod and Gun Club, Bitter 
Root Chapter of Trout Unlimited, Ducks Unlimited, Inc., Flathead Valley 
Chapter Trout Unlimited, Flathead Wildlife Inc., Gallatin Wildlife 
Association, George Grant Chapter Trout Unlimited, Helena Hunters and 
Anglers, Hellgate Hunters and Anglers, Izaak Walton League of America, 
Joe Brooks Chapter Trout Unlimited, Kootenai Valley Trout Club, Lewis 
and Clark Chapter Trout Unlimited, Libby Rod & Gun Club, Madison-
Gallatin Chapter Trout Unlimited, Magic City Fly Fishers, Medicine 
River Canoe Club, Montana Backcountry Hunters and Anglers, Montana 
River Action Network, Montana Trout Unlimited, Montana Wildlife 
Federation, National Wildlife Federation, Park County Rod and Gun Club, 
Pat Barnes Missouri River Chapter Trout Unlimited, Polson Outdoors, 
Inc., Snowy Mountain Chapter Trout Unlimited, Theodore Roosevelt 
Conservation Partnership, Trout Unlimited, West Slope Chapter Trout 
Unlimited.
---------------------------------------------------------------------------
                                 ______
                                 
    We the undersigned organizations represent hundreds of thousands of 
hunters and anglers from across the country and right here in Montana 
are writing to express our full and strong support for S. 3075, the 
North Fork Watershed Protection Act of 2010, to withdraw US Forest 
Service land in the North Fork Watershed from future oil and gas 
leasing activities. Our memberships represent a diverse group of the 
American public for who hunting, fishing and outdoor recreation is a 
way of life.
    The North Fork of the Flathead is one of Montana's most special 
places to hunt and fish. Public lands in this valley provide unique and 
unparalleled opportunities to access our nation's rich natural 
heritage. The watershed provides critical habitat for bull and 
cutthroat trout and since the days of Theodore Roosevelt, hunters have 
been coming to the valley to pursue world class mule deer, elk and 
moose opportunities. This valley truly is one of the wildest valleys in 
the continental United States, and we believe the next generation 
should have the same opportunity we have to experience this special 
place.
    The North Fork Watershed Protection Act is an important step in 
ensuring that traditional land-uses, such as timber and outdoor 
recreation are protected in this valley. Oil, gas and hard rock mineral 
extraction in the North Fork would forever change this special place 
and cause serious harm to water and air quality, native trout, and big 
game populations. That means big business in Montana, where hunters and 
anglers contribute $1 billion annually to the state economy.
    In addition to impacting sportsmen and women, oil and gas 
extraction would have negative impacts on the regional economy--as 
millions of tourists spend over $150 million dollars each year to 
experience the clean water and wildlife of Glacier National Park.
    We understand our need for fossil fuels and hard rock minerals, and 
we believe that part of responsible development is recognizing that 
some places are too special to be industrialized. The North Fork of the 
Flathead is one of these places.
    A final reason we support S. 3075 is to be a good neighbor. British 
Columbia has now banned mining in the Canadian Flathead and asked us to 
do the same. For decades, proposals for massive coal strip-mines in the 
Canadian headwaters of the North Fork have threatened the water quality 
of the Flathead River, Flathead Lake, and Glacier National Park.
    Today there is a unique and special opportunity to protect the 
North Fork of the Flathead and Glacier National Park forever, 
preserving our sporting traditions for those unborn generations. S. 
3075 is a necessary and essential piece of legislation to complete this 
legacy. Our organizations look forward to working with you to pass this 
important legislation.
                                 ______
                                 
            Statement of the Wilderness Society, on S. 3075
    The Wilderness Society (TWS), representing over 500,000 members and 
supporters from across the United States, would like to go on the 
record as enthusiastically supporting S. 3075, the ``North Fork 
Watershed Protection Act of 2010'' introduced by Montana Senators Max 
Baucus and Jon Tester. Glacier National Park, as well as many of the 
national forest lands addressed in this bill, are of national 
significance and S. 3075's passage would benefit many Americans from 
all walks of life as well as future generations. In addition, passage 
of this bill ensures that the United States ``acts by example'' and 
fully engages in the coordinated, partnership approach requested by the 
province of British Columbia when they agreed this winter to take 
action to protect the Canadian side of the North Fork Flathead from 
coal, oil and gas, and mining development. Also important is that this 
bill has almost no active opposition, as to our knowledge, no organized 
group, relevant elected official, Montana newspaper, or affected 
constituency has spoken out against S. 3075. Instead, there has been an 
impressive outpouring of diverse and formal support from local 
businesses, civic groups, Chambers of Commerce, City Councils, 
sportsmen and conservation groups, and others.
    As explained below, we would like to see some mostly minor 
additions and improvements made to the bill. Thus, we stand ready to 
work with Senators Baucus and Tester, the Committee and Senate staff to 
ensure this bill is refined and quickly becomes law.
                   the crown of the continent context
    With its rugged peaks, native grasslands, and sparkling waters, 
Montana is one of the most ecologically intact states in the union and 
one of its most precious regions is the Crown of the Continent 
Ecosystem (the Crown). The Crown, comprised of the 10 million-acre area 
where Montana, British Columbia, and Alberta converge, is one of the 
few remaining large, intact, temperate ecosystems in the world. It 
encompasses multiple climatic zones, including rainforest, alpine, and 
prairie; contains high levels of biodiversity; and is one of only two 
bioregions in the lower 48 states that has retained its full complement 
of native species. In fact, except for wild bison, all the species 
present when Lewis and Clark first came to this area still make the 
Crown their home.
    Just as significant, the Crown provides key areas of connectivity 
in the Northern Rockies, which are critical to sustaining ecological 
processes at a large enough scale to promote increased resilience to 
climate change. It also includes key wildlife migration corridors and 
serves as habitat for bears, wolves, elk, deer, native cutthroat trout, 
and grayling. The ecosystem also provides clean, cold water for 
surrounding human communities, contains cultural and religious sites 
important to the Blackfeet Tribe, and boasts world-class hunting, 
wildlife viewing, backpacking, and horseback riding opportunities.
    There has also been an impressive history of conservation 
achievements in the Crown over many decades. From the world's first 
International Peace Park at Glacier-Waterton Parks, to the state's 
first game range with Sun River Refuge, to the first citizen initiated 
addition to the National Wilderness Preservation System (Scapegoat 
Wilderness), as well as others, there have been numerous investments 
and actions taken to preserve this world renown ecosystem.
    These efforts have continued in more recent times. In 2006, Senator 
Baucus successfully spearheaded legislation that withdrew approximately 
500,000 acres of federal lands and minerals on the Rocky Mountain Front 
which makes up the eastern portion of the Crown. In 2008, the Senator 
secured federal funding for the Montana Legacy Project which is 
bringing into federal ownership over 300,000 acres of western Montana 
forestland, including important areas in the southwestern Crown. And 
Senator Tester has introduced S. 1474 which among other things would 
designate over 86,000 acres of new wilderness in the Blackfoot region 
of the Crown. Meanwhile, there is also under consideration a 
collaboratively developed proposal, the ``Rocky Mountain Front Heritage 
Act,'' which would add 87,000 acres to the Bob Marshall Wilderness 
complex and designate a 307,000 acre ``conservation management area'' 
for all BLM and Forest Service lands on the Front. Passage of S. 3075 
would build upon this proud legacy and complement these other efforts.
                       the trans-boundary context
    With its headwaters in British Columbia and its downstream reaches 
in Montana, the trans-boundary Flathead river valley is a crucial 
component to not only Glacier-Waterton Parks but also to the local 
ecology and economy. Besides tremendous big game populations, this 
valley supports the greatest density of grizzly bears in interior North 
America and some of the continent's healthiest runs of native bull 
trout and cutthroat trout. There are also many fishing, rafting, and 
tourism businesses dependent upon the Flathead watershed remaining 
clean, wild, and healthy. It is for this reason that the Kalispell 
Chamber of Commerce, as well as numerous individual businesses, have 
written letters of support. To quote from the Chamber's April 5, 2010 
letter to Senator Baucus: ``The Chamber wishes to ensure that Glacier 
Park, the North Fork River Valley, and Flathead Lake remain as 
economically productive as they are today. We think that oil and gas 
development in the Whitefish Range would be inconsistent with our 
interest to see the entire watershed protected from upstream (Canadian) 
pollution.''
    Indeed, passing S. 3075 would not only help protect the United 
States side of this watershed but also help ensure resolution of the 
threats on the upstream, Canadian side of the watershed. Swift passage 
of this bill is a critical step toward implementing the International 
Flathead agreement that was signed in February by Montana Governor 
Brian Schweitzer and British Columbia Premier Gordon Campbell. It 
banned all types of mining and oil and gas extraction in the entire 
Transboundary Flathead and committed each country to take action to 
protect its respective portion of the watershed. The United States can 
demonstrate its strong support and compliance with this agreement in 
part by passing S. 3075. This will help ensure that Canadians comply 
and forego development of their coal and oil and gas resources within 
the upstream North Fork watershed.
                           a proven approach
    In recent years federal legislation permanently withdrawing 
sensitive national forest and/or BLM lands from new oil and gas 
leasing, mineral entry, and other forms of energy development has been 
passed for several places. Besides the 2006 legislation mentioned 
earlier for Montana's Rocky Mountain Front, Congress has also passed 
legislation withdrawing approximately 101,000 acres in the Valle Vidal 
portion of the Carson national forest (New Mexico) and 1.2 million 
acres in the Wyoming Range on the Bridger Teton National Forest.
    Much of the lands in the Flathead Forest relating to S. 3075 have 
leases on them that were issued in the 1980s but then found to be 
issued in violation of the National Environmental Protection Act and 
the Endangered Species Act and so were suspended by the Department of 
Interior. No actions have been taken to remedy the legal deficiencies 
over the last twenty five years and no drilling has occurred on any of 
these leases. In a sense, these lands have remained in a legal limbo 
where leaseholders could not easily proceed to develop them but the 
public could also not be assured that they were fully protected from 
energy development.
    Given this situation, it is instructive to see how withdrawal 
legislation passed for both the Rocky Mountain Front and the Wyoming 
Range has helped to protect those areas and see the resolution of 
similarly complicated leasing situations. With the Front, there were 
over 150,000 acres of leases within the withdrawal area passed by 
Congress and these were all valid leases, unlike those at issue with S. 
3075. There have now been five separate lease retirement agreements 
that has resulted in almost 111,000 acres of these leases being 
retired, either through purchase by conservation buyers or by donation 
to the government. The most recent agreement was in January 2010 when 
Occidental Petroleum, Rosewood Resources, XTO Energy, BP, and Williams 
voluntarily donated leases totaling 28,370 acres in the Badger Two 
Medicine portion of the Front near Glacier Park. Meanwhile, with the 
Wyoming Range, there were approximately 44,000 acres of leases within 
the withdrawal area that were offered and/or issued with legal 
deficiencies in 2005-2006. Now there is a Forest Service process 
underway which should result in the cancellation and removal of all 
these leases and the return of the holders acquisition costs (the 
February 2010 Draft EIS on these leases has as its preferred 
alternative the cancelling/removing of all these leases).
         need for slight expansion of s. 3075's withdrawal area
    While we understand that S. 3075's withdrawal boundary was 
originally drafted on a strict hydrologic boundary for the North Fork 
Flathead drainage, there is a need to slightly expand this withdrawal 
line to include some adjacent federal lands/minerals that similarly 
relate to protecting Glacier National Park and to the ecologic, 
economic, and recreational values at stake for the Flathead drainage. 
As shown in the attached map (areas in grey), these areas are 
technically in the watersheds for the Middle Fork Flathead, South Fork 
Flathead, and Whitefish Lake drainages. These requested additions to 
the withdrawal area total between 5,000 and 6,000 acres. While not 
formally in the North Fork Flathead watershed, they share the same 
problem of issued/questionable oil and gas leases and also have a 
strong and diverse constituency seeking their protection from oil and 
gas development. Numerous businesses, individuals, and elected bodies 
have written to not only endorse S. 3075 but to also ask for the 
expansion of its withdrawal area to include nearby, connected lands. 
Here is an excerpt from the City of Whitefish's letter to Senators 
Tester and Baucus:

          In addition, we would encourage your offices to support 
        expanding the geographic scope of S. 3075 to include federal 
        lands located in the headwaters of Haskill Creek, a tributary 
        to the Whitefish River in the upper Flathead River watershed. . 
        . .Withdrawing future mining, oil and gas drilling, and 
        geothermal development on federal lands located in the 
        headwaters of Haskill Creek will help achieve this goal, and 
        further safeguard our community's water supply for existing and 
        future generations of Montanans.

    We would like to go on the record as supporting withdrawal 
expansion requests like these. In addition to being consistent with the 
North Fork Flathead agreement, we would also note that it is important 
to see S. 3075's withdrawal boundary expanded to ``fill the gap'' 
around Glacier Park, during this year, the Park's centennial. Senator 
Baucus' Front withdrawal understood the need to not just limit its 
withdrawal boundary to a strict definition of the Front and so its 
boundary actually crossed out of the Lewis and Clark Forest and into 
the Flathead Forest to take in lands along Highway 2 and next to the 
southern boundary of Glacier national park. This withdrawal took in all 
the lands between the Great Bear Wilderness and Glacier Park going as 
far west as almost Essex. S. 3075 as introduced covers all the federal 
lands along Glacier's western boundary down to the town of West 
Glacier. This leaves a small but important corridor next to Glacier--
along the Middle Fork from West Glacier to Essex--unaddressed unless 
the withdrawal boundary is expanded to take in this area (see attached 
map).
    Should there be any expansion of S. 3075's withdrawal boundary, as 
we hope, Section 2 of the bill's definition of ``eligible federal 
land'' would have to be slightly amended, since it now limits the 
withdrawn area to a map with the North Fork watershed boundary.
                      other suggested refinements
          1) Clarification on withdrawal applying to future acquired 
        lands: Within S. 3075's withdrawal boundary, there are some 
        private and state owned minerals that would not be addressed by 
        this legislation. It has come to our attention, that in some 
        situations, confusion has arisen when land trades or purchases 
        have acquired such non federal interests years (or decades) 
        after Congress has passed a withdrawal for the area. In 
        essence, there is a question on whether the withdrawal applied 
        to only federal minerals at issue at the time of enactment or 
        also included any mineral interests that the federal government 
        should acquire after enactment and within the withdrawal 
        boundary. We propose S. 3075's definition for ``Eligible 
        Federal Land'' (Section 2) be amended to make this clear. For 
        example, a phrase could be inserted so that the definition 
        read: ``. . .means any federally owned land or interest in 
        land--or acquired land or interest--as depicted on the map as 
        within the North Fork Flathead watershed.''
          2) Formal clarification that no impact on lease validity = 
        Since almost all the leases on the Flathead Forest were issued 
        with just an Environmental Assessment, successfully challenged 
        (Conner v Burford) for inadequate cumulative effects analysis, 
        and then suspended, we think it is important to make clear that 
        Congress acting on a withdrawal here (which pertains to only 
        part of the Flathead Forest) not be interpreted to have some 
        impact on the legal sufficiency of these leases or on any 
        subsequent determination of the appropriateness of leasing 
        other areas on the Flathead Forest. A similar situation arose 
        with the Wyoming Range Legacy Act and so during mark up 
        language was inserted in that legislation addressing this. We 
        propose this same language be inserted in S. 3075:

                  (e) PRIOR LEASE SALES.--Nothing in this section
                  22 prohibits the Secretary from taking any action 
                necessary
                  23 to issue, deny, remove the suspension of, or 
                cancel a lease,
                  24 or any sold lease parcel that has not been issued, 
                pursuant
                  25 to any lease sale conducted prior to the date of 
                enactment
                  1 of this Act, including the completion of any 
                requirements
                  2 under the National Environmental Policy Act of 1969 
                (42
                  3 U.S.C. 4321 et seq.).

          3) Authorization for lease retirements = Concurrent and 
        beyond passage of this legislation, The Wilderness Society and 
        other groups are committed to efforts to see the leases within 
        S. 3075's boundary retired. Similar to the Rocky Mountain Front 
        example described earlier, we plan to try to convince current 
        leaseholders to retire their leases whether via sale or 
        donation. While we understand that this will have to be on a 
        voluntary basis and without federal appropriations, we believe 
        S. 3075 could play a helpful role in helping catalyze such 
        voluntary lease retirements. Specifically we think it would be 
        helpful in outreach to leaseholders (and to show the British 
        Columbia government the intent of the United States Congress to 
        fully protect our side of the North Fork Flathead) to have 
        language that authorizes lease retirement. This sort of 
        language was included in both the Rocky Mountain Front and 
        Wyoming Range withdrawal bills and serves to explicitly 
        acknowledge government's interest in accepting lease donations 
        (Wyoming Range Legacy Act) and/or provide tax breaks for this 
        purpose (Rocky Mountain Front legislation). We would hope that 
        text could be added to S. 3075 similarly authorizing lease 
        retirements.
          4) Requirement for DOI engagement with leaseholders = Related 
        to the above point, we feel it would be helpful to include 
        language requiring that following passage the Department of 
        Interior must contact all leaseholders within the withdrawal 
        area to let them know of Congress' intent to protect the area 
        and of the donation/retirement opportunities. Again, this was 
        part of the Wyoming Range Legacy Act and read:

                  SEC. 4. ACCEPTANCE OF THE DONATION OF VALID EXISTING 
                MINING OR LEASING RIGHTS IN THE WYOMING RANGE.
                  (a) NOTIFICATION OF LEASEHOLDERS.--Not later than 120 
                days after the date of enactment of this Act, the 
                Secretary shall provide notice to holders of valid 
                existing mining or leasing rights within the Wyoming 
                Range Withdrawal Area of the potential opportunity for 
                repurchase of those rights and retirement under this 
                section.
                  (b) REQUEST FOR LEASE RETIREMENT.--
                  (1) IN GENERAL.--A holder of a valid existing mining 
                or leasing right within the Wyoming Range Withdrawal 
                Area may submit a written notice to the Secretary of 
                the interest of the holder in the retirement and 
                repurchase of that right.
                  (2) LIST OF INTERESTED HOLDERS.--The Secretary shall 
                prepare a list of interested holders available to any 
                non-Federal entity or person interested in acquiring 
                that right for retirement by the Secretary.
                  (c) PROHIBITION.--The Secretary may not use any 
                Federal funds to purchase any right referred to in 
                subsection (a).
                  (d) DONATION AUTHORITY.--The Secretary shall--
                  (1) accept the donation of any valid existing mining 
                or leasing right in the Wyoming Range Withdrawal Area 
                from the holder of that right or fromany non-Federal 
                entity or person that acquires that right; and
                  (2) on acceptance, cancel that right.

                               conclusion
    TWS enthusiastically supports the overarching goal and components 
of S. 3075 and sincerely thank Senators Baucus and Tester for their 
leadership on this issue and their ongoing dedication to protecting 
this nationally important portion of the Crown of the Continent 
Ecosystem. We are committed to working to see S. 3075's passage and 
look forward to engaging with the Committee, Senator Tester and Senate 
staff to ensure that the final version of the bill is most effectively 
and serves Montana well for decades to come.
                                 ______
                                 
 Statement of Scott Bosse, Northern Rockies Director, American Rivers, 
                               on S. 3075
    On behalf of American Rivers, I am pleased to present our written 
testimony in support of S. 3075, the North Fork Watershed Protection 
Act of 2010 introduced by Montana Senators Max Baucus and Jon Tester. 
After carefully reviewing the bill, and having spent a considerable 
amount of time visiting the landscape it would affect, we believe S. 
3075 offers substantial conservation benefits for one of the most 
spectacular watersheds in North America, the local communities that are 
sustained by it, and the millions of tourists from across the nation 
and around the world who visit Glacier National Park and the greater 
Flathead region. This vital legislation is strongly supported by a 
broad cross-section of Montanans including local residents and elected 
leaders, businesses, chambers of commerce, hunters and anglers, and 
conservation organizations. To our knowledge, no organized group in 
Montana has spoken out in opposition to this bill.
                         about american rivers
    American Rivers is the largest and most trusted river conservation 
organization in the nation, with more than 65,000 members and 
supporters from all 50 states--including hundreds of Montanans--who 
share a commitment to protecting and restoring our nation's rivers for 
the benefit of people, wildlife and nature. For decades we have worked 
with local partners in Montana to permanently protect the North Fork of 
the Flathead River from various forms of mining and oil and gas 
drilling. In 2009, American Rivers included the North Fork on its 
annual list of Most Endangered Rivers<SUP>TM</SUP> due to threats from 
industrial-scale coal mining, gold mining, and oil and gas drilling in 
its headwaters along the Montana-British Columbia border.
             globally significant fish & wildlife resources
    Due to its remoteness, lack of development, and pristine water 
quality, the North Fork serves as a globally significant stronghold for 
native fish, wildlife and plant species. Among the native fish species 
found in the North Fork are bull trout, a federally threatened species, 
and westslope cutthroat trout, which have been petitioned for listing 
under the Endangered Species Act and are considered a Species of 
Special Concern by the U.S. Forest Service and state of Montana. Both 
fish species migrate from Flathead Lake in Montana up to 150 miles 
upstream to the headwaters of the North Fork in British Columbia where 
they spawn in some of the cleanest, coldest water in North America. The 
migratory bull trout of the North Fork can reach over 15 pounds and 
three feet in length.
    Thanks to its status as the last remaining undeveloped low-
elevation valley in the Northern Rockies and its unique location at the 
crossroads of five major ecosystem types, the North Fork supports an 
unparalleled diversity of wildlife species including grizzly and black 
bears, gray wolves, wolverines, lynx, elk, mule deer, whitetail deer, 
moose, bighorn sheep and mountain goats. Among its superlatives, the 
North Fork is believed to contain the greatest density of carnivores in 
North America and the greatest diversity of plant species in Canada 
including over 1,000 species of wildflowers.
                          wild & scenic rivers
    The North Fork, along with the Middle Fork and South Fork of the 
Flathead, were added to the National Wild and Scenic Rivers System in 
1976 in order to protect their outstandingly remarkable values, which 
include recreation, scenery, historic sites, and unique fisheries and 
wildlife. In passing the Wild and Scenic Rivers Act, Congress stated:

          It is hereby declared to be the policy of the United States 
        that certain selected rivers of the Nation which, with their 
        immediate environments, possess outstandingly remarkable 
        scenic, recreational, geologic, fish and wildlife, historic, 
        cultural or other similar values, shall be preserved in free-
        flowing condition, and that they and their immediate 
        environments shall be protected for the benefit and enjoyment 
        of present and future generations. The Congress declares that 
        the established national policy of dams and other construction 
        at appropriate sections of the rivers of the United States 
        needs to be complemented by a policy that would preserve other 
        selected rivers or sections thereof in their free-flowing 
        condition to protect the water quality of such rivers and to 
        fulfill other vital national conservation purposes.

    In addition to the North Fork already being designated as a Wild 
and Scenic river, the U.S. Forest Service has found 113 miles of its 
tributaries to be eligible for inclusion in the National Wild and 
Scenic Rivers System. These tributaries, all of which flow into the 
North Fork from the Whitefish Range, include Big Creek, Coal Creek, 
South Fork Coal Creek, Cyclone Creek, Gateway Creek, Hallowat Creek, 
Langford Creek, Mathias Creek, Moose Creek, Red Meadow Creek, Shorty 
Creek, South Fork Shorty Creek, Trail Creek, and Whale Creek (see 
Appendix B* for map showing all designated and eligible river reaches 
in the Flathead watershed). Under the Wild and Scenic Rivers Act and 
the Flathead National Forest's current Forest Plan, these eligible 
tributaries are supposed to be managed as it they were already 
designated.
---------------------------------------------------------------------------
    * Appendix A-C have been retained in subcommittee files.
---------------------------------------------------------------------------
                     oil & gas resources negligible
    While some public lands in the North Fork watershed were leased for 
oil and gas drilling in the 1980s, the Department of the Interior 
subsequently suspended all of those leases due to legal deficiencies 
pertaining to National Environmental Policy Act and Endangered Species 
Act compliance. Consequently, no oil and gas drilling has occurred on 
public lands in the North Fork watershed, and no economic impacts would 
occur if these leases were permanently withdrawn.
    There is recent precedent for Congress withdrawing certain 
outstanding public lands from mining and oil and gas leasing due to 
unacceptable impacts to water quality, air quality, fish and wildlife, 
scenery, and archeological sites. For example, in 2006 Senator Baucus 
sponsored legislation that withdrew 500,000 acres of public lands along 
the Rocky Mountain Front from oil and gas leasing. In the Omnibus 
Public Lands Management Act of 2009, Congress withdrew 1.2 million 
acres of the Wyoming Range in northwest Wyoming from oil and gas 
leasing, and another 101,000 acres in New Mexico's Valle Vidal.
          recent agreement between montana & british columbia
    Following more than three decades of highly contentious battles 
over proposed mining and oil and gas drilling in the headwaters of the 
North Fork, British Columbia announced in February 2010 its intention 
to withdraw its portion of the Flathead watershed from all forms of 
mining and oil and gas drilling. Shortly thereafter, Montana Governor 
Brian Schweitzer and British Columbia Premier Gordon Campbell signed an 
international agreement that committed the U.S. and Canada to, among 
other things: ``Remove mining, oil and gas, and coal development as 
permissible land uses in the Flathead River Basin.'' By passing S. 
3075, Congress can uphold the promises Montana made in the agreement, 
while also increasing the likelihood that British Columbia will follow 
through on its commitments.
                 suggested expansion of withdrawal area
    While American Rivers fully supports the language and overarching 
goals of S. 3075 and understands that the bill is targeted towards 
protecting the North Fork watershed, we believe it makes sense to 
expand the withdrawal area to include those lands previously leased in 
adjacent portions of the Middle Fork Flathead, South Fork Flathead and 
Whitefish Lake drainages (see map in Appendix C for recommended 
additions to withdrawal area). This would increase the area of land 
withdrawn by approximately 5,000-6,000 acres. Withdrawing these 
additional public lands from future mining and oil and gas drilling 
would help protect the Wild and Scenic Middle Fork and South Fork of 
the Flathead River, their outstanding native fish and wildlife 
resources, and local businesses which depend on clean water, healthy 
fish and wildlife, and spectacular scenery.
                               conclusion
    Given the globally significant environmental values of the North 
Fork watershed including its pristine water quality, wild rivers, and 
unparalleled abundance and diversity of fish and wildlife; the non-
existent role that mining and oil and gas drilling in the North Fork 
plays in the local economy; the widespread local support for 
permanently protecting the watershed from such activities; and the 
recent agreement signed by Montana and British Columbia; American 
Rivers strongly supports passage of S. 3075 with our recommended 
additions and commends Senators Baucus and Tester for taking a 
leadership role in introducing it. As our nation celebrates the 100-
year anniversary of Glacier National Park this year, Congress could 
give the nation no greater gift than to protect the pristine waters 
that form its western boundary.
    Thank you for taking our testimony into consideration.
                                 ______
                                 
  Statement of Chuck Stearns, City Manager, Mike Jenson, Mayor, John 
   Muhlfeld, Councilor, City of Whitefish, Whitefish, MT, on S. 3075
    On behalf of the City of Whitefish, Montana, we. are writing to 
express our support for S. 3075 North Fork Watershed Protection Act of 
2010 that would withdraw future mining, oil and gas drilling, and 
geothermal development on USDA Forest Service lands in the North Fork 
Flathead River drainage in western Montana. In addition, we would 
encourage your offices to support expanding the geographic scope of S, 
3075 to include federal lands located in the headwaters of Haskill 
Creek, a tributary to the Whitefish River in the Upper Flathead River 
watershed. The City of Whitefish, with a population of over 7,000 
residents, derives its municipal water supply from surface water 
diversions located in Second Creek and Third Creek, two primary 
tributaries to Haskill Creek. A majority of the watershed area located 
upstream of these intake facilities, is comprised of Flathead National 
Forest lands.
    We support efforts that will result in the protection of both 
surface water and groundwater resources in the City's municipal 
watershed. Withdrawing future mining, oil and gas drilling, and 
geothermal development on federal lands located in the headwaters of 
Haskill Creek will help achieve this goal, and further safeguard our 
community's water supply for existing and future generations of 
Montanans.
    Thank you for your consideration and the opportunity to comment on 
this important matter.
                                 ______
                                 
    Statement of Brianna Randall, Water Policy Director, Clark Fork 
                   Coaltion, Missoula, MT, on S. 3075
    Thank you for the opportunity to present written testimony in 
support of S. 3075, the North Fork Watershed Protection Act of 2010, 
introduced by Montana Senators Max Baucus and Jon Tester. The Clark 
Fork Coalition strongly believes that this important piece of 
legislation offers immense conservation value and provides natural 
resource benefits nationwide.
    The Clark Fork Coalition, founded in 1985, is a non-profit 
organization based in Missoula, Montana that represents 1,500 members 
united behind the cause to create healthy rivers and vibrant 
communities. We work to protect and restore the 22,000-square-mile 
Clark Fork watershed in western Montana and northern Idaho. This 
legislation now before your committee, S. 3075 , will protect public 
lands and water quality in our basin by withdrawing future mining, oil 
and gas drilling, and geothermal development from the spectacular lands 
in the North Fork of the Flathead watershed. In addition to supporting 
this bill wholeheartedly, the Coalition also urges you to expand the 
scope of the legislation beyond the North Fork to include portions of 
the Middle and South Fork of the Flathead Rivers highlighted in the 
attached map.
    The Flathead River is the largest tributary in the Clark Fork River 
basin and is comprised of the South, Middle, and North Forks--world-
renowned rivers draining unique mountain ranges, wilderness areas and 
parks (including the world's first International Peace Park spanning 
Waterton-Glacier National Parks) before coming together to form the 
deep, clean waters of Flathead Lake.
    The North Fork watershed, which forms the western boundary of 
Glacier National Park and carries waters drained from the southeast 
corner of British Columbia, has long been threatened by Canadian mining 
interests seeking to exploit mineral resources. Proposed mining and 
drilling projects in the headwaters of the Flathead River prompted this 
recently-signed agreement, which was accompanied by legislation in 
British Columbia to make mining off-limits north of Glacier.
    This legislation will protect public lands, rivers and streams in 
the North Fork Flathead watershed by withdrawing rights for future 
mining, oil and gas drilling, and geothermal development on U.S. Forest 
Service land. In effect, dormant mineral leases in this drainage could 
be swapped or bought out. As Senator Baucus has noted, companies will 
likely make more money by negotiating out of leases by avoiding the 
costly uphill battles that would face any new mining project proposed 
for this politically and environmentally sensitive landscape.
    The land and water resources in the Flathead provide vital economic 
benefits and ecological services for Montana as well as the Northern 
Rockies and Cascadia ecosystems.

  <bullet> Its headwaters flow through some of the richest and most 
        diverse habitat in the lower 48, and supply clean, cold water 
        to Flathead Lake, one of the most pristine lakes in the world.
  <bullet> The groundwater and streams provide drinking water for 
        several communities in western Montana.
  <bullet> The trout streams, magnificent forests and towering peaks in 
        the Flathead watershed offer unparalleled public recreational 
        opportunities beloved by Coalition members and cherished by 
        people nationwide. Tourists spend an estimated $150 million 
        every year in the Flathead Valley.

    These are just a few of the reasons why the Clark Fork Coalition is 
supportive of S. 3075, and why we are also asking the Committee to 
consider protecting all of the headwaters of the Flathead River by 
adding the Middle Fork and South Fork into S. 3075. Like the North 
Fork, the public lands that drain into these two rivers also contain 
oil and gas leases that have been suspended since the mid-1980s. Though 
much of the Middle and South Fork lie within wilderness areas, these 
watersheds still have unprotected--and irreplaceable--lands within the 
Flathead National Forest that have existing mining leases and would 
benefit from this mineral withdrawal legislation.
    In conclusion, the Clark Fork Coalition and our members fully 
support S. 3075, and appreciate your time on this bill. We also believe 
that including mineral withdrawal for all three forks of the Flathead 
River in S. 3075 would create a complete package that ensures the 
Flathead watershed's natural resources can sustain and recharge the 
Clark Fork watershed--and provide public recreation and natural 
resource amenities for the nation--for the long-haul.
    Thank you for considering our testimony.
                                 ______
                                 
Statement of Dave Hadden, Director, Headwaters Montana, Whitefish, MT, 
                               on S. 3075
    On behalf of our thousands of Montana members who cherish Glacier 
National Park, the North Fork Flathead River valley, and Flathead Lake, 
we write to express our organizations' enthusiastic support for S. 
3075, the North Fork Watershed Protection Act of 2010, which withdraws 
future mining, oil and gas drilling, and geothermal development on US 
Forest Service land in Montana's North Fork Flathead River watershed.
    We also ask that you slightly expand the boundary of S. 3075 to 
incorporate the remainder of the Middle Fork of the Flathead River to 
complete the protection of Glacier Park, the south flank of the 
Whitefish Range and Haskill Basin to protect recreation assets and 
Whitefish City's water supply, and the Coram Canyon area to protect the 
Flathead River and recreation. The attached map illustrates our 
recommended boundary.
    Our organizations have worked for years to permanently protect the 
waters of the Transboundary Flathead River. We strongly commend your 
work and your cooperative efforts with the Governor's office to quickly 
implement the provisions called for in the B.C.--Montana Memorandum of 
Understanding (MOU).
    With its headwaters in British Columbia and its downstream reaches 
in Montana, the Transboundary Flathead River Valley forms the core of 
Waterton-Glacier International Peace Park and the Crown of the 
Continent ecosystem. This ecosystem supports an unmatched diversity of 
wildlife including the greatest density of grizzly bears in interior 
North America and some of the continent's healthiest runs of native 
bull trout and cutthroat trout. The river also functions as a major 
tributary to the Flathead River that delivers pristine water to 
Flathead Lake.
    We view S. 3075 as a critical step towards implementing the MOU 
that calls for a ban all types of mining and oil and gas extraction in 
the Transboundary Flathead Valley. Only the United States Congress has 
the legislative authority to implement this agreement on federal lands 
on the Montana side of the border. Senate Bill 3075 accomplishes this 
goal in part.
    Today, as we prepare to celebrate the 100th anniversary of Glacier 
National Park, the United States and Canada have an historic 
opportunity to permanently protect the North Fork of the Flathead 
River, Glacier National Park, and Flathead Lake for the next 
generation. Senate Bill 3075 represents a crucial component of this 
legacy and we look forward to working with you to secure its passage.
                                 ______
                                 
Statement of Chuck Whitson, Chairman, and Paddy Trusler, Member, board 
          of Lake County Commissioners, Poison, MT, on S. 3075
    The Lake County Commission supports Senate Bill 3075, the North 
Fork Watershed Protection Act of 2010, which withdraws future mining, 
oil and gas drilling, and geothermal development on U.S. Forest Service 
land in Montana's North Fork Flathead River watershed.
    We also support slightly modifying the boundary of S. 3075 to 
incorporate the remainder of the Middle Fork of the Flathead River 
corridor to complete the protection of Glacier Park, the south flank of 
the Whitefish Range and Haskill Basin to protect recreation assets and 
Whitefish City's water supply, and the Coram Canyon area to protect the 
Flathead River and recreation. The attached map shows the proposed 
boundary.
    The Flathead Watershed is a unique and special place, and Flathead 
Lake is an important asset to Lake County, our communities, our economy 
and our local businesses, as well as to the greater Flathead region, 
the state of Montana and beyond. The quality of Flathead Lake is 
dependent on the quality of the waters that feed it. The headwaters of 
this unique resource are inappropriate for mining and oil and gas 
development, which could significantly degrade its quality. S. 3075 
will help protect Flathead Lake water quality and the economic health 
of our communities from these upstream threats. S. 3075 is an important 
step towards implementing the Montana-British Columbia agreement signed 
by Governor Schweitzer and Premier Campbell that bans mining and oil 
and gas extraction in the transboundary North Fork Flathead Valley.
    The United States and Canada have a historic opportunity to protect 
the North Fork of the Flathead River, Glacier National Park, and 
Flathead Lake for future generations. S. 3075 represents a crucial 
component of this legacy. Thank you for your work to protect Flathead 
Waters.
                                 ______
                                 
Statement of Carolyn Beecher, Chair, Lake County Democrats, Poison, MT, 
                               on S. 3075
    As citizens who value the quality of our water and our environment, 
Lake County Democrats urge you to attend to the matter of retiring the 
oil and gas leases in the Whitefish Range to the west of the North Fork 
of the Flathead River. From the perspective of the Canadians, we look 
quite foolish to be asking them to deny coal leases north of the border 
when we retain them just south of the border.
    As you well know, Glacier National Park has been declared 
endangered by the threat of coal mining, both open pit and coalbed 
methane, up the headwaters of the North Fork of the Flathead River. 
Pollutants flowing into this river, which forms Glacier's western 
boundary and contributes to the waters of Flathead Lake, would heavily 
impact water quality, wildlife and fisheries in this pristine territory 
and alter the quality of life for residents of Lake County and the 
Salish/Kootenai Reservation.
    We ask you to take action, as you have previously proposed, to 
retire the oil and gas leases in the North Fork Flathead Watershed to 
demonstrate to British Columbia and Canada that the U.S. is willing to 
make sacrifices to protect Flathead waters and wildlife on our side of 
the international boundary. Retiring the leases will hopefully prompt 
B.C. to engage in further cross-boundary discussions rather than taking 
unilateral action that would cause permanent damage. Since court action 
in the Conner v. Burford case has left the leases in limbo since 1988, 
we presume that retiring the North Fork leases can be accomplished in a 
simple and cost-effective way.
    We also believe it is critical for Montana's Congressional 
delegation to revive the dialogue between the U.S. and Canadian 
governments on this topic to ensure that B.C. engages Montana and both 
federal governments in full and open discussion of possible actions to 
resolve our concerns. We continue to support a comprehensive 
transboundary cumulative impacts analysis of coal and other potential 
resource extraction proposals.
    Thank you for making this important issue a priority for your time 
and attention.
                                 ______
                                 
 Statement of John Engen, Mayor, City of Missoula, Missoula, MT, on S. 
                                  3075
    Thank you for introducing S. 3075, the North Fork Watershed 
Protection Act of 2010. The City of Missoula supports this important 
piece of legislation and its goal of protecting public lands and water 
quality by withdrawing future mining, oil and gas drilling, and 
geothermal development on U.S. Forest Service land. However, we urge 
you to expand the scope of the legislation beyond the North Fork to 
include all lands in the Flathead National Forest.
    A significant portion of property owners in the Flathead region are 
residents of and voters in Missoula. These citizens own cabins, second 
homes, or land along the lakes and streams and in the forests and 
mountains of the Flathead watershed. Like the North FOrk watershed, the 
public lands throughout the Flathead also contain oil and gas leases 
that have been suspended since the mid-1980s.
    We believe that the irreplaceable lands within the Middle and South 
Forks of the Flathead River watersheds that are now unprotected from 
mineral development would also benefit from this legislation. The land 
and water resources in the Flathead National Forest provide vital 
economic benefits and ecological services for Montanans, including 
drinking water for several communities, as well as unparalleled public 
recreational opportunities beloved by Missoula residents and cherished 
by people nationwide.
    Please consider protecting all of the headwaters of the Flathead 
River--the North, Middle, and South Fork drainages--by expanding the 
scope of S. 3075. By passing a ``complete package,'' this legislation 
will ensure that the headwaters of the Flathead River can sustain our 
communities for future generations of Montanans.
    Thank you again for introducing S. 3075. We fully support this 
legislation, and appreciate all of your work on behalf of Missoula's 
residents and natural resources.
                                 ______
                                 
 Statement of Michele Landquist, Chair, Bill Carey, Commissioner, Jean 
Curtiss, Commissioner, Board of County Commissioners, Missoula, MT, on 
                                S. 3075
    Thank you for introducing S. 3075, the North Fork Watershed 
Protection Act of 2010. Missoula County supports this important piece 
of legislation and its goal of protecting public lands and water 
quality by withdrawing future mining, oil and gas drilling, and 
geothermal development on U.S. Forest Service land. We also encourage 
you to consider expanding the legislation beyond the North Fork to 
include the South and Middle Forks of the Flathead River.
    A significant portion of property owners in the Flathead region are 
residents of, and voters in, Missoula County. These citizens own 
cabins, second homes, or land along the lakes and streams and in the 
forests and mountains of the Flathead watershed. Like the North Fork 
watershed, the public lands in the South and Middle Forks contain oil 
and gas leases that have been suspended since the mid-1980's.
    We believe that the irreplaceable lands within the Middle and South 
Forks of the Flathead River watersheds, that are now unprotected from 
mineral development, would also benefit from this legislation. The land 
and water resources in the Flathead watersheds provide vital economic 
benefits and ecological services for Montanans, including drinking 
water for several communities. It provides unparalleled public 
recreational opportunities beloved by County residents and cherished by 
people nationwide.
    Please consider protecting all of the headwaters of the Flathead 
River--the North, Middle, and South Fork drainages--by expanding the 
scope of S. 3075. By passing a ``complete package,'' this legislation 
will ensure that the headwaters of the Flathead River can sustain our 
communities for future generations of Montanans.
    Thank you again for introducing S. 3075. We fully support this 
legislation and its goals. We appreciate all of your work on behalf of 
Missoula County's residents and natural resources.
                                 ______
                                 
  Statement of Rose Schwennesen, President, Flathead Coalition, John 
   Frederick, President, North Fork Preservation Association, Daphne 
    Herling, President, Montana Wilderness Association, Jim Jensen, 
      Executive Director, Montana Environmental Information Center
    On behalf of our thousands of Montana members who cherish Glacier 
National Park, the North Fork Flathead River valley, and Flathead Lake, 
we write to express our organizations' enthusiastic support for S. 
3075, the North Fork Watershed Protection Act of 2010, which withdraws 
future mining, oil and gas drilling, and geothermal development on US 
Forest Service land in Montana's North Fork Flathead River watershed.
    We also ask that you slightly expand the boundary of S. 3075 to 
incorporate the remainder of the Middle Fork of the Flathead River to 
complete the protection of Glacier Park, the south flank of the 
Whitefish Range and Haskill Basin to protect recreation assets and 
Whitefish City's water supply, and the Coram Canyon area to protect the 
Flathead River and recreation. The attached map illustrates our 
recommended boundary.
    Our organizations have worked for years to permanently protect the 
waters of the Transboundary Flathead River. We strongly commend your 
work and your cooperative efforts with the Governor's office to quickly 
implement the provisions called for in the B.C.--Montana Memorandum of 
Understanding (MOU).
    With its headwaters in British Columbia and its downstream reaches 
in Montana, the Transboundary Flathead River Valley forms the core of 
Waterton-Glacier International Peace Park and the Crown of the 
Continent ecosystem. This ecosystem supports an unmatched diversity of 
wildlife including the greatest density of grizzly bears in interior 
North America and some of the continent's healthiest runs of native 
bull trout and cutthroat trout. The river also functions as a major 
tributary to the Flathead River that delivers pristine water to 
Flathead Lake.
    We view S. 3075 as a critical step towards implementing the MOU 
that ban all types of mining and oil and gas extraction in the 
Transboundary Flathead Valley. Only the United States Congress has the 
legislative authority to implement this agreement on federal lands on 
the Montana side of the border. Senate Bill 3075 accomplishes this goal 
in part.
    Today, as we prepare to celebrate the 100th anniversary of Glacier 
National Park, the United States and Canada have an historic 
opportunity to permanently protect the North Fork of the Flathead 
River, Glacier National Park, and Flathead Lake for the next 
generation. Senate Bill 3075 represents a crucial component of this 
legacy and we look forward to working with you to secure its passage.
                                 ______
                                 
 Statement of Margie Alt, Executive Director, Environment America,* on 
                                S. 3075
---------------------------------------------------------------------------
    * Other undersigned groups: Frances Beinecke, President & CEO, 
Natural Resource Defense Council; Michael Brune, Executive Director, 
Sierra Club; Thomas Kiernan, President, National Parks Conservation 
Association; Daniel B Magraw Jr., President, Center for International 
Environmental Law; William H. Meadows, President, The Wilderness 
Society; Trip Van Noppen, President, Earthjustice; Erich Pica, 
President, Friends of the Earth; Larry Schweiger, President & CEO, 
National Wildlife Federation; Mark Tercek, President & CEO, The Nature 
Conservancy; Rebecca Wodder, President, American Rivers.
---------------------------------------------------------------------------
    On behalf of our millions of members who cherish America's national 
parks, public lands and wild and scenic rivers, we are writing to 
express our organizations' enthusiastic support for S. 3075, the North 
Fork Watershed Protection Act of 2010, which would withdraw US Forest 
Service land in Montana's North Fork Flathead River watershed from 
future mining, oil and gas drilling, and geothermal leasing and 
extraction.
    With its headwaters in British Columbia and its downstream reaches 
in Montana, the Transboundary Flathead River Valley forms the core of 
Waterton-Glacier International Peace Park and the Crown of the 
Continent ecosystem. This ecosystem supports an unmatched diversity of 
wildlife including the greatest density of grizzly bears in interior 
North America and some of the continent's healthiest runs of native 
bull trout and cutthroat trout.
    Passing S. 3075 is a critical step toward implementing the 
International Flathead Agreement signed last month by Montana Governor 
Brian Schweitzer and British Columbia Premier Gordon Campbell to ban 
all types of mining and oil and gas extraction in the Transboundary 
Flathead Valley. Only the United States Congress has the legislative 
authority to implement this agreement on federal lands in the Montana 
portion of the watershed.
    The benefits of passing S. 3075 are national in scope. Not only is 
the Transboundary Flathead River Valley one of America's last great 
wild places, but the snow-fed rivers and streams of Glacier National 
Park are the headwaters of North America. These rivers flow through 16 
states and four Canadian provinces on their way to the Atlantic, 
Pacific and Arctic oceans. As the effects of climate change become more 
acute, the abundant source of clean water that emanates from Glacier's 
snow-covered peaks will become even more valuable over the coming 
decades.
    Today, as we prepare to celebrate the 100th anniversary of Glacier 
National Park, the United States and Canada have an historic 
opportunity to protect the North Fork of the Flathead River, Glacier 
National Park, and the Crown of the Continent ecosystem for the next 
generation of North Americans. Passage of S. 3075 is absolutely vital 
to complete this legacy.
    Our organizations look forward to working with you, the United 
States Congress, and the Obama Administration to pass this important 
legislation. Please feel free to contact us if we may be of further 
assistance.
                                 ______
                                 
  Statement of the National Parks Conservation Association, on S. 3075
    Thank you for the opportunity to submit written testimony regarding 
S. 3075 The North Fork Watershed Protection Act--an important piece of 
legislation that will help preserve the international legacy of 
Waterton-Glacier International Peace Park. We thank Senators Baucus and 
Tester for introducing this legislation and take particular note of 
Senator Baucus' thirty-year commitment to protect Glacier National Park 
and the North Fork of the Flathead Watershed from industrial mining, in 
both the Canadian headwaters and the Montana portions of the watershed.
    Since 1919, the National Parks Conservation Association (N PCA) has 
been the leading voice of the American people on behalf of our national 
parks. Our mission is to protect and enhance America's National Park 
System for current and future generations. On behalf of our more than 
330,000 members, we urge the Committee's support and passage of S. 
3075.
    Our national parks are home to some of the nation's most iconic and 
sacred landscapes, monuments, and historic sites. They are among the 
most recognizable places in the world. In just three weeks, on May 
11th, our nation will commemorate the 100th anniversary of Glacier 
National Park. The passage of S. 3075 represents a historic opportunity 
for this Congress to build upon this legacy in its own right.
    Protecting over one million acres of public lands in northwest 
Montana, Glacier National Park is a crown jewel of the national park 
system. Established one hundred years ago ``for the benefit and 
enjoyment of the people of the United States,'' Glacier's sculpted 
peaks, mountain valleys, and clean waters are enjoyed by more than two 
million people each year and provide crucial habitat for threatened 
species including the grizzly bear, bull trout, and Canada lynx.
    The natural and ecological benefits provided by Glacier National 
Park extend beyond the park's boundaries. The snow-fed streams and 
mountain rivers of Glacier are the headwaters of North America, and are 
the source of rivers that flow into the Pacific Ocean, the Gulf of 
Mexico, and Hudson Bay. Before reaching these bodies of water, these 
rivers flow through 16 States and four Canadian provinces. Glacier's 
snow-covered peaks serve as a natural reservoir and essential source of 
clean water--which is one of our continent's most important and 
essential resources.
    The park also plays a significant role in the regional economy of 
many Montana communities. More than two million visitors come to 
Glacier each year providing a direct economic impact that exceeds $150 
million dollars. The Kalispell, Montana Chamber of Commerce estimates 
that 20 percent of the Flathead Valley's economic activity is the 
direct result of Glacier National Park. The economic value of 
protecting Glacier's unique and pristine waters and surrounding public 
lands through this legislation cannot be understated.
  s. 3075 will protect the world's first international peace park and 
                 strengthen u.s. relations with canada
    In 1932, acts of the U.S. Congress and Canadian Parliament 
designated Glacier National Park and Waterton Lakes National Park in 
Alberta, Canada as Waterton-Glacier International Peace Park--the 
world's first international peace park. This relationship of peace and 
goodwill has served as a source of inspiration for nations around the 
world and today there are more than one hundred international peace 
parks on five continents.
    The exceptional natural values of Waterton-Glacier International 
Peace Park are of global significance. National Geographic has deemed 
it ``one of the most diverse and ecologically intact natural ecosystems 
in the temperate zones of the world,'' and in 1995 Waterton-Glacier was 
added to the list of the United Nations Educational, Scientific and 
Cultural Organization's (UNESCO) World Heritage sites in recognition of 
the peace park's unique geology, abundant and diverse plant and animal 
communities, and glacial landscape. Earlier this year, the IUCN/World 
Heritage Center delivered a report to the governments of Canada and the 
United States that supported prohibiting mining in the Flathead Valley 
and in support of developing a conservation and wildlife management 
plan for the peace park.
    More recently, Governor Schweitzer and British Columbia Premier 
Gordon Campbell signed a Memorandum of Understanding (MOU) and 
Cooperation on environmental protection, climate action, and energy. 
The MOU identifies broad areas for cooperation and partnership; and, 
most importantly, it also contains some very specific language 
regarding the North Fork: ``BC and Montana commit to remove mining, oil 
and gas, and coal development as permissible land uses in the [North 
Fork].'' The MOU must be implemented by changing applicable laws in 
both countries. In British Columbia, the Premier amended three 
different laws to ban mining in the Canadian Flathead the day after the 
signing of the MOU. For the U.S., S. 3075 is a crucial step forward in 
meeting the State of Montana's responsibilities under the MOU and 
enjoys strong support from numerous communities, including the 
Kalispell Chamber of Commerce.
    to better safeguard glacier national park and the crown of the 
    continent ecosystem, the withdrawal boundary should be expanded
    While NPCA strongly supports S. 3075, we also believe that this 
legislation can be improved with the inclusion of a boundary expansion 
to include the withdrawal of certain public lands from mining and 
mineral activities in the Wild & Scenic River corridor of the Middle 
Fork of the Flathead River, which is the primary access point for the 
more than 2 million people who visit Glacier each year. Inclusion of 
the Middle Fork corridor would ``fill the gap'' around Glacier National 
Park and prevent future inappropriate mining activity on critical 
wildlife habitat and front country area enjoyed by park visitors.
    We also believe that expanding the boundary to include the Haskill 
Basin is warranted since it is a source of municipal water drinking 
supply for more than 10,000 local residents in the Whitefish area and 
also has tremendous conservation value. Here is an excerpt from the 
City of Whitefish's letter to Senators Tester and Baucus:

          In addition, we would encourage your offices to support 
        expanding the geographic scope of S. 3075 to include federal 
        lands located in the headwaters of Haskill Creek, a tributary 
        to the Whitefish River in the upper Flathead River watershed. 
        ...Withdrawing future mining, oil and gas drilling, and 4 
        geothermal development on federal lands located in the 
        headwaters of Haskill Creek will help achieve this goal, and 
        further safeguard our community's water supply for existing and 
        future generations of Montanans.

    Furthermore, Winter Mountain Sports, I nc., which operates 
Whitefish Mountain Resort, supports S. 3075 and the inclusion of 
Haskill Basin. In the CEO's letter to Senators Baucus and Tester, he 
states:

          In particular, I support your legislation S. 3075, the North 
        Fork Watershed Protection Act of 2010 that would withdraw 
        future mining, oil and gas drilling, and geothermal development 
        on U.S. Forest Service land in the North Fork Flathead. As the 
        leaseholder for the Whitefish Mountain Resort at Big Mountain 
        (Winter Sports Inc.), we would also support including 
        withdrawals for the Big Mountain and Haskill Basin in S. 3075.
          We understand that the existing, judicially suspended leases 
        (in 1988) may in fact have little or no legal basis for being 
        maintained. It would make sense, therefore, to resolve this 
        issue at the perimeter of the North Fork watershed (the Big 
        Mountain area). Winter Sports Inc. does not think oil, gas or 
        mineral development on its lease area would be an appropriated 
        use.

    As the attached map (areas in grey) demonstrates, these areas are 
technically outside the North Fork Watershed; however, they are 
important landscapes that drain into Flathead Lake, the largest natural 
body of freshwater in the western United States. These requested 
additions will afford vital protections to beloved recreational access 
sites and municipal drinking water.
    NPCA believes there is clear local support for these amendments to 
the legislation: businesses, individuals, and elected bodies have 
written to endorse S. 3075 and ask for the expansion of its withdrawal 
area to include nearby, connected lands.
    Mr. Chairman and Ranking Member Murkowski, with S. 3075 you have a 
tremendous opportunity to make a lasting contribution to the 
international legacy of Glacier National Park. Americans love our 
national parks, and this legislation affords the opportunity for our 
generation to give our kids and grandkids the opportunity to experience 
a wild and scenic Flathead River--just as we have.
                                 ______
                                 
      Statement of Charles Myers, Chairman, Elko County Board of 
                  Commissioners, Elko, NV, on S. 3185
    In 2002 Elko County was approached by several different user groups 
that included motorized recreational vehicles. These groups were very 
frustrated and unsure as to continued uses of OHV / ATV uses and other 
types of motorized uses on public lands. The Board of County 
Commissioners instructed staff to locate potential areas of public 
lands that would be acceptable to the OHV / ATV uses. At that time, 
Elko County began to identify several areas of public lands that could 
provide a specific location for motocross racing, ATV / OHV use and 
other motorized off road use. The county working directly with the BLM 
expended many staff hours identifying potential lands. Elko County and 
the BLM identified and studied several areas as to potential negative 
and positive impact. The West Elko site was the final choice due to its 
minimal negative impacts, indirect proximity to the City of Elko and 
direct access to adjacent Interstate 80. The proposed location is 
indirectly adjacent to an existing R&PP lease for recreation purposes, 
the Elko County Public Shooting Range. The two uses will complement 
each other and present no conflict. The shooting range has been in use 
for over twenty years and is currently in the Patent Lands Act process. 
The R&PP lease application for the West Elko Motocross site was filed 
with the BLM in June of 2004. To date action is still pending from the 
BLM due to a lack in Realty staff in the local office.
    In 2009 the staffs of Senator Reid and Senator Ensign were made 
aware of the issue and contacted Elko County to provide assistance. 
Both staffs provided options to acquire the public lands and 
subsequently the West Elko site was included with the Te-Moak Tribe of 
the Western Shoshone Indians of Nevada public lands request. Senator 
Reid and Senator Ensign's staffs worked very diligently in assisting 
the Te-Moak Tribe and Elko County with these proposed actions.
    The many user groups are awaiting the availability of the public 
lands and have committed to the development of the land for multiple 
users of OHV, ATV, Motocross, BMX / Mountain Bicycling, Oval Track Auto 
Racing, Four Wheel Drive Vehicles and many others. The development of 
this area will also provide positive economic impacts to the City of 
Elko and Elko County due to the close availability of a facility for 
sanctioned motocross and OHV / ATV events.
    The local BLM has advised Elko County that the current R&PP Lease 
Application could require an additional five to seven years to process. 
The application was submitted to the BLM in 2004, six years ago, with 
little or no action to date. Should the application require an 
additional five to seven years it is quite possible the community will 
lose their interest in the site and revert back to other less 
attractive alternatives including potentially causing nuisances on 
public lands. The proposed multiple use OHV / ATV facility is very much 
desired by the public of Elko County to promote a central location for 
these specific uses and supported by BLM to reduce motorized 
degradation of public lands. The Elko County Board of Commissioners is 
in unanimous and strong support of the proposed S. 3185 and sincerely 
appreciates the involvement and hard work of Senators Reid and Ensign 
to make this a reality for its citizens.

                                    

      

</pre></body></html>
